<html>
<title> - THE COASTAL ZONE MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 106-1051]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1051

                    THE COASTAL ZONE MANAGEMENT ACT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

74-731              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel
                                 ------                                

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held May 6, 1999.........................................     1
Statement of Senator Kerry.......................................    14
    Prepared statement...........................................    14
Statement of Senator Snowe.......................................     1

                               Witnesses

Garcia, Terry D., Assistant Secretary of Commerce for Oceans and 
  Atmosphere, accompanied by Sally Yozell, Deputy Assistant 
  Secretary of Commerce for Oceans and Atmosphere, U.S. 
  Department of Commerce.........................................     3
    Prepared statement...........................................     5
Keeley, David, Maine State Planning Office.......................    23
    Prepared statement...........................................    25
Cooksey, Sarah W., administrator, Delaware Coastal Management 
  Program, and President, Coastal States Organization............    27
    Prepared statement...........................................    30
Eichenberg, Tim, program counsel, Center for Marine Conservation 
  (CMC), on behalf of the CMC, the American Oceans Campaign, 
  Coast Alliance, and Natural Resources Defense Council..........    39
    Prepared statement...........................................    42
Earle, Sylvia A., Ph.D., explorer in Residence, National 
  Geographic Society.............................................    46
    Prepared statement...........................................    49

                                Appendix

Response to written questions submitted by Hon. John F. Kerry to:
    Terry D. Garcia..............................................    57
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Sarah W. Cooksey.............................................    62
    Sylvia A. Earle..............................................    61
    Tim Eichenberg...............................................    68
    Terry D. Garcia..............................................    64
    David Keeley.................................................    58
Comments from NERRA..............................................    70

 
                    THE COASTAL ZONE MANAGEMENT ACT

                              ----------                              


                         THURSDAY, MAY 6, 1999

                                       U.S. Senate,
                      Subcommittee on Oceans and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Olympia J. 
Snowe, chairman of the subcommittee, presiding.
    Staff present at this hearing. Sloan Rappoport, Republican 
counsel and Stephanie Bailenson, Republican professional staff; 
and Margaret Spring, Democratic senior counsel.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. The hearing will come to order. Before I 
begin, I would like to welcome the witnesses and others here in 
attendance today. We will be addressing in the course of this 
hearing the reauthorization of the Coastal Zone Management Act, 
or the CZMA.
    The United States has more than 95,000 miles of coastline 
along the Atlantic, Pacific, and Arctic Oceans; the Gulf of 
Mexico; and the Great Lakes. Nearly 53 percent of all Americans 
live in the coastal regions that account for only 11 percent of 
the country's total land area.
    This small portion of the country supports approximately 
200 seaports, contains most of our largest cities, and serves 
as the critical habitat for a variety of plants and animals. 
Further, it is expected that the United States coastal 
population will reach 165 million by the year 2015, up from 110 
million in 1990. With this rise in population, there will be a 
tremendous increase in the demands that are placed both on the 
coastal resources and infrastructure.
    To help meet these challenges, Congress enacted the Coastal 
Zone Management Act in 1972. The CZMA provides incentives to 
States to develop comprehensive programs balancing many 
competing uses of coastal resources, and to meet the needs for 
the future growth of coastal communities.
    So far, 32 of the 35 eligible coastal States and U.S. 
Territories have federally approved plans. Two of the remaining 
eligible States are currently completing their plans. I am 
proud to say that my State of Maine has had a federally 
approved plan since 1978.
    The approved plans encompass 99 percent of the eligible 
U.S. coastline. As a voluntary program, the framework of CZMA 
provides guidelines for state plans that address multiple 
societal, cultural, economic, and environmental objectives. 
This allows the states the flexibility necessary to prioritize 
management issues and utilize existing state regulatory 
programs and statutes wherever possible.
    As an incentive for their participation, the States receive 
Federal funds to help implement these programs. The states 
provide matching funds for many of these activities. Under the 
CZMA, States with approved plans also have the right to review 
Federal actions to ensure that they are consistent with state 
policies.
    The coastal zones managed in the CZMA are quite varied. 
They range from Arctic to tropical islands, from sandy to rocky 
shorelines, and from urban to rural areas. They include 
wetlands, estuaries, beaches, and coral reefs. Because of these 
varying habitats and resource types, management issues differ 
from state to state. No two state plans are the same.
    Likewise, there are multiple uses of the coastal zone. 
Coastal managers are asked to strike a balance among the 
residential, commercial, recreational, and industrial 
development; harbor development and maintenance; controlling 
shoreline erosion; and commercial and recreational fishing. 
Coastal programs address these competing needs for resources, 
steer activities to appropriate areas of the coast, and attempt 
to minimize the effects of these activities on coastal 
resources.
    As we can all imagine, being able to balance economic 
development while protecting public resources requires the 
cooperative effort of the Federal Government, the coastal 
states, local jurisdictions, nongovernmental organizations, and 
the public. There are many of these partnerships working 
together within the state coastal programs.
    An excellent example of this collaborative approach can be 
found in the Maine coastal program. During the fall of 1996, 
they conducted an intensive outreach effort to gauge public 
opinion about coastal issues and needs. The results of these 
efforts have been used to shape priority areas for the programs 
through the year 2000, and I am sure that our witnesses will be 
providing us with more examples of how the States have tailored 
the CZMA to address their needs.
    The authorization of the Coastal Zone Management Act 
expires at the end of the current fiscal year. The 1999 
reauthorization of the CZMA provides us with a unique and well-
positioned opportunity to provide a vision and framework for 
coastal and ocean resource management into the next century.
    We have assembled an excellent slate of witnesses to tell 
the committee what should be the best course of action, and 
what kinds of issues we should address during the course of 
this reauthorization. Certainly, this reauthorization process 
affords us the opportunity to begin to examine any additional 
issues that we ought to consider and other challenges that are 
before us with respect to the coastlines across this country.
    So I would like to welcome our first panel. First, we have 
Terry Garcia, who is the Assistant Secretary of Commerce for 
Oceans and Atmosphere. I was happy to participate--it does not 
seem that long ago--in your confirmation, but it was 2 years 
ago, and I welcome you back. How time flies when you are having 
a good time. [Laughter.]
    Senator Snowe. I welcome you back, Mr. Secretary. Thank you 
for being here, and you can proceed.

 STATEMENT OF TERRY D. GARCIA, ASSISTANT SECRETARY OF COMMERCE 
FOR OCEANS AND ATMOSPHERE, ACCOMPANIED BY SALLY YOZELL, DEPUTY 
ASSISTANT SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE, U.S. 
                     DEPARTMENT OF COMMERCE

    Thank you, and good afternoon, Madam Chairwoman. I am 
accompanied today by Sally Yozell, the Deputy Assistant 
Secretary of Commerce for Oceans and Atmosphere. I have a 
written statement which I would like to have inserted into the 
record, and will make some brief oral remarks.
    Senator Snowe. Without objection, so ordered.
    Mr. Garcia. The Coastal Zone Management Act has created a 
unique State and Federal partnership, providing States with a 
framework, assistance, and resources to manage the land and 
water uses of the coastal zone. federally approved State 
coastal management programs balance conservation of the coastal 
environment with human uses that depend on the coastal zone.
    State coastal management programs receive annual grants 
from NOAA to help leverage State and local funds for coastal 
management activities to address a wide range of issues of 
national importance, including coastal erosion and storms, 
declining coastal habitat and water quality, public access, 
coastal development, and waterfront revitalization.
    Among other examples, the coastal zone management program 
has undertaken the following. In Maine, the coastal management 
program worked with Washington County to develop and implement 
a strategy that currently focuses on building economic 
development in the marine resource business and ecotourism 
industries.
    The Massachusetts coastal management program, working with 
many interests and agencies, is leading the State's efforts to 
improve the economic viability of its ports and harbors by 
developing municipal harbor plans for various communities, and 
administers the State seaport bond funds to ensure that 
infrastructure improvements are made to complement the harbor 
plans.
    There is no better testament to the success of the CZMA 
than the fact that 32 of 35 eligible States, commonwealths, and 
territories have received Federal approval of their coastal 
management plans and that two more States, Minnesota and 
Indiana, are seeking to join the national CZM program in the 
months ahead.
    The strong partnership developed with the States through 
CZMA is also seen in the 23 federally designated National 
Estuarine Research Reserves, in 20 coastal States and 
territories, including the new Jacques Cousteau Reserve 
designated in New Jersey just last year, and most recently, 
Kachemak Bay in Alaska in February. Four additional reserves 
are in development in Mississippi, Florida, California, and New 
York. Reserves provide an array of education, research, and 
other stewardship activities.
    I want to commend the chairwoman and the subcommittee for 
scheduling this hearing. The Nation's coastal regions are of 
critical importance to the economy and the environmental health 
of the United States. The 425 coastal counties generate $1.3 
trillion of the GNP, and coastal industries account for over 
one-third of the national employment, 28.3 million jobs. In 
1995, just under a billion tons of cargo worth $620 billion 
moved through coastal ports and harbors.
    Coastal estuaries are among the most biologically 
productive regions in the Nation, as well as providing 
recreational opportunities for more than 180 million Americans 
each year. Quite frankly, however, our country's coastal 
resources continue to be under siege, and the need for the CZMA 
is greater now than ever.
    I would like to focus the remainder of my remarks on the 
Administration's proposal to reauthorize the CZMA. The 
Administration's steadfast support for CZMA was reinforced 
recently with a submission to Congress of the Administration's 
proposal called the Coastal Management Enhancement Act of 1999, 
and with the announcement of the President's Lands Legacy 
Initiative.
    Under the Lands Legacy Initiative, which is part of the 
administration's CZMA proposal and the President's fiscal 2000 
budget request, NOAA would receive an additional $105 million 
over current funding levels. A significant portion of these 
funds is for the Coastal Management and Estuarine Reserve 
programs.
    The Administration's CZMA proposal provides an overall 
increase of $30.6 million over fiscal year 1999 levels for 
State coastal management programs. These funds and the 
Administration's CZMA proposal will help address three critical 
coastal concerns, smart growth, protection of coastal habitat, 
and polluted run-off.
    Coastal communities are the most densely populated and 
fastest growing areas of the Nation. Over 3,600 people a day 
move to the coast. 40 percent of new commercial development and 
46 percent of new residential development is occurring in 
coastal communities. This growth and resulting development 
fuels sprawl and impacts coastal communities by degrading water 
quality, marine resources, fragmenting coastal habitat, and 
reducing the quality of life for coastal residents.
    Twenty eight million of new funding under the Lands Legacy 
Initiative is included in the Administration's CZMA proposal to 
develop smart growth strategies and land use planning 
innovations, to revitalize waterfronts and improve public 
access to the coast. In addition, to protect our pristine 
estuary resources from the ever-growing pressures of sprawl, 
the Administration's CZMA proposal includes an increase of 
$14.7 million for the Reserves to purchase buffers, boundaries, 
and easements from willing sellers.
    The coastal communities initiative will fund projects such 
as the one in the City of Glen Cove, New York, where CZMA funds 
helped the city revitalize its waterfront for commercial and 
recreational purposes by cleaning up a brownfields site.
    Coastal habitats, including wetlands, estuaries, and coral 
reefs, provide critical spawning and nursery areas for living 
marine resources. In the southeast, over 90 percent of the 
commercial catch, and 50 percent of the recreational catch, are 
fish and shellfish dependent upon wetlands. Under the 
Administration's proposal and the Lands Legacy Initiative, 
funds will be provided to initiate research and monitoring and 
cooperative restoration projects, and to leverage additional 
funding for on-the-ground restoration.
    Polluted runoff from sources such as urban streets and 
parking areas is seriously impacting the coast. Polluted runoff 
is a prime suspect in contributing to shellfish harvesting 
restrictions and conditions that have led to pfiesteria and 
other harmful algal blooms. Our economy has lost well in excess 
of $1 billion over the last decade as a result of such events. 
Polluted coastal waters also result in closure of beaches to 
swimming.
    Under the President's Clean Water Action Plan, $12 million 
in funding, an increase of $4 million in fiscal year 2000, is 
requested under the Administration's CZMA proposal to develop 
and implement on-the-ground State polluted run-off control 
measures and to leverage other State and local resources.
    In conclusion, the CZMA is one of the Nation's landmark 
natural resource management laws, and stands today as our most 
successful voluntary tool allowing comprehensive and 
cooperative management of our country's coastline. We urge the 
committee's active support of the reauthorization and the 
Administration's proposal.
    On behalf of the Administration, thank you for the 
opportunity to testify today. I look forward to working with 
you, Madam Chairwoman, and the committee on this important law 
and the legislation. I would be happy to answer any questions.
    [The prepared statement of Mr. Garcia follows:]

PREPARED STATEMENT OF TERRY D. GARCIA, ASSISTANT SECRETARY OF COMMERCE 
         FOR OCEANS AND ATMOSPHERE, U.S. DEPARTMENT OF COMMERCE

                              INTRODUCTION
    Good afternoon, Ms. Chairwoman, and members of the Subcommittee. My 
name is Terry Garcia, and I am the Assistant Secretary for Oceans and 
Atmosphere for the National Oceanic and Atmospheric Administration 
(NOAA). I thank you for this opportunity to testify today on the 
reauthorization of the Coastal Zone Management Act, or CZMA. The CZMA 
is a landmark resources management law that has benefitted the Nation, 
the States and the citizens of our country since its enactment in 1972. 
My testimony will focus on the President's Lands Legacy Initiative, the 
benefit of the CZMA to the nation, and the Administration's proposal to 
reauthorize the CZMA. The Administration's proposal has previously been 
submitted to the Subcommittee.

                 THE PRESIDENT'S LAND LEGACY INITIATIVE

    The President recently announced a $1 billion Lands Legacy 
Initiative to expand federal efforts to save America's natural 
treasures. The Lands Legacy Initiative would provide $105 million to 
NOAA to protect America's valuable ocean and coastal resources and to 
strengthen state and local efforts to address the problems caused by 
sprawl.
    America's ocean and coastal areas are under siege by a whole suite 
of activities, including coastal population growth, development, 
maritime commerce, commercial and recreational fishing, and tourism. 
The economic and environmental well-being we derive from the essential 
natural resources and beauty provided by these areas is being 
undermined by the economic and aesthetic uses that make these diverse 
areas valuable to the Nation. Escalating losses and degradation of 
coastal wetlands, fisheries habitat, and coral reef ecosystems must be 
reversed.
    The Lands Legacy Initiative will target funds to strengthen and 
expand protection of the nation's most significant ocean and coastal 
areas; restore critical coastal habitat and vibrant coral reef 
ecosystems; and provide states and local governments with the tools and 
resources for environmentally-sound smart growth strategies. This 
includes $32 million for Partnerships to Promote Community Based Smart 
Growth; $15 million for the enhancement of our National Marine 
Sanctuaries; $14.7 million to enhance the protection of critical 
estuaries through the National Estuarine Research Reserve System; $10 
million to determine ways to use dredged material in environmentally-
sound beneficial ways; $10 million to help restore fragile coral reefs 
injured by human impacts; and $22.7 million to increase the number and 
geographical scope of community-based fish habitat restoration efforts.
    The Lands Legacy Initiative provides us with a unique opportunity 
to ensure that our coastal and ocean areas are used, conserved and 
protected for the benefit of present and future generations.

                 THE BENEFIT OF THE CZMA TO THE NATION

    The CZMA's goals and objectives, as provided for in the Act's 
findings and policy statements, describe the importance to the nation 
of the coastal zone for its variety of natural, commercial, 
recreational, ecological, industrial and aesthetic resources; and the 
need to preserve, protect, develop and restore or enhance these 
resources for this and succeeding generations. The CZMA defines and 
authorizes the Coastal Zone Management Program and the National 
Estuarine Research Reserve System. It emphasizes a partnership with the 
states. It is a critical national authority that works with all sectors 
of government to comprehensively manage and address the many and 
increasing essures on the use of our coastal areas and our coastal and 
ocean environments.
    The coastal management program is implemented by state coastal 
management programs and National Estuarine Research Reserves, in 
partnership with the federal government. Participation is voluntary and 
eligible states may develop coastal management programs or reserves 
pursuant to federal requirements. As part of federal approval, state 
coastal management programs and reserves receive annual operating funds 
through cooperative agreements with NOAA. These funds are used by state 
agencies and local governments for a variety of management, research, 
permitting, enforcement, education andproject specific activities. In 
addition, federal approval of a state coastal management program 
activates the CZMA federal consistency requirement. Federal consistency 
requires that certain actions, in or outside the coastal zone, that 
affect any coastal use or resource must be consistent with the 
enforceable policies of state coastal management programs. The federal 
consistency requirement is a powerful tool that states use to address 
effects on coastal uses or resources that are the result of federal 
actions.
    For over twenty-five years the CZMA has provided national goals, 
priorities and guidance for how states and the Federal Government 
manage the nation's coastal and ocean resources. States have made great 
strides implementing federally approved management programs which 
reduce threats to coastal wetlands, improve coastal water quality, 
expand public access to the coast, revitalize urban waterfronts and 
educate the public about the need to manage and protect coastal and 
ocean resources.
    While the goals of the CZMA are clear, much remains to be done. 
Implementation of the CZMA's goals by state coastal management 
programs, estuarine research reserves, and NOAA requires ongoing 
vigilance, effort and resources to meet increasing pressures on coastal 
and ocean resources. Stresses on coastal and ocean resources are 
increasing dramatically, and so are the resulting management 
challenges. For example, from 1996-2015, the coastal population is 
projected to increase from 141 million to 161 million with the 
accompanying increases in solid waste production, urban runoff, losses 
of green space and wildlife habitat, water quality declines, and other 
stresses on the coastal and marine environment. These challenges 
include continued rapid population growth in coastal areas at much 
higher rates than inland, loss and degradation of habitats and 
biodiversity, water quality problems, continued user conflicts, and 
increased separation of coastal residents from natural resources. This 
is why the reauthorization of the CZMA in 1999 is so important to NOAA, 
the coastal states and to the nation.
    The CZMA has received the near-unanimous non-partisan support among 
Congress over the years, and the wide-spread support of state and local 
governments, interest groups and the public. The benefits of the CZMA 
and the support it fosters can be seen in the effectiveness of the 
national system of state coastal management programs, the growing 
network and use of estuarine research reserves, the vitality of our 
coastal economies, and the protection and sustainability of important 
coastal resources and habitats.
    Some of the accomplishments include the following: The national 
system of coastal management programs is nearly complete with 95,142 
miles, or 99.7 percent, of the 95,439 miles of the nation's shoreline 
under management by 32 federally-approved state, territorial, and 
commonwealth coastal programs. Twenty nine of these states have also 
received conditional approval of their coastal nonpoint pollution 
control programs. Demonstrating the growing state interest in this 
federal program, three new state coastal management programs, those of 
Ohio, Georgia, and Texas, have been approved by NOAA within the past 
three years. The nation's 33rd coastal management program, Minnesota's, 
only awaits final action by the new Governor, before approval by NOAA. 
In addition, we anticipate receiving Indiana's draft program for review 
later this year. Of the nation's 35 coastal states and territories 
eligible for participation under the CZMA, only Illinois is not 
currently participating.
    The benefit of the CZMA is also seen in the growth and importance 
of the National Estuarine Research Reserve System. Reserves are 
protected land and water areas in 20 states and territories that are 
part of a national system administered by NOAA. The states operate the 
individual reserves, participate in developing goals for the System, 
and implement System-wide activities. Reserves protect representative 
examples of estuarine habitat and conduct a suite of activities that 
improve the stewardship of estuaries, including: long-term research, 
system-wide water quality monitoring, technical training for coastal 
decision makers, public education and interpretation programs, and 
demonstration projects. Reserves are important for habitat protection 
since they manage discrete protected lands and waters and help forge 
community-based solutions to estuarine environmental problems, such as 
voluntary changes to farming practices, development of new septic tank 
standards, or restoration of wetlands.
    There are 23 federally designated National Estuarine Research 
Reserves in twenty states and territories, including the Jacques 
Cousteau reserve designated in New Jersey just last year and the 
Kachemak Bay (Alaska) reserve designated in February of this year. Four 
additional reserves are in development in Grand Bay (Mississippi), 
Guanama-Tolomato-Matanzas (GTM)(Florida), San Francisco Bay 
(California), and in the St. Lawrence River in upstate New York. The 
Grand Bay and GTM reserves are on schedule to be designated by NOAA in 
the Summer of 1999. Over 900,000 acres of estuarine habitat are now 
protected by the National Estuarine Research Reserve System. Habitat 
protected by the System will increase this year to over 1,000,000 acres 
with additional acquisitions by existing reserves, and with the 
designation of the Mississippi and Florida reserves. Visitors to 
reserves now number over 1 million per year.
    The reserve system has initiated a unique system-wide monitoring 
program for water quality and weather parameters that can link short-
term events to habitat changes. Reserves also are helping local 
decision makers and professionals in coastal areas apply new and 
innovative methods and technologies. In response to the 
Administration's Clean Water Action Plan, Reserves are joining their 
efforts with EPA's National Estuary Programs (NEPs) to share more 
broadly lessons learned with coastal programs andcommunities. In 
addition, the coastal management programs are working to further 
enhance their links with NEPs and to work together in providing support 
to local coastal communities to address impacts and pressures on 
estuary resources.
    The Biennial Report that NOAA sends to Congress documents the 
benefits of these programs. The report, as required by the Act, is a 
comprehensive account of the accomplishments of NOAA, the coastal 
states and reserves, in advancing the goals of the CZMA during the 
fiscal years 1996 and 1997. Before I move on to the Administration's 
reauthorization proposal, let me highlight for you some specific CZMA 
and Reserve success stories.
    In San Francisco Bay, the San Francisco Bay Conservation and 
Development Commission, a federally approved CZMA program, has reversed 
wetland loss from 2,300 acres per year to only 4 acres per year. This 
effort has been aided by the efforts of the California Department of 
Fish and Game, and other Federal agencies including the Department of 
Interior's Fish and Wildlife Service, the Environmental Protection 
Agency, and the Army Corps of Engineer.
    Under section 306A of the CZMA, the Coastal Resource Improvement 
Program, states have used federal and state funds to provide 
substantial public access to the coast through coastal parks, fishing 
piers, boat launches, dune walkovers, foot and bike trails, beach 
clean-ups, parking lots and access roads, land acquisition, historic 
structure restoration, urban waterfrontrevitalization and other 
projects. Rough estimates show that states have used over $50 million 
in federal funds, equally matched with state and loca funds, since 1985 
for over 1,000 access and resource protection projects.
    State coastal management programs have provided support to numerous 
coastal communities for environmentally-sound waterfront 
revitalization. Virginia has used limited CZMA funds to spur 
development of an eco-industrial park in Cape Charles, Virginia. The 
City of Wilmington, North Carolina used CZMA funds to develop a 
riverfront plan that served as a catalyst for $4 million in public 
investment and $100 million in private investment along the Cape Fear 
River. This project restored dilapidated warehouses and piers, created 
vessel and public access to the City's waterfront, and turned the 
waterfront into a vibrant economic and social center for the City.
    These are just a few of the examples of the benefits of the CZMA 
program. The Biennial Report provides additional examples.
        the administration's 1999 czma reauthorization proposal
    Turning now to the 1999 reauthorization of the CZMA, NOAA fully 
supports the CZMA and is committed to working with Congress, the 
coastal states, and other interests, to continue the Act's national 
programs. The Congress and the Administration have an opportunity to 
position the CZMA to meet the requirements of the next century, while 
maintaining the aspects of the CZMA that have served the country well 
for over a quarter of a century. These include the flexibility of the 
state-federal partnership, using state programs as the ``on the 
ground'' delivery mechanism, and consideration of the national interest 
in coastal uses and resources.
    The Administration's proposal is built around the following four 
concepts to address these issues and challenges. These concepts are 
then discussed in more detail below.

        <bullet> strengthen the CZMA's habitat focus;
        <bullet> support coastal communities;
        <bullet> support national coastal management objectives; and
        <bullet> strengthen the National Estuarine Research Reserves.

    Strengthen the CZMA's Habitat Focus. The Administration's proposal 
addresses emerging habitat issues, such as protection of coral reefs, 
protection of essential fish habitat, and habitat restoration. This is 
accomplished by the addition of these issues in the Act's findings and 
declaration's of policy and, primarily, by focusing the implementation 
phase of the coastal nonpoint pollution control program within the CZMA 
on NOAA's traditional habitat protection and restoration mission, and 
specifying state coastal management program agencies. responsibilities 
in the management of polluted runoff.

THE ADMINISTRATION'S PROPOSAL WOULD ALSO MAKE THE FOLLOWING CHANGES TO 
                                THE ACT

        <bullet> CZMA section 306(d)(16) is proposed to be amended to 
        clarify that state Coastal Management Program (CMP) agencies 
        should focus their polluted runoff efforts on habitat issues 
        and to specify the responsibilities of state CMPs for 
        implementing their coastal nonpoint pollution control programs. 
        Addressing polluted runoff issues in the CZMA would not impose 
        any new requirements on states or citizens. The 
        Administration's proposal would provide an important mechanism 
        to address polluted runoff, a major contributor to the decline 
        of coastal habitat and resources and effects the economic 
        viability of coastal communities. The increasing numbers of 
        algal blooms and closed shellfish and fishing areas is linked 
        to polluted runoff from our streets, lawns and farms. This 
        polluted runoff is linked to the degradation of coastal habitat 
        and coral reefs, the ``dead zone'' in the Gulf of Mexico, and 
        the outbreaks of Pfiesteria piscidia in the Chesapeake Bay. The 
        CZMA offers a unique opportunity to protect and restore coastal 
        waters and abitat by bringing multiple programs and people 
        together to address polluted runoff problems.
        <bullet> CZMA section 306(c) is proposed to be amended to 
        provide for funding to implement the coastal nonpoint programs. 
        It is important to note that, the Administration's proposal 
        would not fund the nonpoint program at the expense of base 
        program funds. Essentially, the Administration's funding 
        proposal would continue to build on the funding and progress 
        already made by the states to control polluted runoff through 
        the $8 million appropriated in FY 1999 for polluted runoff 
        activities. In addition, the efforts of coastal states to 
        control polluted runoff are at a critical juncture. Coastal 
        states have invested substantial effort in developing their 
        programs and need increased financial support to successfully 
        implement their plans for improving management of polluted 
        runoff. Otherwise, the state coastal nonpoint programs will be 
        in limbo, with little guidance as to how coastal management 
        programs should proceed in addressing polluted runoff.
        <bullet> CZMA section 309 is proposed to be amended to include 
        habitat as an eligible enhancement area. This would include 
        development of, enhancements to, and satisfying the conditions 
        of, a state's coastal nonpoint pollution control program.

    Support Coastal Communities. The Administration's proposal provides 
support to local and tribal coastal communities to develop 
environmentally protective solutions to the impacts and pressures on 
coastal uses and resources by encouraging revitalization of previously 
developed areas. To accomplish this, the Administration proposes the 
following changes to the Act:

        <bullet> The findings of the CZMA are proposed to be amended to 
        provide for the support of coastal communities.
        <bullet> CZMA section 309 would include coastal communities as 
        an eligible enhancement area for state efforts.
        <bullet> CZMA section 310 would be used to provide grants to 
        local, tribal and regional governments, through state coastal 
        management programs, to support, plan and build capacity for 
        coastal communities' to address environmentally protective 
        smart growth and community revitalization efforts, and to 
        provide much needed technical assistance in these areas. The 
        Administration's proposal strengthens coordination between 
        states and American Indian tribes. Including tribes will help 
        address emerging tribal and state coastal management issues and 
        implement Administration policy regarding consultation with 
        tribes, but will not affect the current state-federal 
        partnership in the Act. There are many community-type projects 
        that could be accomplished by tribes.

    Supporting National Coastal Management Objectives. The 
Administration's proposal recognizes that coastal management decision-
making can be improved by strengthening the ability of coastal states 
and NOAA to make sound coastal management decisions and plans. The 
Administration proposes to amend CZMA section 310 to clarify the use of 
section 310 funds and provide the authorization and funds needed to 
adequately address the demand for NOAA technical assistance, 
management-oriented research, innovative technology development, 
mediation services and coordinated NOAA capabilities. Of the $28 
million in the Administration's proposal and the President's FY 2000 
budget request for section 310, the Administration expects that 15 to 
20 percent of this amount would be used for these technical assistance 
efforts, with the remainder available for the coastal community grants.
    Strengthening National Estuarine Research Reserves. The 
Administration's proposal enhances the link between the estuarine 
reserves and coastal management programs by making technical amendments 
that would strengthen the capabilities of estuarine research reserves 
to address coastal management issues. These technical amendments would 
also forge a stronger link between the reserve program and state 
coastal management programs. Reserves are also eligible under the 
section 310 coastal communities initiative.
    Other Technical Amendments. The Administration's proposal also 
makes other technical, but important, amendments to the CZMA to improve 
the effectiveness, efficiency and flexibility of the CZMA's state-
federal partnership. These are detailed in the Administration's 
proposal.

                               CONCLUSION

    In closing, the 1999 reauthorization of the CZMA provides a unique 
opportunity to provide a vision and a framework for coastal and ocean 
resources management and stewardship into the 21st century. The 
effectiveness of the CZMA and the broad-based st support for the Act 
can enable the Administration and the Congress to accomplish the Act's 
objectives. A reauthorized and enhanced Act, as described in the 
Administration's proposal, will set in motion the means by which we can 
ensure that the Nation's coastal and ocean uses and resources are used, 
conserved and protected for the benefit of present and future 
generations. The Administration looks forward to working with you on 
this task. That concludes my remarks and I would be glad to answer any 
questions.

    Senator Snowe. Thank you, Mr. Garcia, for your testimony. I 
am going to begin with the Lands Legacy Initiative being 
proposed by the President. Exactly how would that work? First, 
how would NOAA develop the criteria for grants under section 
310 of the Administration's CZMA proposal?
    Second, how would the money be implemented? I gather the 
grants are issued on a competitive basis, and again, how would 
you determine what would be included in the award process? 
Also, how would NOAA grapple with the whole issue of population 
growth and sprawl, which is at the core of this whole issue? 
Urban sprawl is obviously spilling over to the coastal areas, 
and it will have a major impact in future years.
    Mr. Garcia. As I mentioned, the Lands Legacy Initiative 
would provide a total of $105 million of new funding for NOAA 
programs. These funds would come from off-shore oil and gas 
leasing activities. Approximately $35 million would be for the 
Coastal Zone Management Program. Another $15 million for the 
National Estuarine Research Reserve program.
    Of that $35 million, 28 is proposed for competitive grants 
under section 310 of the Coastal Zone Management Act, and this 
would be to provide grants on a competitive basis to States, 
local communities, to encourage activities that provide smart 
growth, that promote revitalization of already developed areas, 
as well as to provide certain technical assistance from NOAA to 
these localities to assist them in developing these plans, but 
again, it would be on a competitive basis, and these would be 
nonmatching funds.
    Senator Snowe. Have the criteria been developed yet?
    Mr. Garcia. The criteria has not yet been developed. We 
would obviously want to work with the committee and the States 
in developing that criteria.
    Senator Snowe. Do you think NOAA has the capability to 
determine exactly how the States ought to be grappling with the 
issue of urban sprawl?
    Mr. Garcia. Well, we are not trying to tell the States 
precisely how they are going to spend the money, but rather, we 
have identified this as a critical area deserving of attention 
and deserving of resources. I do believe that we have the 
expertise to evaluate, with the assistance of other outside 
parties, the relative merits of proposals, but we view this as 
a partnership. We intend to work with States as partners in 
addressing these concerns.
    The problem of sprawl and growth in these coastal areas is 
now manifesting itself in a number of ways, as you are well 
aware--as you took the leadership role last year in introducing 
legislation to deal with harmful algal blooms. We are now 
seeing the consequences of this growth. We are seeing the 
consequences of not controlling nonpoint pollution.
    It has to be dealt with, but it can be dealt with in a way 
that does not involve the Federal Government proscriptively 
issuing conditions, but, rather, working with the States and 
communities to develop proposals that work for both of us. The 
CZMA is the intersection of environmental policy and economic 
development, and I think we have got a good track record in 
that regard.
    This is one of the programs, I think, that enjoys 
widespread bipartisan support throughout the country, so I am 
confident that we can implement this in a way that will be 
satisfactory to all.
    Senator Snowe. Was this included as a result of input by 
the various States that have submitted management plans with 
respect to this initiative and nonpoint source pollution?
    Mr. Garcia. It certainly was done in consultation with the 
States. I do not know if the specific proposal was submitted by 
any one State or organization, but we and the States have 
identified nonpoint pollution as an issue that has to be 
addressed, and the Administration feels very strongly that 
sprawl and uncontrolled growth has to be a priority and has to 
be addressed in the coastal zone.
    Senator Snowe. Yes, and I agree, but also I think that the 
approaches that have been taken in the past in the Coastal Zone 
Management Act have been rather flexible. I think that one of 
the concerns that has developed on this issue is a question of 
how we approach the issue of nonpoint source pollution, whether 
or not we are going to mandate it as a percentage of the 
State's allocation. I think this approach changes fundamentally 
the direction that has been taken historically within this 
legislation. The question is whether or not the 
Administration's approach is preferable, or, rather, is it 
better to maintain the provisions in the current statute?
    Mr. Garcia. Let me be clear, the States will draft and 
prepare their own competitive proposals and we will be 
flexible, as we have been in the past.
    I think that there has been some misunderstanding between 
us and the States on what we have proposed on nonpoint, and 
that somehow we may be, by suggesting in the legislation that 
10 to 20 percent of the section 306 funds should be set aside 
for nonpoint, that somehow that is taking away from core 
programs. It is not. That is not the intention. We are merely 
adding to those core programs' funding for dealing with 
nonpoint.
    Senator Snowe. But are we not taking away the States' 
flexibility to determine exactly what the needs are by setting 
a certain allocation? After all, it is whether or not we have 
confidence in the States to determine what their needs are and 
what are the most egregious problems that they are facing.
    Mr. Garcia. I do not think so. I do not think we are taking 
away from them the flexibility. We are saying, however, and 
this is the case under the current law, that they have to 
address nonpoint pollution.
    Senator Snowe. Right.
    Mr. Garcia. Run-off pollution must be addressed, and they 
will continue to have flexibility to do that, but we think it 
is important that nonpoint be included in this legislation.
    This is the only Federal law that deals with the creation 
of partnerships, with States and communities. It is the only 
Federal law that brings together all of these various agencies 
that have responsibility for authorizing or managing growth in 
coastal areas, and nonpoint is one of the most significant 
issues that we face, and so we felt it was appropriate to be in 
the legislation. We think there is flexibility for the States.
    We intend to work with the States to ensure that there is 
that flexibility, but we also intend that the nonpoint issue be 
addressed.
    Senator Snowe. Are you saying that you have not heard 
concerns from States with respect to the Administration's 
proposal that would require not less than 10 percent and not 
more than 20 percent of section 306 funds to be set aside for 
nonpoint source pollution?
    Mr. Garcia. No. I have heard from the States on that, or at 
least from their organization on that. We understand that they 
are concerned that this will take away from core funding of the 
CZMA grants, and again, our view is that it will not. What we 
are proposing to do under our legislation is to add additional 
funding to those core programs. That additional funding is well 
within the 10 to 20 percent that we are talking about.
    Now, if the appropriation should decline, we made it a 
percentage so that the other programs would not be adversely 
impacted, but they would still have to spend resources and 
money on nonpoint pollution control.
    Senator Snowe. Finally on this issue, is it the 
Administration's belief that the States are not doing enough?
    Mr. Garcia. No, we think that the States have been very 
proactive in this, but we have a responsibility to see that 
this issue is addressed, to make sure that funds are provided, 
and to ensure that those funds are used in the most effective 
way possible.
    Senator Snowe. How did the Administration come to the 10 to 
20 percent allocation? How was that determined?
    Mr. Garcia. The 10 to 20 percent allocation would be 
roughly equivalent to the funding that we would propose to add 
in addition to those core programs.
    Senator Snowe. How does this dovetail with the EPA programs 
and the Clean Water Act on nonpoint source pollution?
    Mr. Garcia. Well, our programs focus more on the impact of 
nonpoint on the resources, on coastal resources, and the 
measures necessary to mitigate or reduce the impact on those 
resources, whereas EPA has a different focus, principally on 
human health.
    Senator Snowe. Would the entire Federal nonpoint source 
pollution program be reviewed for performance, or just this 
section that is included under the Coastal Zone Management Act?
    Mr. Garcia: Reviewed?
    Senator Snowe. Reviewed for performance.
    Mr. Garcia. Well, the entire program under the CZMA would 
be subject to review.
    Senator Snowe. OK, but just under the Coastal Zone 
Management Act. Only the nonpoint source pollution program 
under the CZMA would be subject to review in terms of its 
performance, but not the nonpoint provisions under the EPA and 
the Clean Water Act?
    Mr. Garcia. Yes, that is correct.
    Senator Snowe. You would be able to distinguish between the 
two?
    Mr. Garcia. Yes, we can.
    Senator Snowe. On your administrative cost, I understand 
that the base program funds have been insufficient to meet all 
of the States' needs, but that you also told the States that 
you will be retaining a portion of their funds for the purposes 
of meeting the shortfalls that occurred in the administrative 
expenses for NOAA, and that the administrative expenses would 
be paid for under section 308. Is that correct?
    Mr. Garcia. I am not sure about 308, but yes, it is true 
that we have proposed to pay for certain overhead cost from 
these grants.
    Senator Snowe. Aren't your administrative expenses paid for 
in another section of the CZMA?
    Mr. Garcia. Well, there is an administrative fund that 
takes care of the operation of this program, but NOAA's 
administrative cost, such as security, accounting, various 
other costs associated with running the agency, including these 
programs, grants administration, for example, have gone up, and 
each program in NOAA, including each grant program, shares a 
portion of that cost each year. In fact, the only program that 
did not share was the CZM grant program.
    We have proposed that 2 percent be applied to these 
overhead costs, which is much lower than most of these other 
programs are paying right now, and if there were some other way 
of funding it, we would certainly have welcomed that, but the 
fact is, there is no other way.
    Senator Snowe. Well, it was my understanding we paid $4.5 
million for administrative expenses, and obviously that was 
insufficient for fiscal year 1999. Is that right?
    Mr. Garcia. Well, yes. That money is for operating the 
coastal zone program itself, for the CZM office, but it is not 
sufficient to cover these other costs. In fact, it is not 
sufficient to cover all of the costs associated with running 
the program.
    Senator Snowe. So that must have been the case in the past. 
Other than expanding responsibilities, what is attributing to 
the increase in administrative expenses? Why not just come in 
and ask for an increase in administrative expenses as opposed 
to taking it out of the States-based allocation?
    Mr. Garcia. Well, we have not been very successful in 
getting increases for our administrative expenses, Senator.
    Senator Snowe. What is the shortfall?
    Mr. Garcia. The shortfall, or at least the amount that is 
proposed to be moved from the CZMA program, is about $1 
million, I believe. The total increase in administrative cost 
for NOAA, though, is $12 million, and as I said, it is a wide 
range of activities, such as grants administration or security.
    One of the problems that we have had, all agencies have 
had, is with security. For example, we have had to increase 
security at all of our facilities because of some well-
publicized incidents. These are costs that simply have to be 
borne. We cannot ignore them, and we have to find a way of 
paying them, if not through an increase in the administrative 
line item, then from the programs. There is no other source of 
funding.
    Senator Snowe. The States have already developed their 
plans for fiscal year 1999. How will it affect their programs 
and the implementation of their plans if they now find 
themselves in the position where funds are being rescinded?
    Mr. Garcia. I do not think it is going to affect their 
performance. This is the first time, this year, as I said--it 
is 2 percent, it is about $1.3 million. I do not think that it 
is going to adversely impact them or affect the way they 
perform under the program.
    Again, if there were some other way to do this, we would do 
it. This is the first time we have had to do this. All 
programs, though, in NOAA, whether they are CZM or not, have 
had to pay administrative costs in the past. We have been able 
to avoid taking it out of CZM, but we just could not do it this 
year.
    Senator Snowe. I guess the concern that I have is whether 
or not it impacts the States' ability to implement their 
programs, and whether you are going to take that into account 
when they are being reviewed for performance. $1 million may or 
may not affect them. I do not know what impact you have had 
from the various States.
    Mr. Garcia. As I said, I do not think it is going to impact 
them, but if it does, if their performance is impacted as a 
result of something we have done, then yes, that is taken into 
account.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Madam Chairwoman. I 
appreciate this hearing very, very much, and thank you for your 
leadership, and I apologize for being late.
    Let me just make a couple of comments if I can, and then 
perhaps ask a few questions. I will submit my full prepared 
statement for the record.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    I want to thank Senator Snowe for holding this hearing and our 
panel of witnesses for joining us today. Our witnesses bring a range of 
expertise, including law, policy and science. I congratulate the Chair 
for assembling them.
    In 1972 when the Congress first enacted the Coastal Zone Management 
Act it made a critical finding: ``Important ecological, cultural, 
historic, and esthetic values in the coastal zone are being 
irretrievably damaged or lost.''
    As we consider reauthorizing the Act this Congress, I believe that 
we must measure CZMA's performance against this finding.
    Have we stopped coastal damage and the loss of habitat? Have we 
reversed that trend and are we now restoring damaged habitat? For me, 
these questions are at the heart of today's hearing and the discussion 
we will have over the coming months.
    First, I want to discuss what is at stake in our consideration of 
the Coastal Zone Management Act.
    Coastal habitat is enormously valuable. It has ecological, 
cultural, historic and esthetic value, but it also has great economic 
value. Since we last reauthorized this Act in 1990, economic analysis 
has been done that I hope will inform our discussion today and help us 
understand just how valuable coastal areas are.
    In 1997, economist Robert Constanza of the University of Maryland 
estimated the dollar value of coastal ecosystems worldwide at $27 
trillion.
    His work was groundbreaking--not because it argued that healthy 
ecosystems have economic value--we all understood that. It was 
groundbreaking because it quantified that value in dollars and made it 
comparable to the other assets in the modern economy.
    In his analysis, Dr. Constanza evaluated the ``ecosystem services'' 
that a healthy habitat provides. This includes the cleansing of air and 
water, regulation of watersheds, waste treatment, renewal of soil 
fertility and other environmental processes that we often take for 
granted.
    He estimated that a single hectare of healthy wetlands provides 
almost $15,000 in ``services.'' In other words, it would cost nearly 
$15,000 to purchase water filtration, flood control and all of the 
other services that a hectare of wetlands provides to a community.
    In a single case in New York, he concluded that the City could 
spend $1.5 billion to protect a watershed in the Catskills or spend 4 
times that amount--or $6 billion--on the construction of a water 
filtration plant that would replace the clean water provided by the 
healthy watershed.
    Of course a great deal more than just clean water is at stake when 
we lose wetlands and other coastal areas.
    In my State of Massachusetts, healthy fisheries depend on a healthy 
coast. Over the past fifteen years, we have faced a dramatic rise in 
shellfish bed closings, which have been caused by pollution from septic 
systems, farms and other runoff. When we are forced to close a 
shellfish bed, we are forced to put fishermen out of work.
    The problem is not only the pollution, it is also that in 
Massachusetts, as in so many other states, development is encroaching 
on the coastal wetlands and overwhelming their ability to act as 
natural filters.
    Protecting our coastal land meanings protecting the environment, 
biodiversity, open space and other societal benefits. It also means 
protecting an enormously valuable economic resource.
    Second, I want to highlight the flexible, community-based and 
collaborative nature of the CZMA program. This is one of the best 
features of the CZMA, and I would like us to build on it.
    Let me offer one example from Massachusetts: Cape Cod is facing 
significant environmental stress from increased development and runoff 
pollution. One of the challenges the state faces in solving this 
problem is monitoring coastal water quality. Environmental managers 
need good information to set a baseline for water quality and periodic 
measurements to evaluate progress.
    Without this kind of information we cannot know what works and what 
doesn't work, and we cannot be certain we are using our limited 
resources wisely.
    The CZMA program helped Massachusetts find a cost-effective and 
environmentally-effective solution to this problem.
    There are 17 citizen groups that monitor water quality on Cape Cod 
and the Islands. Four years ago the staff at the Waquoit Bay National 
Estuarine Research Reserve realized that if each of these groups used 
comparable methods and sought comparable data, a regional water quality 
monitoring system could be created.
    The Reserve established a Volunteer Water Quality Coordinator 
position to provide training, communication, technical and funding 
assistance, and now these groups are working together and comparable 
data are available for the entire region.
    This solution was possible because of the flexibility of the CZMA 
program. It allows states to set priorities, collaborate and use 
resources as efficiently as possible. I commend NOAA, Massachusetts 
Coastal Zone Management and the staff at Waquoit Bay for this work.
    Third, I want to discuss the financial support for the CZMA 
program.
    I understand that the Clinton Administration is seeking to increase 
funding for the program to $102 million as part of the President's Land 
Legacy Initiative. This would amount to a $35.7 million increase over 
last year--which is just more than a 50 percent increase.
    In general, I support the President's CZMA request. This Committee 
will, of course, craft is own proposal, and I look forward to working 
with Chairman Snowe in that process. But, I want to state that I 
strongly support the Administration request for additional funds. In my 
opinion, this program has been drastically underfunded.
    I have examined the appropriations for CZMA since 1980. Although 
appropriation levels have varied, when you examine the base programs 
and account for inflation, you find that funding has generally 
stagnated. This current fiscal year CZMA has been better funded than it 
was in the past few years, but it is receiving far less than it did in 
1980 and other years. This is not a criticism of past Congresses. Many 
programs have faced cuts because of tough fiscal times.
    But nevertheless, at the same time that federal support for this 
coastal program has lagged, coastal population growth and its 
associated environmental stresses have continued to grow rapidly.
    In 1960, about 95 million Americans lived on our coast. By 1980, 
that number climbed to almost 120 million. Today, there are 145 million 
Americans living on the coast. And projections show that by 2010, more 
than 159 million Americans will live on the coast.
    We have not kept pace with our needs. More people, more development 
and more stress, have created a greater need for the CZMA programs. 
Unfortunately, we have provided less to our states and communities for 
coastal protection as the challenge has grown.
    I want to add that I believe that this program will use additional 
funding efficiently and effectively, particularly in the effort to 
control nonpoint source pollution.
    CZMA programs to control runoff have been drastically underfunded, 
in part because of resistance from states. We need to get funding to 
states that are ready to act and not hold the entire program hostage to 
states that are moving at a slower pace--too slowly some have 
suggested. I hope that we tackle that issue in this reauthorization so 
that states that are ready to act will get the assistance they need.
    In closing, I want to thank the Chair and witnesses again. I look 
forward to our discussion today and to working with the Committee in 
the coming months to reauthorize this important program.

    Senator Kerry. The majority of the State CZMA programs came 
into reality between 1978 and 1982. I came here in 1985. In 
1990, during the CZMA reauthorization, we tried to respond to 
what we felt were some ongoing needs of the program.
    Now, I am not going to bear down on you, because I know the 
degree to which the money is restricted, not just to you, but 
in so many sectors of our agencies today. We have built a 
system here where through the budgeting process everybody gets 
to run for cover by hiding under the caps, or hiding under the 
budget rules, and we do, too.
    I am not just talking about OMB. The budget caps are a 
great way for Congress to dodge responsibility these days. 
We've got to live within the caps, but somebody sets those 
caps, and somebody decides where money is going to be spent. 
This is an area that enormously concerns me.
    In 1972, Congress first enacted the CZMA, and it made the 
following critical finding. It said, important ecological, 
cultural, historical, and aesthetic values in coastal zones are 
being irretrievably damaged or lost, and it strikes me that in 
1999, in what will really be a millennium act, we have got to 
measure the realities of where we find ourselves against the 
standard that we set back then and the reality of what is 
happening now.
    If I ask whether we have stopped coastal damage and loss of 
habitat, I think you would have to say no, and you would. If I 
said, have we reversed the trend, and are we now restoring the 
habitat, you would have to say no, and I would have to say no. 
That is the standard against which, in my judgment, we have to 
measure what NOAA does, what the CZMA is doing, and what each 
of the States are doing.
    Maybe it is a factor of time passing, but I get more and 
more impatient about this, Mr. Garcia. I am wondering if we 
should take stronger action, as in the Magnuson Act, where we 
finally said, enough monkey business, we are going to give the 
power to the Secretary of Commerce to make the decisions, 
because local councils are not doing so.
    That power has now been exercised by the Secretary in 
several ways: on scallop fishing, amendment 5, George's Bank 
and so forth. Many have disagreed with this but, frankly, I 
think it will be judged as the only act that may wind up saving 
the fishing industry.
    Now, that said--and I do not want to answer my own 
questions here.
    Mr. Garcia. You are doing fine, though. [Laughter.]
    Senator Kerry. Believe me, it is tempting. [Laughter.]
    You are familiar with Professor Costanza's work, and how he 
quantified the value of wetlands and what is happening to these 
areas. When we began our efforts, to control wetlands and 
habitat loss in 1980, more than half the wetlands in the 
contiguous United States had been destroyed. That is where we 
began.
    Now, while loss of wetland acreas has slowed, we are still 
witnessing a loss rate of over 100,000 acres a year. In 
addition, I do not think we have begun to fully measure the 
long-term impacts of nonpoint source pollution on coastal 
waters and habitat. We are going to hear in the next panel 
about some of these impacts. But the President's budget 
requests about a 50 percent increase of some $35 million in the 
CZMA program.
    Now, I think it is terrific to see an increase, but the 
fact is, a lot of States are not proceeding forward on their 
nonpoint source programs because other States are not agreeing 
to do so, so they do not get their money, even though they are 
prepared to move forward.
    We are just stalled--I hate to say it--but every State, 
every population is in a process of sleep-walking through an 
enormous long-term potential negative impact of polluted run-
off, which contains spilled oil, gas from gas stations, 
pesticides, and fertilizers. Polluted run-off is having a 
profound impact on our bays, estuaries, rivers, and in the long 
run on our wetlands. When you combine the current impacts with 
the continued rate of growth, I think we are behind the curve.
    The purpose of the CZMA is not, obviously, to simply slow 
this process. It is to reverse the process, it is to protect 
our coastal areas, and I do not think we have yet achieved 
that.
    So the question is, as we approach this reauthorization, 
does the Administration believe, do you believe that we can 
simply proceed with a reauthorization that simply puts a little 
more money in the program and chooses to highlight a few areas, 
or do we need to dramatically alter our course and think out of 
the box about how we are approaching this entire question? 
While progress has been made, is it sufficient to simply 
measure that progress in and of itself, or must it be measured 
against the mission that we set for ourselves in 1972, and the 
task that we are trying to accomplish?
    I would ask you if you would address that rather long 
introductory comment and question.
    Mr. Garcia. You have raised several interesting points and, 
I must say, I have to agree with you, not enough money has been 
raised. I will hide behind the budget. We have submitted a 
budget here that we think is adequate.
    I do want to say that, while we have not made enough 
progress, and while we have not reversed the decline of these 
coastal resources, we are beginning to make progress. I do not 
know what specifically you might refer to when you say dramatic 
changes to the relationship between the Federal Government and 
the States, but it is my belief that if we are going to make 
progress on this issue or, for that matter, any of the various 
resource issues we are confronting, and these are all difficult 
management issues, the only way we are going to do it is if we 
do it cooperatively.
    I do not think we can--as we have sometimes tried in the 
past--impose solutions on people. It has not worked. It has 
encountered resistance. I think that this law, while imperfect, 
and yet to achieve its full potential, is still very promising. 
This notion that we can develop partnerships with State and 
local communities has not been fully realized or fully 
exploited yet, but we are making a lot of progress, and if we 
can continue to devote the kind of resources that are 
necessary, I think we are going to achieve our goals.
    Senator Kerry. You say we should continue to apply 
resources. What do you mean by that? If States are not 
cooperating and coming to closure on nonpoint source 
pollution--you are suggesting there is no leverage?
    Mr. Garcia. No, there is leverage, but States are starting 
to come to terms with that. We have conditionally approved I 
think 29 of the nonpoint plans.
    I concede the point that we have not made as much progress 
as we would like. I concede the point that we still confront 
serious problems in coastal areas. We saw that last year. We 
saw it the year before, with the increasing level of outbreaks 
of harmful algal blooms and pfiesteria around the coast.
    Senator Kerry. Let me ask a question on that. Is it 
sufficient to say, we are making progress, while we are 
experiencing increased problems? Again, I am not dumping this 
on you. I am trying to get to the definitions and to the 
realities of the problem.
    We have got whole dead zones that are being extended and 
growing, increased coral die-off, and more and more clam beds 
closed. We have had increased developmental problems and so 
forth. I am not sure how you measure the programs progress 
against events that can be a literal killing of a system, where 
mitigation and retrieval become almost impossible, if not 
impossible. If we are not willing to put the money into saving 
these are as, what on earth makes you believe we will ever put 
the money into the rekindling, of life in these areas?
    Mr. Garcia. I agree. It is a question of priorities. We 
have, within the confines of the budget, submitted a proposal 
that we think will advance our objective of addressing these 
problems.
    As I said earlier, more is always better. The States have 
told us they need additional resources to implement these 
programs. We have provided the resources that we think we are 
capable of providing. We will be happy to work with the 
Committee and explore other alternatives, but as you say, it is 
a question of priorities, and what is important to this 
country.
    Do we have to wait for another disastrous season of 
outbreaks of harmful algal blooms, or another dead zone in 
another part of the country to realize the impact that this 
phenomenon is going to have on our economies and on the health 
of our citizens, on resources we depend upon? Hopefully not.
    Senator Kerry. What about the possibility that, just as we 
did in the Magnuson-Stevens Act, we put an exasperation clause 
in the Act providing that if States do not respond within a 
certain period of time to the goals and standards set out, we 
will do more than have this loosely networked implementation 
process and be perhaps more defined and rigorous in what we 
empower the Secretary to do to ensure those standards are being 
met?
    Mr. Garcia. Well, I do not know. I do not know if that is 
necessary at this point. We are just now moving into the 
implementation phase of nonpoint, so it is a bit early to say 
whether or not the States are going to be successful in 
implementing these various plans.
    If at some point we determine that these efforts are 
failing, or that communities are not implementing the plans 
that have been approved, then we are going to need to reassess 
where we are, but we are not at that point.
    Senator Kerry. Would the States be more likely to take bold 
action and implement rapidly if they knew there was that 
dreaded prospect that the Federal hand might reach in with its 
dirty tentacles and tell them what to do?
    Mr. Garcia. I guess there are two points there. One, we are 
going to have to make sure that the resources are there for the 
States, and only then could we ask such a thing. Number 2, I am 
not sure how effective the threat of Federal preemption or some 
Federal action is in encouraging the States to move forward on 
these programs.
    As I had said earlier, the only way we are going to be 
successful in addressing this problem is through the 
development of effective partnerships. If it is a one-sided 
deal, I am not sure we will be effective. We can throw a lot of 
money at the problem, but the kind of resistance that we would 
encounter would presumably take away from the effectiveness of 
the program.
    I would like to give this program and the voluntary efforts 
that it represents a chance to succeed.
    Senator Kerry. You think that the 25 years of experience 
are not a legitimate period of experiment with respect to that?
    Mr. Garcia. I do not know. I think that the 25 years of 
experience in large part, is a success story. We do have an 
effective program in place. The fact that we have not solved 
the nonpoint problem should not be evidence that it is a 
failure.
    The fact is that we, the Federal Government, State 
governments, the scientific community, are just now beginning 
to grapple with this. We have dealt with the point source 
pollution problem. This is the last problem in terms of 
pollution that we have to deal with, and it is a difficult one. 
It is complex.
    It is nonpoint. There is no single source you can point to 
that says, this is responsible for the problem. There are 
hundreds, thousands of different reasons for the problem that 
have to be dealt with, and the only way you are going to deal 
with it is through some kind of very comprehensive and a 
cooperative effort at a State and Federal level.
    Senator Kerry. Do you think that our science has 
sufficiently established the sources of polluted runoff, i.e., 
how much of it is agricultural versus how much of it is 
whatever other component you want to pick? Is the breakdown on 
that adaquate, or are we going to need as a part of this effort 
to build a greater scientific, factual foundation on which to 
be able to build the coalition necessary to achieve our goals 
for the programs?
    Mr. Garcia. I think we have made substantial progress on 
that, and we have been devoting, at least within the Department 
of Commerce, increased resources. The Administration as a 
whole, through the ECOHAB program that we have testified before 
the Committee on in the past, is a multiagency, Federal effort 
to address the research and monitoring needs in this area.
    The fact is, as with so many of these issues, we do not 
know as much as we would like to know, and I suppose that will 
probably be the epitaph of this agency and of man, that we did 
not know as much as we would have liked to know. We base our 
actions on the best knowledge we have in front of us. It is 
getting better.
    The information, I would say that we have now, is not 
comforting. We are witnessing significant changes, and you 
alluded to it a moment ago. Changes in coastal and ocean 
waters. Sea surface temperature has increased over the last 2 
decades. The chemistry of the ocean is changing, and it is 
changing in a significant way, and the impact of that change is 
going to have a very profound effect on all of us, maybe more 
profound than the changes we are seeing in climate, and that is 
why we are proposing that these matters have to be dealt with.
    We can discuss whether the level of funding is adequate to 
deal with those, but there is no disagreement from me or the 
Administration that these are critical issues, and that they 
must be dealt with. There really is no option.
    Senator Kerry. Can you tell me something about the time 
line for the grant distribution? Some have complained that it 
takes 6 months or so for States to receive allotments. Is there 
a reason for that, or is that accurate? Is there something that 
can be done about it?
    Mr. Garcia. I am not sure that is accurate. I would have to 
ask my staff.
    Well, I am told that the grants office says it takes 
approximately 60 days on average. If, in fact, there is a 
problem in getting grants out, and it is taking 6 months----
    Senator Kerry: Does it vary by State for any particular 
reason?
    Mr. Garcia. It may. I do not know. We will have to look 
into that.
    Senator Kerry. Would you? It might be helpful to get us--
and I will ask my own staff if we could look at whether there 
is a cross-State differential there.
    [The information referred to follows:]

    To address the question on the time required for processing of CZM 
grants - please refer to this table which shows, for the last 3 fiscal 
years: each eligible state, and a listing of the number of days between 
submission of state grant applications to NOAA and NOAA's final 
approval and payment of grant funds to states.
    For the information provided below, the date is when the final 
application was sent to the NOAA grants office by OCRM. The number of 
days in parentheses is the grants office's actual processing time for 
the award until award of funds to the state. (Please note that even if 
the grants office's processing time went beyond 60 days, and approval 
of the grant occurred after July 1 or October 1, the effective award 
date was specified as the July 1 or October 1 start date so that the 
state will not have an unfunded gap in time.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Kerry. Now, you have made the CZMA request part of 
the Lands Legacy Initiative. Is there a rationale for wrapping 
it in? Is there a point being made there? Does that affect how 
the CZMA may fit into your overall agenda?
    Mr. Garcia. Well, the point is that--as you know, the Lands 
Legacy Initiative is relying upon funds from off-shore oil and 
gas leasing activities, and it is the Administration's position 
that since we are taking something out of coastal areas, 
something very significant, then we should be putting something 
back into those coastal areas, and that is what we are 
proposing to do here.
    Senator Kerry. Fair enough. That makes sense.
    Thank you, Madam Chairman.
    Senator Snowe. Thank you.
    You will have a report shortly with respect to the 
evaluation of the State programs. Is that correct?
    Mr. Garcia. Yes. There is a report on the effectiveness of 
the program that is due out soon.
    Senator Snowe. When would that be? I think it would be 
helpful, as we become active in the reauthorization, to have a 
chance to examine it as we are drafting the legislation.
    Mr. Garcia. Let me see if we can at least provide you with 
a preliminary result. I am not sure the final report will be 
out in time, but we can certainly get you the preliminary 
information.
    [The information referred to follows:]

    The Effectiveness Study group has just published their findings in 
the most recent volume (Vol. 27) of the journal Coastal Management. 
This journal will be provided to the Subcommittee shortly. The Study 
found that state Coastal Management Programs were effective, but also 
recommended that a national set of outcome indicators be developed.

    Senator Snowe. I understand you are developing a process 
for outcome indicators.
    Mr. Garcia. That is part of the discussion with the States 
on the effectiveness study.
    Senator Snowe. Are you doing this in consultation with the 
States?
    Mr. Garcia. Yes, that's correct.
    Senator Snowe. Well, I guess that concludes my questions 
for Mr. Garcia.
    Senator Kerry. Just a couple of quick ones. You have a $5.5 
million outlay for administering CZMA. Is that a sufficient 
amount, or does NOAA have a greater demand to be able to 
accomplish the goals we have set for you?
    Mr. Garcia. What we have proposed in the reauthorization is 
to pay for administrative costs out of the operations research 
and funding line. The fund itself, which relies upon repayments 
of loans, has been inadequate in the past to cover the cost of 
operating the program.
    The loan collections are projected to be approximately $4 
million over the next several years, and the costs have been 
running in excess of that, so rather than do something that we 
know is going to result in a shortfall, whatwe are proposing is 
that the funds be appropriated for the expenses of operating 
the program, and that any loan collections, any revenues that 
come in, be used as offsets to the appropriation.
    Senator Kerry. Fair enough. Thank you.
    Senator Snowe. Thank you. Thank you, Mr. Garcia.
    Mr. Garcia. Thank you.
    Senator Snowe. The next panel, we are pleased to welcome 
Mr. David Keeley, who is the State Planner for the Maine State 
Planning Office, the lead agency for Maine's coastal zone 
management program. Mr. Keeley served as the Director of the 
Maine Coastal Program from 1987 through 1994.
    Also before us is Ms. Sarah Cooksey, President of the 
Coastal States Organization. Ms. Cooksey is also the 
Administrator of the Delaware Coastal Management Program.
    We will also hear from Tim Eichenberg, Counsel for the 
Center for Marine Conservation. Mr. Eichenberg will also be 
testifying on behalf of the American Oceans Campaign, Coast 
Alliance, and the Natural Resources Defense Council.
    Our final witness for the afternoon will be Dr. Sylvia 
Earle, the National Geographic Explorer in Residence at the 
National Geographic Society. While many of us are familiar with 
Dr. Earle's deep sea work, she has also conducted many coastal 
studies.
    I thank you all for being here today. We will include your 
statements in the record. So we would ask you to summarize your 
statements. Please try to limit your statement to 5 minutes, 
because we have a vote in probably 20 minutes. We would like to 
see if we can move it along as best we can.
    Mr. Keeley, why don't we start with you.

           STATEMENT OF DAVID KEELEY, STATE PLANNER, 
                  MAINE STATE PLANNING OFFICE

    Mr. Keeley. Sure. Thank you. I am David Keeley, with the 
State Planning Office in Maine. Your timing is excellent, 
because I need to fly back home this afternoon. So moving this 
along is just great.
    Today I would like to just touch on three things. You have 
my testimony before you. One is Federal agency coordination. 
The second is technical assistance. The third is community 
planning.
    Before I get into that, every time I come to D.C., I am 
made aware that somehow as we begin to discuss Federal support 
for coastal zone management programs, we forget that in fact 
the States are contributing significant sums of dollars to 
these programs. I appreciate that the revolving doors on this 
building and many other buildings around the Hill, people 
continually have their hand out for additional resources. In 
that context, it is just important to say that all States are 
making significant investments, whether it is on land 
acquisition or nonpoint source pollution or other programs, to 
address priorities in the CZMA.
    I can say, for the good State of Maine, that when we do a 
very quick review, we are probably 7 to 1 in terms of State 
dollars to Federal dollars to support coastal zone management. 
So we obviously believe in the coast and are investing in it. 
There are clearly national interests in the coast, and that is 
why it is appropriate that the CZMA continue to strike that 
balance between State and Federal interests.
    I do have to rise to the occasion, given our last speaker, 
and say that the notion of--my term--NOAA skimming off 
resources off of State grants is simply unacceptable. This is a 
gimmick to me. We would much prefer, as you suggested, Senator 
Snowe, to see NOAA come forward and document what they need for 
their resources, and have Congress decide what the appropriate 
level is.
    I know that in our Statehouse, that if I come forward with 
a State request and my legislature provides it, those are the 
funds I am able to work with. I think then do not turn around 
and try and work through the back door and get other funds that 
in fact the legislature was unwilling to give me. So I need to 
live within my budget, and I am suggesting that they need to do 
the same.
    In terms of Federal agency coordination, there is a chronic 
lack of Federal agency coordination working on coastal and 
marine issues. Through the CZMA, NOAA is designated as the lead 
agency. They often say that they are too small of an agency or 
that their budget is too small to work with some of the larger, 
more aggressive, shall we say, agencies. I am suggesting that, 
through the Oceans Act that you had envisioned last year, there 
was clearly a suggestion that there would be improved Federal 
agency coordination. I believe that whether it is in the CZMA 
or some other statute, there needs to be recognition that NOAA 
needs to be empowered to lead on ocean and coastal affairs.
    My second point has to do with management-oriented research 
and technical assistance. That is Section 310 of the Act. NOAA 
has been self-described, and described by other States, as a 
dense and impenetrable agency, with some of the best-kept 
secrets. They do high-quality science but, for whatever 
reasons, cannot seem to get it out to the States who are so 
desperately seeking it.
    So the suggestions of providing increased funding for 
support for research and development is really on point. They 
know that the information transfer is an area where substantial 
improvements are needed, and in fact are working in a number of 
areas. So I applaud those efforts. But, needless to say, there 
is much more that needs to be done.
    The suggestions of management-oriented research really 
originates from the States, who have suggested that there is 
great efficiencies in having that research done once, rather 
than five times or 10 times all around the Nation. But we want 
to be sure that in fact the clients of that research are 
engaged in both the design and the dissemination of that work.
    Finally, in terms of technical assistance, the best example 
I can offer is we were working with someone in senior 
management in NOAA several years ago. We needed some help in 
putting together a monitoring program. As I say, a great 
example of technical assistance was they provided somebody to 
sit in the State Planning Office for about 3 weeks. They worked 
with a number of State agencies and, in a very short amount of 
time, helped us make considerable gains. To me that is genuine 
technical assistance.
    We, in turn, do the same kind of thing at the State level, 
and I know other States do, as well, in terms of hands-on, 
technical assistance to municipalities. That is the hallmark of 
what the State Planning Office does.
    My last point has to do with community planning. It is real 
bright spot of the Administration's reauthorization proposal. 
In fact, much of the idea came from the States, suggesting that 
this was an area the CZMA needed to be more involved in. In 
Maine, we have been working on this kind of a program since 
1987, through something we call the Coastal Planning and 
Investment Program. Capacity building is definitely a long-term 
effort. We should not enter that lightly.
    Like nonpoint source, we created these problems for years; 
it is going to take us years to respond to them. We are 
certainly willing to offer some lessons learned if you are 
interested. We also have some suggestions on how those funds 
might be used in Maine if they were appropriated.
    Thank you. I would be glad to answer some questions.
    [The prepared statement of Mr. Keeley follows:]

          Prepared Statement of David Keeley, State Planner, 
                      Maine State Planning Office
    Senator Snowe and members of the Subcommittee on Oceans and 
Fisheries, I am David Keeley. Thank you for providing me with an 
opportunity to testify on behalf of the State of Maine. I am the State 
Planner within the State Planning Office--the lead agency designated by 
the Governor over twenty years ago for Maine's Coastal Zone Management 
Program. I served as the Director of the Maine Coastal Program from 
1987 to 1994.
    People throughout the world know the State of Maine through our 
lobsters, our 3,500 miles of coastline and the renown independent 
Mainer. Fewer people however are aware that although our coastal zone 
consists of only 12% of the state's land area, it is home to over 60% 
of our population and over 70% of all employment. These statistics are 
mirrored in virtually every other coastal state where coastal 
populations are burgeoning.
    We treasure our coastal resources and have the distinction, along 
with Oregon, of being one of the first states to enact environmental 
legislation in the early 1970's--before it was in vogue. At this very 
time a woman from Auburn, Maine stepped into the spotlight and defeated 
her opponent Alfred Brodeur in a 2-1 landslide victory for a seat in 
our State House of Representatives. Representative Snowe served in the 
State House for two terms and in 1977 became a State Senator. 
Throughout her State House career she was associated with marine issues 
of importance to Maine. So it is of no surprise that I sit here before 
you today. I applaud your leadership in seeking reauthorization of the 
Coastal Zone Management Act and for your other efforts to strengthen 
the manner in which our nation wisely manages its coastal and marine 
resources.
    Before I offer some specific reauthorization suggestions let me 
touch on two things, first to reinforce what the CZMA is all about and 
the second is to share Maine's vision for our coastal and marine 
environment. We just celebrated twenty-years of coastal management 
through the CZMA. We did this on the very year that the world was 
celebrating the International Year of the Ocean. In Maine we took stock 
of what we have done through the CZMA. The incredibly diverse list of 
resource conservation and development accomplishments is impressive and 
addresses real-world issues Maine and the other 34 states participating 
in this national program are dealing with.




Dredging our harbors              Managing our        Providing public
                                   beaches             access to the
                                                       shore
Protecting coastal ecosystems...  Purchasing public   Improving coastal
                                   lands               water quality
Regulating land use activities..  Improving           Strengthening
                                   fisheries           local capacity
                                   management.
Increasing aquaculture jobs.....  Collaborating in    Training volunteer
                                   the Gulf of Maine.  stewards



    Our Legislature has invested millions of dollars each year in these 
and related activities that we have determined to be vital to our 
environment and economy. I highlight this because I believe this state 
commitment of resources, which is happening throughout the nation, 
often gets overlooked as Congress discusses what the appropriate levels 
of federal investment are in the CZMA. This Subcommittee is well aware 
the CZMA is a partnership program and there is no better way to see 
that partnership at work than when someone is committing financial 
support. Indeed Maine is providing approximately $7 dollars for every 
federal dollar we receive through the CZMA.
    My second point has to do with clarity of vision for the future. 
Our vision for the Maine coast includes clean water and healthy shell 
fisheries, working waterfronts, retention of marine related jobs and 
creation of new marine technologies, use of remote sensing for applied 
research, preserved public access to the shoreline, well planned 
communities, reduction of properties at risk to coastal hazards ..... 
and the list goes on. Every coastal state has looked ahead and is 
preparing to address those issues of greatest importance. In this 
regard the CZMA is a very important tool to ensure the national 
interest in these issues is considered and addressed.
                          czma reauthorization
    As you are aware, the Coastal States Organization has prepared a 
series of amendments to the Administration's proposed reauthorization 
bill. These amendments represent a collaborative approach by the 35 
coastal states to come to consensus as an organization. Maine is 
supportive of these changes although on specific provisions we might 
have a more strident view.
    #1. Nonpoint Source Pollution--Declining water quality due to 
nonpoint source pollution is a priority for Maine. This is best 
demonstrated by the level of activity that municipalities and state 
agencies are engaged in. Our Department of Environmental Protection has 
reorganized to better address this issue, the legislature has 
strengthened state construction, agriculture, forestry and water 
quality statutes, and Maine voters have authorized, by general 
referendum vote, bond funds for nonpoint source control purposes.
    Maine has received conditional approval of our coastal nonpoint 
source plan but we need additional funding, beyond base funds in the 
CZMA, to affect change in coastal water quality.

        Recommendations--With regard to the Administration's bill we 
        take exception to the proposed requirement that a percentage of 
        core funds (e.g., Section 306) that support Coastal Program 
        implementation be set aside for NPS purposes. We believe the 
        states, and not a federal agency are in the best position to 
        determine how these core funds should be expended. Yes, it 
        should be an eligible activity. No, the statute should not 
        prescribe the amount.
        The Administration's bill also proposes to include state 
        performance on nonpoint source program implementation in the 
        periodic reviews required in Section 312. We believe 
        accountability is important and that it is appropriate to 
        address these issues within an overall Coastal Program 
        evaluation.

    #2. Community Planning and Investment--Maine enacted a locally-
based growth management program in 1987 and has developed considerable 
experience in program management and evaluation. One issue I would 
bring forward is that our efforts have focused almost exclusively on 
developing municipal growth management solutions in the form of 
comprehensive plans, capital investment strategies, and land use 
ordinances. While this effort is producing fruit we have not adequately 
addressed associated regional issues where governmental efficiencies 
are significant and when solutions to natural resource management 
issues transcend municipal boundaries.

        Recommendations--Substantively the Administration's proposals 
        in Section 310 (Providing for Community-based Solutions for 
        Growth Management and Resource Protection) are thoughtful 
        however a competitive grants delivery mechanism seems unduly 
        complicated. Our experience convinces us that capacity building 
        at the local and regional level requires years of sustained 
        investment. Consequently a performance-based formula allocation 
        to the states is a more reliable and hence preferable way to 
        proceed. Finally, there is no matching requirement contained in 
        this Section. We believe this is a very important initiative 
        that must be state supported. Consequently we would not be 
        adverse to a matching requirement that in essence doubled the 
        level of resources committed to this effort.

    #3. Management Oriented Research and Technical Assistance--NOAA, as 
the nation's lead coastal agency, must take a more proactive role in 
sponsoring management oriented research, in working with other federal 
agencies to improve the dissemination of those agencies sponsored 
research and to serve as a single point of entry for state coastal 
programs seeking to access the coastal and marine expertise of the 
federal government. I've lost count of the NOAA work groups that I have 
participated on over the past 15 years that have made incremental and 
modest changes in this regard. In each of these NOAA has been described 
as a ``dense, impenetrable federal agency with some of the nation's 
best keep research and management secrets.'' The Administration has 
acknowledged this problem and in 1998 put in place a reorganization of 
the National Ocean Service including the formation of a Science Office. 
This effort and others just begin to address this issue.

        Recommendations--Through Section 310A of the Administration's 
        CZMA reauthorization proposal seeks to strengthen NOAA's role 
        in research and technical assistance. We applaud that effort 
        but believe the proposed language should be clarified. First, 
        that NOAA will be a sponsor of the research meaning that they 
        may conduct research as well as support the work of others. 
        Second, there is no mention of NOAA providing technical 
        assistance to their state partners on environmental monitoring, 
        data management, resource assessment, to name but a few issues 
        all states are addressing. Third, we would highlight that NOAA 
        funding for the international Gulf of Maine Program was 
        critical at the inception of the program in 1989. It provided 
        us with the initial planning funds which has allowed us to 
        become an international model others are emulating. 
        Consequently we urge that ``regional and interstate projects'' 
        be given a higher priority within Section 310A. Finally, in the 
        spirit of efficiency in government NOAA should be empowered to 
        coordinate federal agency activities that are within the scope 
        of the CZMA.

    #4. Outcome Indicators--The public is demanding accountability in 
government. In Maine this has resulted in a performance budgeting 
initiative that is now codified in state statute. At the state level we 
must describe, through our agency strategic plans and budgets, what the 
taxpayer can expect for the dollars they pay. This same standard should 
apply to the Coastal Zone Management Act.

        Recommendation--Maine supports the proposal by the Coastal 
        States Organization that would amend the CZMA to establish a 
        common set of measurable outcome indicators that would be used 
        to evaluate the effectiveness of state Coastal Management 
        Programs. It seems appropriate for this concept to be 
        integrated into Section 316--Coastal Zone Management Reports.
        These measurable results and outcomes should embrace the model 
        contained with the 1972 CZMA that articulated national goals 
        and priorities which the states then responded to in their own 
        way. Each state's coastal conditions are different and require 
        an approach specific to their needs.

    #5. Authorizations--The Coastal Zone Management Act is Congresses 
plan for managing coastal resources. It was a bold initiative in 1972 
when it was enacted and remains so today. However over the past 25 
years the scope, complexity and sophistication of the nation's coastal 
zone management programs has changed dramatically. Flat or modest 
increases in federal appropriations have not kept pace with these 
changes placing an ever increasing burden on state legislatures to 
``make up the difference.'' In addition I mentioned earlier that state 
investments in coastal management far exceed federal support lending 
credible evidence that this is a partnership effort between the states 
and federal government.

        Recommendations--Maine supports the authorization levels 
        proposed by the Coastal States Organization. In particular, I 
        would highlight the separate line items for Section 306A 
        (resource improvement), 310 (technical assistance), and 315 
        (Research Reserves). Maine also believes there should be 
        separate funding for nonpoint source pollution control.
        As CZMA appropriations increase the level of funding for states 
        like Maine are constrained by a Congressional cap. I would urge 
        this committee to examine this issue to ensure an equitable 
        distribution of funding.

    In light of the continued decline of coastal resource quality it is 
time we became serious and committed the resources necessary to do the 
job.
    Finally, we were stunned to learn that NOAA is proposing to use 
funding Congress committed to the states to pay for NOAA's overhead and 
operating costs. This seems highly inappropriate and we hope this 
Congress will quickly clarify their intent.
    Thank you for this opportunity to provide comments. I would be 
pleased to answer any questions.

    Senator Snowe. Thank you, Mr. Keeley.
    Ms. Cooksey.

STATEMENT OF SARAH W. COOKSEY, ADMINISTRATOR, DELAWARE COASTAL 
 MANAGEMENT PROGRAM, AND PRESIDENT, COASTAL STATES ORGANIZATION

    I want to thank you for inviting me here today. My name is 
Sarah Cooksey. I am the Administrator of the Delaware Coastal 
Management Program and our Estuarine Research Reserve. I am 
here today in my role as Chair of the Coastal States 
Organization.
    Since 1970, CSO has represented the interests of the 
coastal States, including the Great Lakes and island 
territories, as an advocate for sound and balanced coastal, 
Great Lakes and ocean resource management. I am here to 
represent the people working at the State and community level, 
that make the day-to-day decisions that impact the long-term 
effect of those decisions on our Nation's coastal zone.
    For example, in Maine, the State Planning Office is working 
with the Port of Portland and Federal agencies to help 
facilitate the dredging of the harbor, while assuring the 
protection of lobster resources. The Massachusetts CZM program 
is supporting statewide efforts to develop harbor master plans 
and to identify priorities for investments in harbor 
infrastructure and develop a statewide dredging material 
disposal plan.
    In Louisiana, they are working with communities and a 
variety of Federal agencies, and they recently completely a 50-
year plan to restore up to 25 miles of coastal wetlands that 
are lost each year.
    States from Washington to Texas need to provide assistance 
to communities to help them help themselves to make better-
informed local decisions regarding the cumulative impacts of 
the hundreds of coastal management decisions they make every 
day.
    I will focus my oral comments on basically two things. 
First, we need tools to assist communities to address the 
unprecedented growth in development in these precious areas, 
and to assure the conservation of vital resources, and to 
increase support for the administration, implementation and 
enhancement of State coastal zone programs to further the 
protection and restoration of our coastal resources, while 
allowing for reasonable coastal economic growth.
    I will also address some of the comments that you all 
mentioned earlier. In addition to the basic objectives of the 
CZMA to have good coastal land use planning, wetlands 
preservation, assure public access, restore waterfronts, and 
minimize coastal hazards, there are three other fundamental 
coastal issues that the CZMA can help us address. They are the 
pervasive and persistent effects of land-based sources of 
coastal pollution, the cumulative and secondary impacts of 
increased development in coastal areas on habitat and assisting 
local communities in revitalization efforts and waterfront 
developments, and identifying and implementing key coastal 
conservation needs.
    I have a couple of examples of things that we have done in 
Delaware. We have done a special area management plan for Pea 
Patch Island, where we brought together parties that commonly 
disagree--agriculture, developers and environmentalists--to 
agree that the largest heronry on the East Coast is worthy of 
protection. Together we are implementing strategies to protect 
it, while ensuring that the industries in the region are not 
adversely impacted.
    The CZMA should be amended to include a new section to 
provide dedicated support to States, to assist in the 
development and implementation of local, community-based 
solutions to the impacts on coastal uses and resources caused 
by increased development. In 1998, there were 124 ballot 
initiatives approved by voters, calling for improved management 
of development and conservation of open spaces.
    For example, the Massachusetts CZM program provided support 
for the four towns abutting Pleasant Bay on Cape Cod, a State 
area of critical environmental concern, to develop local 
consensus around a resource management plan. However, the State 
does not have the resources to support plans in the remaining 
13 other ACEC's in the coastal area.
    Last year, Congress approved billions of dollars for 
highway investment. In the State of Delaware, a significant 
portion of those funds will undoubtedly go, as they should, to 
improve access to our increasingly popular coastal resort 
communities. $700 million were spent to manage 10 summer 
weekend tie-ups, and only $1 million was spent on beach 
nourishment. Even less on helping beach communities that may be 
impacted by the increased use and development of those areas.
    In response to Senator Kerry's comments earlier, I think it 
is time for a comparable commitment to coastal resource 
conservation. I think the time is now.
    While the development of computer-generated geographical 
information systems, commonly known as GIS, have greatly 
expanded the ability to identify the relationship of existing 
development, future growth patterns and natural resources, few 
local governments have the capacity to utilize these or other 
sophisticated tools to help plan and accommodate this growth, 
while preserving the quality of life and ecosystem vitality.
    In Delaware, our CZM program is working with Kent County, 
which is in the metropolitan area of Dover, our State capital, 
to design and build the capacity to create build-out scenarios, 
determine prime areas for environmentally compatible 
development, and control urban sprawl. The project has also 
resulted in decreasing preliminary permit reviews from weeks to 
minutes. We would like to expand this to other communities, but 
we cannot because of lack of resources. I have an example of 
that.
    We recommend that $30 million be authorized to support 
these community revitalizations and management efforts. Despite 
clear national benefits and increasing demand, Federal support 
for State CZM management has not kept up with growing 
challenges. Funding for State coastal programs in real terms 
has declined due to inflation and the addition of States 
participating in coastal programs. Texas, Ohio and Georgia are 
new. Minnesota will have a new CZM program. In larger States, 
grants have been capped at $2 million for the past 8 years.
    In increasing authorization levels for 306/309 programs, we 
recommend $75 million in order to address this shortfall. This 
will also help States address polluted runoff, consistent with 
their coastal program responsibilities and priorities, 
including interagency and State/local coordination.
    We also approve of NOAA's commitment of the application of 
science and research to on-the-ground decisionmaking. This was 
clearly demonstrated last year during the Pfiesteria crisis. 
Current provisions under Section 310 of the CZMA, calling for 
management-oriented research and technical assistance from NOAA 
to the States should be strengthened. The Secretary should be 
required to prepare a report and recommendations to this 
committee regarding the effectiveness of NOAA.
    Before I conclude Madam Chairman, I would like to briefly 
address a few concerns regarding the Administration's bill. 
First, the Administration, like the States, proposes amendments 
to the CZM to support community planning and assistance grants. 
However, it appears as if their proposal would set up a Federal 
competitive grants program rather than provide the funds 
directly to States through the CZMA formula. There is no need 
for a new Federal administrative program. These funds are best 
administrated at the State and local level, in consultation 
with the communities.
    Second, although the States recognize that polluted runoff 
is a significant problem in coastal States, we do not support 
the provisions of the administration's proposal that would 
mandate the Secretary withhold up to 20 percent of State 306-
based programs to implement polluted runoff.
    I will be happy to answer any questions that you might 
have. Thank you.
    [The prepared statement of Ms. Cooksey follows:]

Prepared Statement of Sarah W. Cooksey, Administrator, Delaware Coastal 
     Management Program, and President, Coastal States Organization
                              introduction
    I want to thank Chairman Snowe and the other members of the 
Subcommittee for the invitation to testify on the reauthorization of 
the Coastal Zone Management Act (CZMA). My name is Sarah Cooksey, and I 
am the Administrator of Delaware's Coastal Management Programs. I am 
testifying today in my role as Chair of the Coastal States Organization 
(CSO). Since 1970, CSO has represented the interests of the coastal 
states, including the Great Lakes and island Territories, as an 
advocate for sound and balanced coastal, Great Lakes and ocean resource 
management and development. CSO's membership consists of Delegates 
appointed by the Governors of the 35 States, Commonwealths, and 
Territories bordering the Atlantic and Pacific oceans, the Gulf of 
Mexico and Great Lakes. We greatly appreciate the early attention the 
Subcommittee is giving to the reauthorization of the CZMA, and urge 
Congress to complete action this year on this important legislation.
                                summary
    The Coastal Zone Management Act (CZMA) provides a flexible 
framework to develop collaborative, innovative community-based 
strategies to balance the challenges posed by growth and development 
with the need to preserve and restore critical habitat and other 
natural resource values. The CZMA is unique among federal statutes. It 
provides incentives to the states to identify their own coastal 
management priorities consistent with broad national objectives. In 
developing their coastal management programs, States determine the 
right mix of regulation, cooperation and education needed to address 
those priorities. Where states adopt enforceable policies, federal 
activities, licenses and permits must be consistent with those 
policies.
    The population of coastal communities and coastal tourism continues 
to grow at a steady pace, placing ever increasing demands on coastal 
resources. The population densities of coastal counties are already 
five times the national average, and coastal areas are becoming more 
crowded every day. From 1996-2015, coastal population is projected to 
increase from 141 million to 161 million. Yet, funding for coastal 
programs under the CZMA not increased.
    The CZMA should be amended to take advantage of its inherent 
strengths to provide increased support for state coastal programs under 
Sec. Sec. 306 and 309, and provide support for direct assistance to 
coastal communities assess and manage the impacts of growth and 
conserve critical natural coastal resources. Funding for community 
assistance under the CZMA has been very limited and, where it is 
available, it competes with coastal program administration, 
implementation and enhancement funds. This puts the states in the 
untenable position of choosing between preserving and improving its 
ongoing CZM program or providing assistance for communities to 
undertake specific priorities protection or restoration in critical 
areas. For example, while the Massachusetts CZM program provided 
support for the four towns abutting Pleasant Bay on Cape Cod, a state 
Area of Critical Environmental Concern (ACEC), to develop local 
consensus around a resources management plan, the state does not have 
sufficient funds to support plans in the remaining 13 ACEC's in the 
coastal area.
    These amendments, which are discussed in more detail below, seek to 
redress this by providing direct assistance for communities, in 
addition to that provided by increases to base program administration 
and enhancement grants under Sections 306 and 309 of the CZMA, that 
will enable states to:

        (1) improve their ability to assist local decision-makers to 
        understand the impacts and manage growth and development more 
        efficiently, to identify a compatible mix of residential, 
        commercial and open space uses, and to revitalize communities;
        (2) provide for increased protection, conservation and 
        restoration of critical coastal resources;
        (3) access management-oriented research which provides new 
        technology and tools that enhance the capacity of coastal 
        decision-makers to assess, monitor and cumulative and secondary 
        impacts.

    CSO supports other technical changes and clarifications of the CZMA 
which will: (i) assure funding under the Coastal Zone Management Fund 
for regionally significant projects, international projects; emergency 
response to coastal hazards, and innovative demonstration projects; 
(ii) provide for the development, in consultation with the states, of 
outcome measures to assure effectiveness ``on the ground''; and, (iii) 
increase support for the National Estuarine Research Reserve System 
(NERRS.) CSO supports the reauthorization recommendations of the 
National Estuarine Research Reserve Association which are included in 
the attached outline.
                               background
    Our nation's history, economy and culture are inextricably linked 
to and dependent upon the natural resources and economic development of 
the coasts. Our future is linked to their continued health. The story 
of our coast is, in many respects, the story of our nation which 
includes...the ports around which our nation's largest cities grew.... 
the fishing and beach communities along the coast of Maine and Cape 
Cod; the habitats of Galveston Bay....the indigenous cultures unique 
coastal needs of Alaska and the Pacific islands....the wetlands of 
coastal Louisiana....I am sure that each one of us can add to the list.
    It has been estimated that economic activity in coastal areas 
currently supports 28.3 million jobs while generating incalculable 
indirect economic benefits. Significant sectors of our nation's 
economy, including maritime trade, fisheries and mariculture, 
recreation and tourism, and oil and gas development depend directly on 
a healthy coastal ecosystem. Neither our picture post card memories nor 
our current economic prosperity will last for without careful 
``stewardship.'' By stewardship, I mean the actions we take (or refrain 
from taking) to ensure that we are able to sustain both the coastal 
natural resources and the coastal economic opportunity for future 
generations.
    States have recognized the importance of conservation of open 
space, discouraging sprawl development in rural areas, and protecting 
agricultural lands. The public also has indicated its strong support 
for these initiatives. In 1998, 124 ballot initiatives were approved by 
voters calling for improved management of development and the 
conservation of open space.
                    the coastal management challenge
    Activities last year in connection with the Year of the Ocean began 
to focus attention on the critical coastal and ocean resources 
challenges that we face. These challenges include: the pervasive and 
persistent effects of land-based sources of coastal pollution; the 
cumulative and secondary impacts of increased development in coastal 
areas on habitat and water quality; the potential for inefficient 
investment in public infrastructure resulting from urban sprawl; and 
the inefficient investment in environmental protection resulting from 
conflicting mandates and lack of adequate multi-objective planning.
    As States and the federal government continue actively to support 
initiatives to enhance our nation's prosperity and economic 
development, we have a joint responsibility to address the increased 
demands that growth and development places on our coastal resources. 
That is particularly true along the coasts where thriving economies 
rely directly on healthy ecosystems. Healthy coasts support maritime 
activity, fisheries and other marine life, the aesthetic and natural 
resources values coastal tourism and recreation, the wise management of 
mineral and energy resources, and numerous other activities.
    In both economic and human terms, our coastal challenges were 
dramatically demonstrated in 1998, by the numerous fish-kills 
associated with the outbreaks of harmful algal blooms, the expansion of 
the dead zone off the Gulf coast, and the extensive damage resulting 
from the record number of coastal hurricanes and el Nino events. 
Although there has been significant progress in protecting and 
restoring coastal resources since the CZMA and Clean Water Acts were 
passed in 1972, many shell fish beds remain closed, fish advisories 
continue to be issued, and swimming at bathing beaches across the 
country is too often restricted to protect the public health.
    Last year, the H. John Heinz Center III Center with support from 
NOAA brought together a cross-section of leaders from all major sectors 
concerned with coasts and oceans to identify key issues affecting the 
nation's coastal and ocean future. In May 1998, they issued a Report 
entitled ``Our Ocean Future'' which, among other specific 
recommendations, concluded that:

        To meet the challenge of protecting and conserving the coastal 
        environment, the United States will need to manage the oceans 
        and coasts in new ways. The economic and other consequences of 
        coastal storms and erosion need to be reduced, and sustainable 
        economic growth needs to be achieved in maritime recreation, 
        marine resource development, global trade, and other 
        activities. Progress in these areas increasingly lies beyond 
        direct federal control. A rich experience base is emerging on 
        partnership approaches that build on the roles and capabilities 
        of the private sector; the knowledge base provided by 
        scientific researchers; and the conservation and economic 
        development tools of local, state and federal governments.
                                the czma
    The CZMA is the only federal statute which sets forth a federal-
state partnership to achieve the goal of maximizing sustainable 
economic and environmental objectives. The CZMA incorporated the 
essential principles of the ``smart growth'' and ``sustainable 
development'' movements over twenty years before the terminology came 
into vogue. Congress was prescient in 1972 when it passed the Coastal 
Zone Management Act (CZMA) to provide incentives:

        to encourage and assist the states to exercise effectively 
        their responsibilities in the coastal zone through the 
        development and implementation of management programs to 
        achieve the wise use of the land and water resources of the 
        coastal zone, giving full consideration to ecological, 
        cultural, historic, and esthetic values as well as the needs 
        for compatible economic development programs . . . . (16 USC 
        1452(2))

    With the enactment of the Coastal Zone Management Act in 1972 
(CZMA), Congress improved the management of the coasts in two 
fundamental ways.

        <bullet> First, it provided incentives that encouraged states 
        to develop and implement plans, based on local priorities, to 
        achieve a variety of national economic, environmental and 
        societal objectives related to the coasts.
        <bullet> Second, it provided states with the authority to 
        ensure that federal activities, licenses and permits would be 
        consistent with the enforceable policies of federally approved 
        state coastal zone management programs.

    It is not surprising that the principles of smart growth and 
recognition of the need to balance environmental and economic concerns 
was recognized first as essential to proper management of coastal 
resources because that is where the concentration of people and their 
demand for the use of natural resources was, and still is, the most 
acute.
    Over the past six months, CSO has solicited the views of the 
states, NOAA, the National Estuarine Research Reserve Association and 
others about how the CZMA reauthorization can help to address these 
challenges. There are clear needs which have emerged from our 
discussions.

        <bullet> There is a need to support coordinated decision-making 
        across programs and at the federal-state-regional and local 
        level.
        <bullet> The focus of resource protection must expand from the 
        resource specific mandates of the past to developing tools to 
        accommodate multiple objectives and improve the quality of 
        life.
        <bullet> The focus of problem solving is increasingly shifting 
        to locally-based solutions, which should be developed and 
        applied within the context of broader ecosystem and regional 
        systems.
        <bullet> Few local governments have the capacity to address 
        adequately the complex social, scientific, technical, fiscal 
        and legal dimensions of the problems resulting from the growth 
        of coastal communities.

    34 of the 35 eligible state have either developed or are developing 
programs to protect and restore wetlands, increase public access to the 
shore, address the threats of coastal hazards, identify and manage the 
potential cumulative and secondary impacts of development, and 
revitalize waterfronts. In that time, states have measurably--

        <bullet> Reduced the loss of wetlands and are beginning to 
        reverse those losses through restoration;
        <bullet> Assured that federal activities are consistent with 
        state coastal management plans;
        <bullet> Increased public access to coastal resources, and;
        <bullet> Revitalized rundown waterfronts .

    In Louisiana, where 25-35 miles of wetlands are lost each year, a 
50 year plan for coastal restoration has just been completed. Other 
states have set out equally ambitious agendas for the future protection 
of coastal resources.
    Other success stories are set out in two recent NOAA publications 
the ``Coastal Zone Management 25th Anniversary Accomplishments Report'' 
and the Biennial Report to Congress, ``Coastal Stewardship Towards a 
New Millennium: 1996-1997.'' These reports just scratch the surface of 
the activities in the states, and I hope each Member will have a chance 
to contact their states directly to find out not only what they have 
done so far to address coastal management challenges but, more 
importantly, what they need to accomplish in the future and how we can 
support these efforts through the reauthorization of the CZMA.
   new challenges--community revitalization and conservation planning
    Despite the accomplishments, we have also learned some surprising 
lessons. In some cases we have discovered that the solutions of the 
past are part of the problem of present. For example, transportation 
investment can operate as an indirect subsidy for sprawl, creating 
demand for housing, school construction and other public infrastructure 
while destabilizing the urban tax base. Overly rigid environmental 
regulations can discourage downtown revitalization and encourage 
development in distant underdeveloped areas.
    In 1997 the National Research Council issued a study entitled: 
``Striking the Balance: Improving Stewardship of Marine Areas'' that 
concluded, in part, that:

    The governance and management of our coastal waters are inefficient 
and wasteful of both natural and economic resources. The primary 
problem with the existing system is the confusing array of laws, 
regulations, and practices at the federal state and local levels. The 
various agencies that implement and enforce existing systems operate 
with the mandates that often conflict with each other. In many cases, 
federal policies and actions are controlled from Washington with little 
understanding of local conditions and needs.

    The multi-purpose objectives of CZMA and its recognition of the 
need to coordinate activities among various agencies and levels of 
government make it an excellent vehicle for addressing these conflicts. 
Zoning intended to protect residents from offensive development can 
lead to the segregation of activities in general. We live in one place, 
work in another, shop inanother. The result--we drive to work, our 
children are driven to school, drive to the mall, and (for those whom 
shopping at the mall is not sufficiently recreational) drive to the 
park. State, local and community officials and planners will tell you 
that the resulting sprawl costs money and lots of it. Sprawl is coming 
to be understood as economically inefficient land use. In addition to 
the much greater infrastructure costal, traffic congestion associated 
with sprawl results in substantial economic losses in terms of time and 
energy consumption. Most frustratingly, planners have found that sprawl 
is self-sustaining in that it inevitably leads to demands for 
transportation by-passes which open up new areas for similar 
development and result in the economic stagnation and decline of areas 
only recently developed.
    Few local governments have the capacity to plan adequately to 
accommodate the inevitable future growth of communities while 
preserving the quality of life and ecosystem vitality. For example, 
while technological advances, such as the development of computer 
generated geographic information systems (GIS), have greatly expanded 
the ability to assess the impacts of infrastructure placement in 
relation to existing development, future growth patterns and natural 
resources, local community officials and planners do not have the 
resources to get past the entry-level threshold of acquiring the 
equipment, expertise and data to make use of these technologies. It is 
important to recognize that advances like GIS are simply tools and that 
their effectiveness in improving decision-making will depend assuring 
that the data is scientifically valid, current, accessible and usable 
by constituents at the state and local level.
    CZMA provides a ready-made framework for addressing these issues. 
The focus of coastal management has begun to change in response to the 
realization that a process and project oriented approach to coastal 
management is not going to keep up with the demands being placed on 
coastal communities and resources. It is becoming increasingly clear 
that coastal communities need help to improve their ability to plan and 
manage growth and development efficiently, and assure conservation of 
remaining critical open space in crowded coastal areas.
    It is time for a major commitment through the CZMA to support state 
efforts to provide new and improved planning and management tools to 
assist local communities to understand better and address the complex 
economic and ecological dynamics of coastal systems and communities. 
This can be done both through improving the responsiveness of NOAA 
research to state and local management needs and providing assistance 
directly to states to work with local communities.
    While all of our natural resources are valuable, some are more 
important than others in their relation to an ecosystem, and some are 
critically essential to the long-term viability of an ecosystem. For 
example, small tidal creeks have been identified as one of these 
essential areas. In their natural condition, these areas are among the 
most productive biologically, but because of their interface with the 
land and shallowness, they are also the more easily stressed. Advances 
in management-oriented science and technology are not only allowing us 
to identify these critical areas, but can assist us to establish impact 
thresholds, such as tolerance and impact levels for specific 
percentages of paved or other impervious surface area. This kind of 
information allows us to both protect resources and accommodate growth 
through improved design and location.
            administration's czma reauthorization proposals
    While CSO's reauthorization proposals (which are explained in 
detail in the following section) agree in large part with the 
Administration's proposals, they do differ in a few significant ways.
    First, both CSO and the Administration agree that Section 310 of 
the CZMA should be amended to authorize substantial new resources to 
support community revitalization and conservation assistance grants. 
However, while CSO proposes the allocation of grant funds to all states 
under the CZMA formula for providing direct assistance which can be 
tailored to meet community needs; the Administration's proposal creates 
a competitive federal grant program using CZM programs as 
intermediaries. CSO believes that decisions are best made at the state 
and local levels and that all states should participate in the program 
without requiring new bureaucratic federal administration and oversight 
responsibilities.
    The Administration's proposal also establishes a confusing 
relationship between the community assistance provisions of section 310 
and the NOAA technical assistance provisions of the proposed section 
310A. For example, the amendment to section 310 provides that the 
secretary shall allocate a ``substantial portion'' of funds to 
community assistance grants. Does this mean that funds directed from 
section 310 grants provide funding for NOAA technical assistance and 
programs under 310A? To what extent, if any, is funding authorized for 
section 310 for community grants under section 318 available for 
section 310A activities? CSO would like to assure that NOAA is more 
accountable for utilizing its significant science, research and 
technical capabilities to provide ``management oriented research'' that 
is relevant and accessible to the states.
    Secondly, CSO strongly opposes the provisions proposed by the 
Administration to amend section 306(c)(2) to mandate that 10-20 percent 
of the 306/306A grants be retained by the Secretary to reduce the 
impacts of polluted runoff. This change would fundamentally alter the 
framework of the CZMA which is based on the principle that states 
should have the flexibility to set priorities among the national 
objectives established under the CZMA. Rather than providing additional 
funds, the proposed set-aside would divert funds form the base CZM 
programs undermining a broad range of CZMA objectives including 
waterfront revitalization, wetlands protection, increased public 
access, and the reduction of coastal hazards. As proposed, the 
Administration's bill does not authorize any additional revenues for 
state administration and implementation of the broad purposes of the 
CZMA under section 306 and 306A. As a result of the mandate, all 
increased authorizations proposed would be available only to the 
Secretary to target polluted runoff and not to the states to address 
other state-based priorities such as wetlands protection, public 
access, coastal hazards and waterfront development.
    While the states agree that polluted runoff is a significant 
concern in coastal areas, these decisions are best made at the state 
and local level, not based on top-down directives. Establishing 
specific funding set-asides undermines the federal state partnership 
that is the cornerstone of the CZMA. When the CZMA was amended in 1990 
to add the requirements for the development of coastal nonpoint source 
pollution programs, funding was proposed to supplement, not compete 
with, CZM program funding. Additional funding for state CZM programs to 
administer coastal nonpoint should be incorporated into CZMA without a 
mandated set-aside or provided as a separate authorization, and be in 
addition to funding levels authorized for implementing 306, 306A and 
309. CSO also opposes the Administration's proposal to have coastal 
nonpoint programs reviewed as part of the section 312 CZMA review 
process.
                  cso's czma reauthorization proposals
    The following draft legislative proposals are offered for 
consideration of the Committee in drafting the CZMA Reauthorization 
legislation We look forward to working with the Committee, states and 
other interested constituents to reach a consensus on final amendments.
    1. better enable states to build community capacity for coastal 
                               management
    The CZMA should be amended to provide dedicated support to states 
for the development of local, community-based solutions to manage the 
impacts on coastal uses and resources caused by or which may result 
from, increased development or urban sprawl. These initiatives should 
be directed to revitalize previously developed coastal areas, 
discourage development in undeveloped, environmentally sensitive or 
other coastal areas of particular concern, and emphasize water 
dependent uses. Targeted support for these placed-based, community and 
critical area initiatives is necessary to address problems in the most 
sensitive watersheds and coastal communities.
                        draft proposed language
    Amend the CZM Findings to add the following:
        There is a need to enhance cooperation and coordination among 
        states and local communities and to increase their capacity to 
        identify development, public infrastructure and open space 
        needs and to develop and implement plans which provide for 
        continued growth, resource protection and community 
        revitalization.
    Delete section 310 and insert the following new section:
        Section 310--Planning and Managing Community Growth and 
        Resource Protection.
        (a) The Secretary is authorized to enter into cooperative 
        agreements with state coastal management programs to provide 
        assistance to coastal communities to support the planning, 
        development and implementation of local, community-based 
        initiatives which will increase their capacity to identify 
        development, public infrastructure and open space needs and 
        which provide for resource protection and restoration while 
        addressing the need for community revitalization and continued 
        growth consistent with the purposes of this Act.

        (b) In developing and implementing the program, states shall 
        provide such assistance as needed to improve community capacity 
        to:
        (1) identify and provide for better planning and management of 
        critical coastal habitat, land use and growth patterns;
        (2) identify and plan for the impacts of the placement of new 
        public facilities, housing, and commercial and industrial 
        development and for efficient investment in transportation and 
        other public infrastructure; revitalize and restore coastal 
        waterfronts communities and water dependent uses; and preserve 
        open space areas for recreation, habitat and scenic views; and
        (3) enhance public awareness of and participation in planning 
        and managing growth and conservation in coastal communities 
        consistent with the purposes of this Act.

        (c) States shall demonstrate that projects have the support and 
        participation of affected local governments, and maximize 
        environmental benefits to the extent practicable while 
        supporting coastal dependent growth and development consistent 
        with the purposes of the Act. Funding shall be distributed to 
        the states pursuant to the formula established under Section 
        306(c) (16 USC 1455(c).
 2. direct noaa to provide management-oriented research and technical 
                               assistance
    Current provisions calling for ``management-oriented'' research and 
technical assistance from NOAA to the states should be strengthened to 
provide greater accountability and closer coordination with the states, 
including a request for a report and recommendations to Congress 
regarding the effectiveness of NOAA in providing such research and 
assistance.
                        draft proposed language
    Delete provisions of section 310; insert a new section 310A as 
revised:
        Section 310A--Management-Oriented Research and Technical 
        Assistance
        (a) The Secretary, in consultation and cooperation with the 
        states and National Estuarine Research Reserves, shall 
        undertake a program for management-oriented research and 
        technical assistance necessary to support the implementation of 
        coastal management objectives, identification and development 
        of innovative technology and technology transfer which 
        addresses coastal management issues, and such technical 
        assistance and training as may be needed to increase the 
        capacity of state and local communities as provided in Section 
        310. In implementing this section, the Secretary shall provide 
        for coordination of support for the services and activities 
        under this section with all other activities that are conducted 
        by or subject to the authority of the Secretary.
        (b) The Secretary shall identify services and activities 
        undertaken by other departments, agencies or other 
        instrumentalities of the Federal Government which support the 
        purposes of this section, and enter into memoranda of agreement 
        or other arrangements as appropriate which provide for 
        coordination and mutual support.
        (c) In carrying out programs under this section, the Secretary 
        may enter into contracts or other arrangements with qualified 
        persons but shall, to the maximum extent practicable, 
        coordinate with and utilize state coastal management programs 
        and estuarine research reserves for the purposes of carrying 
        out this section.
        (d) By January 2001, the Secretary shall provide a report to 
        the Senate Commerce Committee and House Resources Committee 
        evaluating the Agency's effectiveness in providing management-
        oriented research and technical assistance; identifying the 
        applicable services and activities and steps that have been 
        undertaken to provide for coordination and mutual support of 
        coastal programs, and making specific recommendations on 
        changes that should be made to improve the delivery of such 
        services. In preparing the report, the Secretary shall include 
        participation from representatives of the Governors of the 
        coastal states and National Estuarine Research Reserves.
   3. increase support for the administration and enhancement of czm 
    programs and the protection and restoration of coastal resources
    Despite clear national benefits, federal support for state Coastal 
Zone Management programs has not kept pace with growing challenges. 
Funding for state coastal programs in real terms has declined due to 
inflation and the addition of states participating in coastal programs. 
Federal support for state and local communities efforts to plan for and 
manage our nation's coasts is diminishing despite increasing demands. 
This is particularly true in larger states where state grants have been 
capped at $2 million a year for the past eight years, despite 
substantial increases in population in the coastal areas and an 
increased recognition of the importance of improving management of 
polluted runoff, habitat protection and restoration, and community 
growth patterns.
    Adequate funding should be provided under Section 306/309 state 
grants to assure states' abilities to address polluted runoff 
consistent with their coastal program management responsibilities, 
including interagency and state-local coordination of initiatives to 
address the causes and impacts of nonpoint pollution, particularly as 
they relate to land use and linking state water quality with other 
coastal resource protection objectives. The states recommend increasing 
appropriations levels for base 306/309 programs for administration and 
enhancements to $75 million, in order to address this shortfall and 
provide for equitable distribution among all coastal states and 
territories.
    In addition, existing authorities under Section 306A of the CZMA 
(16 USC 1455A) provide adequate authority to preserve or restore 
specific areas of the state with particular conservation, recreation, 
ecological or aesthetic value, as well as to provide public access and 
address revitalization of waterfronts of particular concern. However, 
funding for these targeted place-based activities to protect and 
restore ``priority areas'' competes with base program administration 
and enhancement funds and is limited to 10 percent of overall 
appropriations. This puts the states in the untenable position of 
choosing between preserving and improving its CZM program or providing 
support for addressing its most significant problems. These limitations 
should be removed and specific funding authorized for 306A to enable 
states to address preservation and restoration of these ``priority'' 
areas. CSO has proposed a modest annual funding level of $12 million to 
be targeted to 306A activities. For example, along the Louisiana 
coastline, the Sanfrancisco Bay Delta in California, and Florida 
Everglands, coastal management agencies are participants in large-
scale, multi-year wetland restoration efforts involving coordinated 
efforts of numerous agencies.
    These changes will enable state coastal programs to target 
preservation and restoration in areas of the state where they are most 
needed. It will also help support integration of state activities with 
federal, state and local initiatives including, but not limited to, 
efforts under State Unified Watershed Assessments to address polluted 
runoff and restore the most degraded areas, as well as activities to 
address the protection and restoration of fish habitat and coral reefs.
                        draft proposed language
    Sec. 1464. Authorization of appropriations (Section 318)
    (a) Sums appropriated to Secretary. There are authorized to be 
appropriated to the Secretary, to remain available until expended--
(1) for grants under sections 306 and 309 of the Act (16 U.S.C. 
Sec. Sec. 1455, 1455a and 1456b), for grants under sections 306, 306A, 
and 309 [16 USC Sec. Sec. 1455, 1455a, 1456b]--
(A) $ 75,000,000 for fiscal year 2000;
(B) $ 78,000,000 for fiscal year 2001; and
(A) $ 75,000,000 for fiscal year 2000;
(C) $ 82,000,000 for fiscal year 2002; and
(A) $ 75,000,000 for fiscal year 2000;
(D) $ 85,000,000 for fiscal year 2003; and
(E) $ 90,000,000 for fiscal year 2004; and
(2) for implementation of the purposes in section 306A of the Act as 
amended, $12,000,000 for fiscal year 2000; and such sums in excess of 
$12,000,000 as are necessary for fiscal years 2000-2004. (3) for grants 
under section 315 of the Act (16 U.S.C. Sec. 1461),; for grants under 
section 315 [16 USC Sec. 1461]--

(A) $ 12,000,000 for fiscal year 2000;
(B) $ 14,000,000 for fiscal year 2001; and
(C) $ 16,000,000 for fiscal year 20002; and
(D) $ 18,000,000 for fiscal year 20003; and
(E) $20,000,000 for fiscal year 2004.

    (4) for implementation of the purposes in section 310 of the Act as 
amended, $30,000,000 for fiscal year 2000; and such sums in excess of 
$30,000,000 as are necessary for fiscal years 2001-2004. These amounts 
are in addition to those authorized in subsection (3); and
(5) for costs associated with administering this title, $5,500,000 for 
fiscal year 2000; and such sums as are necessary for fiscal years 2001-
2004.
(b) Limitations. Federal funds received from other sources shall not be 
used to pay a coastal state's share of costs under section 306 or 309 
[16 USC Sec. 1455 or 1456b].
(c) Reversion of grants to Secretary. The amount of any grant, or 
portion of a grant, made to a State under any section of this Act which 
is not obligated by such State within three years from when during the 
fiscal year, or during the second fiscal year after the fiscal year, 
for which it was first authorized to be obligated by such State shall 
revert to the Secretary. The Secretary shall add such reverted amount 
to those funds available for grants under the section for such reverted 
amount was originally made available to States under this Act.
(d) Federal funds allocated under this title may be used by grantees to 
purchase Federal products and services not otherwise available.
                            4. other changes
A. Clarify The Policy To Support Coastal-Dependent Development
    Changes to the CZMA Congressional Policy should be made to clarify 
that the primary objective of the CZMA and state coastal management 
programs is to support ``coastal-dependent'' development compatible 
with resource protection priorities, not to support any new commercial 
developments adjacent to existing development. The objective of 
steering development into existing developed areas regardless of 
whether it is compatible with surrounding uses or state policy, has 
been relied on as a ``national benefit'' in a successful challenge to a 
state consistency objection.
                        draft proposed language
    Amend Section 303(2)(D) (16 USC 1452(2) (D)) as follows:
    (D) .... and the location to the maximum extent practicable of new, 
coastal-dependent commercial or industrial developments in or adjacent 
to areas where such development already exists.
        b. utilization of non-profits to implement 306a projects
    In some cases states have identified local non-for-profit groups as 
the best suited to undertake projects or activities eligible under the 
Coastal Resource Improvement Program under Section 306A. However, NOAA 
has imposed unnecessary restrictions on states. Therefore, CSO proposes 
that Section 306A(e) be amended to make it clear that funds can be 
allocated to ``not-for-profit organizations.'' However, such grants 
should be available only to undertake the objectives of section 306A 
and not directly to benefit such groups.
                 c. coastal zone management fund (czmf)
    For the past several years payments into the CZMF from loan 
repayments under the old Coastal Energy Impact Program have been 
earmarked to cover OCRM Administrative costs and diverted to offset 
funding for the National Estuarine Research Reserves. As a result no 
funds have been provided for other eligible purposes including 
international, regionally significant and interstate projects, and 
emergency grants to address disaster related circumstances. It is 
projected that there will be appropriated $4-$3.8 million annually as a 
result of loan repayments into the CZMF. Section 308 should be amended 
to eliminate funding for OCRM Administration which should be funded 
through a direct appropriations from NOAA operations accounts. (See 14 
USC 1464(a) (5) above.) CZMF funds should be made available to the 
states to support other eligible projects. Without these funds there is 
no way to support innovative regional or interstate projects, or to 
respond to emergencies resulting from coastal disasters which result in 
increased demands on state coastal programs.
                        draft proposed language
    Deletions are stricken and new language in italics
    Sec. 1456a. Coastal Zone Management Fund (Section 308)
(a) (1) The obligations of any coastal state or unit of general purpose 
local government to repay loans made pursuant to this section as in 
effect before the date of the enactment of the Coastal Zone Act 
Reauthorization Amendments of 1990 [enacted Nov. 5, 1990], and any 
repayment schedule established pursuant to this title as in effect 
before that date of enactment, are not altered by any provision of this 
title. Such loans shall be repaid under authority of this subsection 
and the Secretary may issue regulations governing such repayment. If 
the Secretary finds that any coastal state or unit of local government 
is unable to meet its obligations pursuant to this subsection because 
the actual increases in employment and related population resulting 
from coastal energy activity and the facilities associated with such 
activity do not provide adequate revenues to enable such State or unit 
to meet such obligations in accordance with the appropriate repayment 
schedule, the Secretary shall, after review of the information 
submitted by such State or unit, take any of the following actions:
(A) Modify the terms and conditions of such loan.
(B) Refinance the loan.
(C) Recommend to the Congress that legislation be enacted to forgive 
the loan.
(2) Loan repayments made pursuant to this subsection shall be retained 
by the Secretary; as offsetting collections, and shall be deposited 
into the Coastal Zone Management Fund established under subsection
(b) (1) The Secretary shall establish and maintain a fund, to be known 
as the ``Coastal Zone Management Fund'', which shall consist of amounts 
retained and deposited into the Fund under subsection (a) and fees 
deposited into the Fund under section 307(i)(3) [16 USC 
Sec. 1456(i)(3)].
(2) Subject to amounts provided in appropriation Acts, amounts in the 
Fund shall be available to the Secretary for use by the states for the 
following;.
(A) Expenses incident to the administration of this title, in an amount 
not to exceed for each of fiscal years 1997, 1998, and 1999 the higher 
of--
(i) $ 4,000,000; or
(ii) 8 percent of the total amount appropriated under this title for 
the fiscal year.
(B) After use under subparagraph (A)--
A (i) projects to address management issues which are regional in 
scope, including interstate projects;
B (ii) demonstration projects which have high potential for improving 
coastal zone management, especially at the local level;
C (iii) Emergency grants to State coastal zone management agencies to 
address unforeseen or disaster-related circumstances;
(iv) Appropriate awards recognizing excellence in coastal zone 
management as provided in section 314 [16 USC Sec. 1460];
D (v) program development grants as authorized by section 305 [16 USC 
Sec. 1454], in an amount not to exceed $ 200,000 for each of fiscal 
years 1997, 1998, and 1999; and
E (vi) to provide financial support to coastal states for use for 
investigating and applying the public trust doctrine to implement State 
management programs approved under section 306 [16 USC Sec. 1455].
(3) On December 1, of each year, the Secretary shall transmit to the 
Congress an annual report on the Fund, including the balance of the 
Fund and an itemization of all deposits into and disbursements from the 
Fund in the preceding fiscal year.
                         c. outcome indicators
    The success of the Coastal Zone Management Act can and should be 
assessed with measurable outcomes. The establishment of outcome 
indicators for the program should be developed in consultation with and 
participation of State representatives, and should be flexible enough 
to address the variations among state programs.
                        draft proposed language
    Sec.---- (a) Not later than 24 months after the enactment of this 
Act, the Secretary of Commerce shall submit a report to the Committee 
on Resources of the U. S. House of Representatives that contains 
recommendations for a common set of measurable outcome indicators that 
would provide a mechanism to evaluate the effectiveness of State 
coastal zone management programs and activities in achieving one or 
more of the objectives set out in Section 303(2)(A)-(J) of the Coastal 
Zone Management Act of 1972. In preparing the report, the Secretary 
shall include participation of representatives of the Governors of the 
coastal states. Prior to submitting the report the Governors shall be 
provided an opportunity to comment on the report and their comments 
shall be included in the final report.
    (b) Not later than 48 months after the enactment of this Act, the 
Secretary of Commerce shall submit to the House Resources Committee 
recommendations for such legislation, regulation or guidance necessary 
to implement a national coastal zone management outcome monitoring and 
performance evaluation system.

    Senator Snowe. Thank you. Mr. Eichenberg.

STATEMENT OF TIM EICHENBERG, PROGRAM COUNSEL, CENTER FOR MARINE 
 CONSERVATION (CMC), ON BEHALF OF THE CMC, THE AMERICAN OCEANS 
CAMPAIGN, COAST ALLIANCE, AND NATURAL RESOURCES DEFENSE COUNCIL

    Madam Chair and Senator Kerry, thank you very much for the 
opportunity to appear today to testify on the reauthorization 
of the CZMA. My name is Tim Eichenberg. I am Program Counsel 
for the Center for Marine Conservation. I am also Co-Chair of 
the Clean Water Network, a coalition of about 1,000 groups 
nationwide, working together to strengthen our clean water 
laws.
    Today I am testifying on behalf of not only CMC, but also 
the American Oceans Campaign, Coast Alliance, and Natural 
Resources Defense Council, which support the CZMA and share a 
strong commitment to protecting coastal resources. We commend 
Senator Snowe for holding these important hearings, and look 
forward to working with you and your subcommittee to 
reauthorize the Act this year.
    Prior to coming to CMC, I worked as Staff Attorney for the 
California Coastal Commission, and taught coastal law at the 
University of Maine, School of Law. I also worked on projects 
for the Maine Sea Grant Program, the Casco Bay Estuary Program, 
and the Woods Hole Oceanographic Institution. So I am very 
familiar with the benefits of the CZMA. I am very familiar with 
its benefits in conserving valuable coastal resources, 
providing public access, reducing marine debris, managing 
coastal development, and protecting open space.
    However, we believe that the CZMA's most significant 
contribution may be the way it addresses the Nation's No. 1 
water pollution problem--polluted runoff. The Clean Water Act 
has made significant progress in addressing industrial and 
municipal wastewater point source discharges. However, it has 
had much less success in dealing with nonpoint sources of 
pollution.
    Polluted runoff is the major reason why 40 percent of our 
Nation's assessed waters are not fit for swimming and fishing, 
and for some of the impacts described by Senator Kerry just 
earlier, including the dead zone, closed shellfish beds, fish 
consumption advisories, and harmful alga blooms that may be 
contributing to Pfiesteria and massive fish kills. Together, 
these impacts are destroying coastal resources and costing 
Americans billions of dollars in lost recreational 
opportunities, health care, jobs, and property values. For this 
reason, it is imperative that any reauthorization of the CZMA 
also address this serious problem.
    In 1990, Congress created the Coastal Nonpoint Pollution 
Control Program, under Section 6217 of the Coastal Zone Act 
Reauthorization Amendments. This was based on a bill introduced 
by Senator Kerry, S. 1189. The Coastal Runoff Program is the 
only national program that deals with polluted runoff in an 
effective and comprehensive manner. It requires States to 
develop plans to control polluted runoff that meet national 
guidelines.
    In States like Massachusetts, South Carolina, California, 
and Maryland, new initiatives are being developed to address 
runoff from storm water, feedlots, marinas and other nonpoint 
sources, according to NOAA's latest data. The Coastal Runoff 
Program provides a model for an effective national program.
    Progress has been slow under the Clean Water Act 319 grant 
program. Despite the fact that it is the leading cause of water 
pollution, nonpoint source pollution under the Clean Water Act 
has received less than 3 percent of the funding provided to 
States. Section 319 also lacks an effective management 
approach. Although it requires States to prepare nonpoint 
source management plans, it does not require that such plans be 
implemented or enforced to control polluted runoff.
    Despite its potential, the Coastal Nonpoint Pollution 
Control Program, established in 1990, has been hampered by lack 
of funding. The authorization for CZARA, the Coastal Zone Area 
Reauthorization Amendments, expired in 1995, and only $1 
million in Federal funds were appropriated to run the entire 
program between 1995 and 1998. Although Congress has 
appropriated $8 million in fiscal year 1999, $1 million is 
subject to a recision in the Senate supplemental appropriations 
bill. Twenty-nine State coastal runoff programs have been 
conditionally approved, but no State or territory has yet 
achieved final program approval.
    Significantly more funding is needed to help States meet 
conditions for final approval, and implement improved program 
elements. Given sufficient funding, we believe the Coastal 
Runoff Program is the Nation's best chance for saving the 
coastal zone from the damages inflicted by polluted runoff.
    The CZMA has worked well for yesterday's coastal needs, but 
must be updated to contend with the challenges of tomorrow. 
These new challenges facing coastal States outpace the Act's 
ability to deal with today's problems. Any reauthorization of 
the CZMA must address the problem of polluted runoff. 
Authorization levels must also be boosted, to take into account 
future needs, so States can realistically address increased 
populations that are moving into the coastal zone at the 
astounding rate of 3,600 people per day.
    Therefore, we urge the subcommittee to incorporate the 
following concepts into any reauthorization bill, similar to 
the approaches adopted in the draft administration CZMA bill 
and in H.R. 1110, Congressman Saxton's CZMA reauthorization 
bill. The approaches are as follows:
    One, substantive changes are not needed in the current 
provisions of Section 6217 of CZARA. However, the Coastal 
Nonpoint Program must be reauthorized and integrated into the 
CZMA in its current form.
    Two, key provisions of the Coastal Runoff Program must be 
retained to implement management measures to control polluted 
runoff. Penalties must be imposed for failure to submit 
approvable programs. Once those programs are approved, 
evaluations must be conducted to assure that they are being 
effectively implemented.
    Three funds should be set aside for implementing the 
program in Section 306 or 306(a), or somewhere else in CZMA, to 
ensure that funding is targeted on federally approved Coastal 
Runoff Program elements. The set-aside is wholly consistent 
with congressional priorities for tackling the Nation's No. 1 
water pollution problem, and is similar to the approach taken 
in the Section 309 enhancement grant program. Furthermore, as 
used in the Saxton reauthorization bill, this approach of set-
aside would actually boost the CZMA base program funding by 
well over 30 percent, including increases of 42 percent for 
Massachusetts and 55 percent for Maine and South Carolina.
    Four, new grant programs or projects should be created in 
the CZMA to address emerging coastal issues. However, they must 
be environmentally protective and maintain the natural, 
biological, chemical, and physical integrity of the coastal 
ecosystem.
    Five, sufficient funds should be authorized for supporting 
the Coastal Runoff Program starting at a minimum of $12 million 
per year. After the reauthorization, the subcommittee should 
work with the committee of appropriations to ensure that 
adequate funds are appropriated to States to implement programs 
and management measures to avoid the situation that occurred 
between 1995 and 1998.
    We appreciate the opportunity to submit our testimony for 
the record and look forward to working with the subcommittee to 
protect and manager our valuable coastal resources.
    Thank you very much.
    [The prepared statement of Mr. Eichenberg follows:]

   Prepared Statement of Tim Eichenberg, Program Counsel, Center for 
 Marine Conservation (CMC), on Behalf of the CMC, the American Oceans 
    Campagain, Coast Alliance, and Natural Resources Defense Council
    Madame Chair and members of the Subcommittee. Thank you very much 
for the opportunity to appear today to testify on the reauthorization 
of the Coastal Zone Management Act (CZMA). My name is Tim Eichenberg. I 
am Program Counsel for the Center for Marine Conservation. CMC is a 
nonprofit organization with 120,000 members committed to protecting 
ocean environments and conserving the global abundance and diversity of 
marine life through science-based advocacy, research, public education, 
and informed citizen participation. CMC is headquartered in Washington, 
DC, and has regional offices in California, Florida and Virginia. I am 
also co-chair of the Clean Water Network, which has over 1,000 groups 
nationwide working together to strengthen the Clean Water Act.
    I am testifying today on behalf of CMC, the American Oceans 
Campaign, Coast Alliance and the Natural Resources Defense Council 
which share our commitment to protecting coastal resources. We support 
the Coastal Zone Management Act and look forward to working with this 
Subcommittee to reauthorize the Act this year. We commend Senator Snowe 
for holding these important hearings.

                              INTRODUCTION

    Enacted in 1972, the CZMA provides incentives for coastal states 
and territories to plan and manage their coastal resources in 
accordance broad national policies. The Act has succeeded in fostering 
a unique federal-state partnership to address the concerns of coastal 
communities. The National Oceanic and Atmospheric Administration (NOAA) 
has worked well with state coastal zone management agencies to help 
them create state coastal zone management plans to manage our nation's 
vulnerable coastal resources.
    Currently, NOAA has approved 32 state coastal zone management 
plans, covering 95,142 miles of shoreline or 99.7% of the country's 
total coastline. This is a remarkable achievement for the CZMA. These 
approved plans now provide states with an effective mechanism to manage 
the challenges and threats posed by an explosion in population on our 
coasts and the pollution resulting from new growth.
    The coastal communities of the United States and its island 
territoriescurrently face unprecedented development pressures. NOAA 
estimates that 3600people move to coastal communities every day. At 
this rate by 2015, 166 million people - 25 million more than today - 
will live along our nation's coasts. Already, these communities are 
struggling to try to find ways to save vulnerable wetlands, coastal 
habitat, estuarine resources and preserve their quality of life while 
accommodating new growth. The impacts of 25 million new residents to 
the coastal zone will be severe. Any reauthorization of the CZMA must 
address these new realities. Since many beach communities were 
originally small towns, most do not have the capacity to plan for this 
rapid expansion of their hometowns. From idyllic New England coastal 
villages to the sunny beaches of Florida, the popular Jersey Shore and 
the productive Gulf fishing towns of Texas and Louisiana, unchecked 
growth threatens the very character of coastal America.
    What exactly is at stake? The quality of life of current residents, 
the quality of life sought out by new residents, the viability of 
marine and estuarine ecosystems, and the sanctity and solitude many of 
these towns rely on to attract tourists. The economic and social 
culture of coastal regions dependent on healthy marine and coastal 
resources is being jeopardized not only by rampant growth itself, but 
the pollution it helps create, as well as the loss of critical marine 
and wildlife habitat that inevitably result from new development. The 
CZMA has worked well for yesterday's coastal needs, but must be updated 
to contend with tomorrow's challenges.
    We believe that thoughtfully crafted and well-defined amendments to 
the Coastal Zone Management Act can offer much needed hope and support 
to coastal communities in crisis. While the CZMA has succeeded in 
addressing many important coastal issues by developing unique federal-
state partnerships to encourage interagency coordination and 
comprehensive solutions, new challenges facing coastal states outpace 
the Act's ability to deal with today's problems. This is especially 
true with regard to authorized funding levels, which do not reflect 
current needs of coastal states. Any reauthorization of the Coastal 
Zone Management Act must take into account future needs by boosting 
authorization levels so states can realistically deal with the 
increased populations headed toward their coastal zones.
    Any reauthorization must also address the number one source of 
water pollution, polluted runoff. In 1990, Congress created the Coastal 
Nonpoint Pollution Control Program (Coastal Runoff Program) under 
Section 6217 of the Coastal Zone Act Reauthorization Amendments. While 
states have been making progress in preparing and submitting their 
Coastal Runoff Programs to NOAA and EPA for approval under these 
provisions, it is essential that the reauthorization of the CZMA also 
incorporate and reauthorize funding for the Coastal Runoff Program to 
ensure that the program will be sustained and implemented on a long-
term basis.
    We are optimistic that Congress recognizes the importance of its 
task with regard to coastal resource needs, and urge reauthorization of 
the Coastal Zone Management Act this Session. We believe that in order 
to achieve its goals, the Act must reflect the following principles:

    1. To address the number one cause of water quality impairment 
threatening coastal economies, aquatic resources and habitats, it is 
essential that the funding for the Coastal Nonpoint Pollution Control 
Program be reauthorized and the Program be formally incorporated into 
the CZMA, and that sufficient funds be authorized for its support;
    2. The current provisions that distinguish the Coastal Nonpoint 
Pollution Control Program from other, less effective programs that 
address polluted runoff must be retained, including the key requirement 
to implement economically achievable measures to control pollutants 
from existing and new nonpoint sources of pollution,and the option to 
withhold financial assistance for failure to submit an approvable 
program;
    3. New projects or grant programs supported through appropriations 
under the CZMA must be environmentally protective, maintaining the 
natural biological, chemical and physical integrity of coastal 
ecosystems. While the impacts of some projects such as beach 
renourishment, dredging and shoreline stabilization may be a subject of 
debate, there are certainly many sources of funding available for such 
programs. Therefore, the financial resources made available through the 
CZMA should focus on projects that provide agreed-upon benefits to 
coastal resources, and not those with definite or potential ecological 
risks.

             THE COASTAL NONPOINT POLLUTION CONTROL PROGRAM

    Most water quality impairment - more than 60% - now comes from 
nonpoint sources of pollution, or polluted runoff. (EPA National Water 
Quality Inventory, 1996 Report to Congress) Polluted runoff occurs when 
pollutants such as fertilizers, pesticides, sediments, nitrogen, 
phosphorous, pathogens, salts, oil, grease, toxic chemicals and heavy 
metals from the land are washed into rivers, lakes and, ultimately, 
coastal waters. Runoff from agriculture (feedlots, grazing and crops), 
urban and suburban evelopment, roads, bridges, construction sites, 
logging and mining activities is the major reason why 40% of the 
nation's assessed waters are not fit for fishing or swimming. It is a 
major cause of fish kills, beach and shellfish bed closures, fish 
consumption advisories, and the 7,000 square mile dead zone that 
appears each year in the Gulf of Mexico. It is also associated with 
doubling the number of harmful algal blooms, such as red tides and 
pfiesteria, during the past 25 years, producing an estimated $1 billion 
in economic losses to coastal communities in almost every coastal 
state.
    The creation of the Coastal Nonpoint Pollution Control Program, 
under Section 6217 of the Coastal Zone Act Reauthorization Amendments 
(CZARA) of 1990, was a significant step forward in combating the 
nation's number one water pollution problem, nonpoint source pollution 
or polluted runoff. The 101st Congress recognized that efforts to 
control polluted runoff had not been successful and that coastal areas 
were especially vulnerable to this type of pollution. The Coastal 
Runoff Program is the only national program that requires the 
implementation of minimum, cost-effective management measures to fight 
polluted runoff.
    Administered jointly by EPA and NOAA, the Coastal Runoff Program 
requires state coastal programs with approved Coastal Zone Management 
Plans to implement minimum, technology-based and economically 
achievable management measures ``for the control of the addition of 
pollutants from existing and new categories and classes of nonpoint 
source pollution which reflect the greatest degree of pollutant 
reduction achievable.'' 16 USC Sec. 1455b(g)(5). EPA and NOAA guidance 
provide states with reliable and cost-effective measures in preventing 
or controlling major sources of runoff from agriculture, forestry, 
urban areas, marinas and recreational boating, and hydromodification, 
and for protecting wetlands, riparian areas and vegetated treatment 
systems. These management measures address the most prevalent sources 
of runoff, offering real progress toward solving this vexing pollution 
problem. Failure to submit a program that meets the minimum national 
standards can result in reductions in funding under Section 319 of the 
Clean Water Act and the Section 306 of CZMA. 16 USC 
Sec. Sec. 1455b(c)(3) and (4). These penalties are additional 
incentives to ensure that states will establish a workable plan to 
combat polluted runoff.
    Unfortunately, the success of the Coastal Nonpoint Pollution 
Control Program has been hampered by lack of funding. After the 
authorization for CZARA ran out in 1995, only $1 million in federal 
funds were appropriated to run the entire national Program between 
1995-98. In FY 99, Congress appropriated $8 million. While this is a 
significant improvement, $1 million has been proposed for rescission in 
the Senate Supplemental Appropriations bill (S. 544). More funding is 
needed to assist states in developing and implementing their programs. 
Although 29 state Coastal Runoff Programs have been conditionally 
approved, no state or territory has yet achieved final program 
approval. Therefore, funds are needed to help states meet conditions 
for final approval, and to eventually implement their approved 
programs. We believe that given appropriate funding, the Coastal Runoff 
Program is our nation's best bet for saving our coastal waters from the 
damage inflicted by polluted runoff.
    With adequate resources we believe the Program has tremendous 
potential and provides a model for a national program to address 
polluted runoff. While some progress has been made under the Clean 
Water Act Section 319 program, until recently EPA's nonpoint source 
pollution grant program has suffered from a lack of funding. Despite 
the fact that it is the leading cause of water pollution, nonpoint 
source pollution under the Clean Water Act has received less than 3% of 
funding provided to states. Section 319 also lacks effective 
requirements to prevent polluted runoff. Although it requires that 
states prepare nonpoint source management plans, there is no 
requirement that such plans be implemented or enforced to control 
nonpoint sources of pollution.
    Since runoff is the prime suspect in so many coastal water quality 
problems, achieving the goals of the CZMA depends on a successful 
Coastal Nonpoint Pollution Control Program. It is a cornerstone of the 
CZMA, and is the only federal program designed to address runoff in an 
accountable, targeted and enforceable manner, stressing coordination 
among agencies as well as local solutions. As described in more detail 
in a new port released by the Coast Alliance entitled, Pointless 
Pollution: Preventing Polluted Runoff and Protecting America's Coasts, 
the success or failure of this Program depends on three factors: 
adequate plans to control the true causes of polluted runoff, the 
presence of enforceable mechanisms to make sure those sources are 
reduced, and adequate resources to implement these plans. To date, 
states and the federal government have invested in the development of 
runoff prevention and control plans that are on the verge of 
completion. The pay-off from that investment should be realized by 
ensuring the Program's completion. Therefore, any reauthorization of 
the CZMA must retain the Coastal Nonpoint Pollution Control Program as 
is, and integrate it fully into the Act.Congress can continue its 
efforts to protect the coasts by ensuring that the Coastal Nonpoint 
Pollution Control Program is reauthorized and funded as part of the 
Coastal Zone Management Act reauthorization this year.
    The CZMA is also strengthened by a provision that requires federal 
actions in states' coastal zones to be consistent with state coastal 
zone programs. 16 U.S.C. 1456. The Coastal Runoff Program benefits 
enormously from the CZMA consistency provision, as it ensures that 
federal projects adhere to states' pollution control requirements. This 
prevents large scale federal projects from undermining state efforts to 
protect their coastal zones. Due to the fact that the federal 
government has long been known to be a major polluter, these 
consistency provisions also serve an important purpose and must not be 
weakened.

                  HR 1110 AND THE ADMINISTRATION BILL

    Chairman Jim Saxton's Bill to reauthorize the CZMA in the House (HR 
1110)authorizes funding for FY 2000 and for each year through FY 2004 
at the following levels:

        <bullet> $55 million for the Section 306 and 309 grant program;
        <bullet> $5.5 million for CZMA administration;
        <bullet> $12 million for Section 315 construction grants 
        projects at National Estuarine Research Reserves, and $7-10 
        million for other grants; and
        <bullet>  $20-35 million over 5 years for Coastal Community 
        Conservation Grants under section 306A.

    We support these authorized funding levels because they represent a 
significant much needed increase over current appropriations. We also 
support setting aside funds for the Coastal Runoff Program in either 
Section 306 or 306A of the CZMA to ensure that adequate funds for 
approved program elements of the Coastal Runoff Program are provided.
    We also support the draft Administration bill to reauthorize the 
CZMA which the following in authorization of appropriations for FY 2000 
and ``such sums as necessary'' for FY 2001 - 2004:

        <bullet> $61.7 million for grants under Sections 306, 306A, and 
        309;
        <bullet> $7 million for Section 315;
        <bullet> $28 million for Section 310; and
        <bullet> $5.5 million to administer the Act.

    The Administration bill also contains an important environmental 
safeguard that should be incorporated into any Senate CZMA 
reauthorization bill. The Administration bill creates a new grant 
program to support coastal communities against increased development 
and urban sprawl (Section 310(c)), and requires that eligible projects 
be ``environmentally protective'' to ensure that funds not be provided 
for projects that might harm coastal resources such as unsustainable 
and environmentally harmful dredging and erosion control projects.
    For purposes of comparison with authorized levels of funding in HR 
1110 and the bill, the table below shows recent figures (in 
millions)requested for CZMA in the FY 2000 budget for the 32 states 
with approved plans:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We urge the Subcommittee to support the increases proposed in the 
FY 2000 budget.
    We believe both the Administration's proposed bill and Chairman 
Saxton's HR 1110 make significant improvements to current law. Both 
bills integrate the Coastal Nonpoint Pollution Control Program into the 
CZMA. Retaining that authority is absolutely critical if coastal states 
are to make any real progress to combat polluted runoff. In addition, 
both bills set aside funds to implement management strategies and 
control measures of their approved Coastal Runoff Plans, and require 
the Coastal Runoff Programs to be evaluated along with other 
enforceable state program elements under Section 312 of the CZMA. Once 
the Coastal Nonpoint Program's are fully approved, program evaluations 
under Section 312 are one of the few ways to provide the necessary 
federal oversight to ensure that Coastal Runoff Programs are 
implemented adequately.
    We favor this approach as we believe it will direct much needed 
resources toward solutions for polluted runoff, the primary threat to 
coastal water quality. A set aside in either Section 306 or 306A is an 
important check to hold states accountable for the use of federal grant 
dollars. We recognize that the Coastal Runoff Program has been woefully 
underfunded, and that states need increased funding and flexibility to 
meet federal guidelines. However, prioritizing federal aid to states 
under the CZMA to address the most critical pollution threat (polluted 
runoff) is common sense and good public policy. We are certainly open 
to exploring other approaches so long as the goal of prioritizing funds 
to the Coastal Runoff Program is accomplished.
    We are also pleased that both the Administration bill and H.R. 1110 
retain the enforceable policies and mechanisms in CZMA Section 306 
(d)(16) and the penalty provisions for failure to develop approvable 
programs. Since many states must still satisfy conditions before their 
programs reach the stage of final approval, this could take several 
years. It is imperative that these provisions be retained in the 
reauthorization. These enforceable provisions make the Coastal Runoff 
Program an effective tool in the war against polluted runoff, and are 
crucial to the Program's overall success. New program guidance strikes 
a balance by initially allowing the use of voluntary measures, so long 
as enforceable mechanisms are phased in pursuant to timetables and 
mileposts if voluntary measures fail. This federal backstop is 
essential to an effective program and it must be retained if the 
Coastal Runoff Program is to offer a real opportunity to control and 
prevent polluted runoff, and avoid the costly degradation of America's 
most valuable ecosystems.

                               CONCLUSION

    It is no exaggeration to say that our coasts are under siege. We 
must find a sustainable way to accommodate larger populations, or risk 
losing coastal resources and creating unlivable communities. The many 
pressures which threaten to degrade the viability of our nation's 
coastal ecosystems are within the purview of the Coastal Zone 
Management Act. The successful reauthorization of this fundamental law 
is vitally important to the future of our coastal resources, and it is 
essential that it be reauthorized this session of Congress. As time 
passes, the threats to our coasts only loom larger. We urge that the 
Senate start immediately to construct a carefully crafted 
reauthorization of the Act that includes the integration of the Coastal 
Nonpoint Pollution Control Program as provided in the language proposed 
in Appendix A.
    In summary, we strongly urge the Subcommittee to embody the 
following principles in reauthorizing the CZMA:

1. The Coastal Nonpoint Pollution Control Program in its current form 
must be integrated into the Act, and sufficient funds must be 
authorized for its support.
2. The Program's provisions requiring the implementation of management 
measures to control polluted runoff, and sanctions for the failure to 
submit approvable programs must be maintained.
3. Any new projects or programs supported through appropriations under 
this Act must be environmentally protective, maintaining the natural 
biological, chemical and physical integrity of coastal ecosystems.

    We appreciate the opportunity to submit our testimony for the 
record. We look forward to working with this Subcommittee to protect 
our invaluable coastal ecosystems.

    Senator Snowe. Thank you, Mr. Eichenberg. Dr. Earle.

  STATEMENT OF SYLVIA A. EARLE, PH.D., EXPLORER IN RESIDENCE, 
                  NATIONAL GEOGRAPHIC SOCIETY

    Dr. Earle. Thank you, Madam Chairman. I appreciate the 
opportunity to testify concerning the reauthorization of the 
Coastal Zone Management Act. I have a written statement that 
has been submitted.
    I am appearing here today as the former Chief Scientist of 
NOAA, as the present Explorer in Residence at the National 
Geographic, and I am also associated with the Center for Marine 
Conservation, and a number of other organizations, but mostly I 
am here as a private citizen, concerned about the future of my 
country, aware as I am that whatever happens in the next 
century, the next millennium and beyond, depends on decisions 
that we are making right now about the land, water, the air, 
the living and natural resources that most people, most of the 
time, tend to take pretty much for granted.
    Astronauts are not complacent about such things, because 
when they go up in the sky they take their life support with 
them and they know where every breath of air comes from, every 
drop of water, et cetera. So do those of us who are lucky 
enough to go down into the sea. You get a different 
perspective, and it comes into focus very quickly what a life 
support system is all about. What we are talking about here are 
critical elements of our life support system--the parts of the 
planet that give rise to the oxygen that we take for granted, 
the water that, again, we have tended to take for granted.
    I was interested in the comments about the level of 
funding, and Senator Kerry's astute observation about budgets 
and how they are limited, and how they are set. It is not 
exactly arbitrary, but there are priorities that are 
established. What we are seeing right now is a kind of priority 
being set in the time of war to find funding for situations 
that are really urgent. What we have here is, in a sense, a 
kind of war that we unwittingly are waging on the environment 
that supports us.
    It is in slow motion, over 20 years or so, but, 
nonetheless, it is something that is affecting all of us in a 
way that really does impact our very lives. We should look at 
this matter with a similar kind of urgency, and not hold back 
from applying the resources needed to take care of those 
systems that are presently threatened by us and by our actions.
    We have predecessors to thank for good decisions in the 
past about protecting the natural national assets in terms of 
land, air and water. I especially focus on the coastal zones 
here. We have the Estuarine Research Reserve System. We have a 
system of a dozen marine sanctuaries that are steps in the 
right direction. But they are just steps toward a much greater 
kind of effort that we must take in order to protect those 
systems that are vital to us.
    In fact, about the budgetary issues, I agree totally that 
we should try to live within our budgetary means. But we are 
not living within our environmental budget, our environmental 
means. We are spending assets, actually consuming the capital 
needed to sustain us. We paying right now the cost for the loss 
of wetlands, marshes, mangroves, forests, barrier beaches, the 
natural dunes, and other systems, with increasing costs dealing 
somehow with the services these systems once provided--the 
storm damage, the benign recycling of waste, the natural 
filtration, the cleansing of water, the production of oxygen--
all those things.
    We are further paying for the price of damaging the 
resilience of these systems through one of the key factors in 
the Coastal Zone Management Act provisions, about the nonpoint 
source pollution. Future generations will continue to pay and 
pay and pay unless we can take measures right now to reverse 
these costly trends.
    The Coastal Zone Management Act has been doing just that--a 
good job in at least trying to slow, and in some cases reverse, 
those trends. As a nation, if we are to continue to effectively 
deal with growing human impacts on the coastal zone, it is 
critical that the Coastal Zone Management Act retain the 
enforcement provisions for polluted runoff currently in the 
law, and fully integrate the coastal nonpoint source pollution 
control program into the reauthorized statute.
    Without enforceable measures to prompt States to create 
technology-based management measures to prevent polluted 
runoff, the health of the ocean and, in a very close 
relationship, our own health, our own well-being, is in 
jeopardy. Those inspired to halt the contamination of our 
coastal waters and the sea beyond really should think about 
starting at the tops of mountains, at the headwaters of rivers, 
the heartland of America, the fields, the farms, the backyards, 
the lawns, the streets, the golf courses, the ball fields, 
where excessive application of biocides, fertilizers and other 
chemicals has yielded high concentrations of nitrates, 
phosphates and other materials that eventually go into 
groundwater, streams, into the ocean--some refer to this as the 
ultimate sewer--and ultimately back to us.
    How many States are affected by what happens in the coastal 
zone? All of them.
    How many States have an impact on the coastal zones? All of 
them.
    Because we are not talking about being able to carve up the 
country into something that you can separate these things out. 
All things are impacted by all other things.
    I have some specific suggestions or proposals to make, 
recommendations, concerning what should be perhaps done with 
respect to the reauthorization of the Coastal Zone Management 
Act. It comes certainly at an opportune time, a time when the 
need is the greatest it has ever been. The Federal Government, 
along with its partners at the State, county and local 
government level, must make a concerted commitment to the 
Nation's coastal and ocean resources.
    So I recommend, respectfully, that with respect to the 
grants made to the States, that there be commitments on the 
order of $55 million each fiscal year through 2004; $30 million 
for 306(a) grants to States for the polluted runoff programs in 
fiscal year 2000; a strong coastal nonpoint pollution control 
program. The whole idea of nonpoint pollution is that people 
somehow miss the point that if you inject toxic materials 
anywhere into the system, they are going to infect the entire 
system.
    Some say it does not bother or affect me if it is somewhere 
far away. It is like saying it is OK to inject poison in your 
ankle, but not into your shoulder. We have got to realize that 
everything connects.
    Finally, we need provisions to ensure that grants under the 
Coastal Zone Management Act are environmentally protective. 
Meaning that they not be used for such things as beach-
hardening projects, shoreline erosion structures or dredging 
projects that harm coastal ecosystems.
    By authorizing this Act to include the above provisions, 
this subcommittee and the U.S. Senate will have lived up to the 
responsibility that we all have right now on behalf of the 
public, good, and will fulfill the objectives of the Act. This 
is an exceptional opportunity for Congress to pass a bipartisan 
bill, aimed at vital environmental and economic issues.
    I urge you to take advantage of this momentous point in 
history, a time when, as never before and perhaps as never 
again, we can move forward into an era of greater stewardship, 
of protecting and restoring health to the Nation's natural, 
coastal and ocean assets. But at the same time, you will be 
crafting an enduring legacy.
    Madam Chairman, Senator Kerry, thank you for your work on 
behalf of the coastal and ocean resources and for this 
opportunity to testify before you today. I will be pleased to 
work with you in any way I can.
    [The prepared statement of Dr. Earle follows:]

     Prepared Statement of Sylvia A. Earle, Explorer in Residence, 
                      National Geographic Society
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify concerning the reauthorization of the Coastal 
Zone Management Act. I am appearing here today with a lifetime 
experience as an oceanographer, formerly Chief Scientist of the 
National Oceanic and Atmospheric Administration; as a businesswoman, 
founder of Deep Ocean Engineering, Inc., Deep Ocean Exploration and 
Research, Inc., and member of various corporate boards; as Spokesperson 
for the U.S. during the Year of the Ocean as well as for the 
organization, Sea Web on ocean issues; as a member of the board for 
numerous research and conservation organizations; as an author of 
numerous scientific, technical and popular publications; as the 
National Geographic's Explorer in Residence and Leader of a five year 
program of exploration, research and education focussed on the National 
Marine Sanctuaries--the National Geographic's Sustainable Seas 
Expeditions, as well as serving as the Center for Marine Conservation's 
``Ambassador for the Ocean.'' But most importantly, perhaps, I am here 
as a private citizen concerned about the future of my country, aware as 
I am that whatever happens in the next century, the next millennium and 
beyond depends on critical decisions being made right now about the 
land, water, air, living and other natural resources most people have 
always tended to take pretty much for granted.
    Astronauts are not complacent about these things, nor are those of 
us lucky enough to venture deep in the sea. For us, the matter of 
``life support''--not taking it for granted--soon comes into focus. 
Those who are lofted into space must take with them every drop of 
water, every breath of air, every bite of food, every bit of clothing, 
and think and plan ro the ultimate disposition of very scrap of paper, 
every bottle top, every cupful of wasted generated. The same is true to 
those who journey in small submersibles far beneath the surface of the 
ocean. When it is necessary to think about, provide for, and pack along 
even the most basic goods and services required to stay alive, one sees 
the world with new eyes and recognizes clearly that the hospitable 
environmental circumstances here on Earth are special, rare, precious--
vulnerable. It also is clear that water is the cornerstone of earth's 
life support system-and the most of it is ocean.
    If I have learned anything in six decades it is that there is no 
free lunch, yet people generally have a way of regarding natural 
resources as free for the taking. In my lifetime and yours, there has 
been unprecedented squandering of this nation's natural resources 
representing an immense loss to the core asset abase that has enabled 
us to come as far as we have with the power, strength, and leadership 
position that the United States now enjoys. When Lewis and Clark set 
out to explore the American west two centuries ago, the country was 
naturally blessed with abundant forests, wetlands, and wildlife. The 
skies above, the waters overall were essentially pristine. There was an 
illusion then that in large measure persists, that natural resources 
are infinitely resilient, and if by chance--or by design--parts of the 
natural endowment were destroyed--species lost, fish and bird 
populations diminished, forest cut, marshes drained, rivers polluted--
nothing was subtracted from the GNP to account for lessening the 
nation's natural assets. Impacts on our life support system have 
largely been ignored.
    We are now paying for the loss of wetlands, marshes, mangroves, 
forests barrier beaches, natural dunes and other systems with 
increasing costs of dealing somehow with the services these systems 
once provided--excessive storm damage, benign recycling of wastes, 
natural filtration and cleansing of water, production of oxygen back to 
the atmosphere, natural absorption of carbon dioxide, stabilization of 
soil, and much more. Future generations will continue to pay, and pay 
and pay unless we can take measure now to reverse these costly trends.
    The Coastal Zone Management Act has been doing just that. As a 
nation, if we are to continue to effectively deal with the growing 
human impacts on the coastal zone, it is critical that the CZMA retain 
the enforcement provisions for polluted runoff currently in the law, 
and fully integrate the Coastal Nonpoint Pollution Control Program into 
the reauthorized statute. Without enforceable measures to prompt states 
to create technology-based management measures to prevent polluted 
runoff, the health of the ocean-and our own well being--is in jeopardy.
    Those inspired to halt contamination of our coastal waters and the 
sea beyond must start at the tops of mountains, the headwaters of 
rivers, the heartland of America--the fields, farms backyards, lawns, 
streets, golf courses and ball fields - where excessive applications of 
biocides, fertilizers and other chemicals has yielded high 
concentrations of nitrates, phosphates, and other materials that 
eventually make their way through ground water, streams and rivers to 
the ocean--laconically referred to by some as ``the ultimate sewer.''
    Anyone who doubts the land-sea connections should peer over the 
shoulder of an astronaut, at least vicariously, to get the big 
picture--not only about what flows from the land into the sea, but 
also, to understand how the sea affects the land, no matter how far 
from the shore we might live. Watching the T.V. weather station helps 
make the connection. The sea shapes planetary climate, weather, 
temperature, chemistry, and is home to most of life on earth.
    Pollution of our coastal waters has yielded a legacy of degraded 
rivers and streams, beach closures, loss of valuable shellfish 
resources, and a so-called ``Dead Zone'' covering more than 6,000 
square miles in the Gulf of Mexico. Polluted runoff has also promoted 
the toxic Pfiesteria outbreaks on the Mid-Atlantic Coast, made bathers 
sick on beaches in California, clogged important shipping channels in 
the Great Lakes, and given rise to dramatic problems in Florida Bay and 
the adjacent coral reefs in the Florida Keys.
    Increased nitrates in coastal waters may be linked to spread of 
diseases such as cholera. These are costly consequences of not paying 
attention to the importance of taking care of the natural systems that, 
in effect, take care of us.
    As the same time, in our time, there has been a dramatic 
reenactment of the wholesale consumption of wildlife in the 1800's and 
early part of this century, only now instead of buffalo, passenger 
pigeons, songbirds shorebirds, beaver, wolves and bears our attention 
for mass markets of wildlife has been directed toward life in the sea. 
The extremely costly collapse of cod pollack, haddock, capelin, 
flounder, swordfish, bluefin tuna and dozens of other commercially 
valuable species has come about for many reasons, not the least being 
in indifference to history. We might have learned from precedents set 
on the land, yet we continue to extract wild creatures from wild 
systems using highly destructive methods that undermine our nation's 
natural treasury.
    No species can withstand the relentless high-tech predation now 
being imposed on hundreds of kinds of creatures that have developed to 
natural means of defense against our present means of finding, 
capturing, processing, and distributing them as commodities throughout 
the world. Lost in the process are not just potentially valuable 
sustained uses of marine life for food at more conservative levels, but 
also for all the other valuable services they may yield in terms of 
maintaining our ``life support system''. For example, shellfish in 
Chesapeake Bay at the turn of the century filtered and thereby cleansed 
the entire contents of the bay in a few days; now, with oysters reduced 
to about 2% of what they were in the early 1900's, and with greatly 
increased nutrient loads that stimulate plankton growth, it is 
estimated that it takes more than a year for a shellfish to filter the 
bay's volume.
    The buzzword for addressing this problem today is ``sustainable 
development.'' How can we, in fact, continue to use the natural 
resources that sustain us--without using them up? The first step toward 
resolving what may seem to be a hopeless catch-22 is recognizing that 
problems exists. For many citizens of the United States, even those who 
live by the sea, there has been widespread complacency and a troubling 
sense of detachment about what is happening to the nation's coastal 
region. But that is changing as the links between the health of the 
ocean and our own well-being become increasingly obvious.
    Last year was designated the Year of the Ocean, and 1997 was 
celebrated internationally as the Year of the Reef--both drawing 
attention to the problems now facing coastal areas worldwide. A clear 
need was demonstrated to develop more responsible ocean policies than 
those that have given rise to present degradation of valuable 
resources. Since the Stratton Commission was formed over thirty years 
ago, the United States has not had a national, comprehensive ocean 
policy. Since that time, technological breakthroughs, transportation 
improvements and global pollution have made the ocean sem a lot smaller 
and proven that they are much more vulnerable than once was believed.
    I am presently engaged in a five year program of exploration, 
research and education--the Sustainable Seas Expeditions--a public-
private partnership involving the National Geographic Society and NOAA 
with funding from the Richard and Rhoda Goldman Fund in cooperation 
with various private and governmental institutions including NASA, the 
U.S. Navy, the EPA, the Monterey Bay Aquarium Research Institute, and 
the Mote Marine Laboratory. Hundreds of scientists and educators are 
involved as well as numerous student participants. Our focus is on the 
coastal zone. There are several objectives, including the strengthening 
of the nation's system of young but promising National Marine 
Sanctuaries--an underwater counterpart of the National Park System. 
Twelve are now included and a new one is soon to be designated in the 
Great Lakes at Thunder Bay. The goal is to develop a stronger ethic of 
caring, an ocean ethic that will reinforce and extend the stewardship 
provisions of the CZMA. No doubt about it, the CZMA, if fully 
implemented, will help us to better care for the nation's vital coastal 
resources.
    As policy makers, I urge you to back and to strengthen the CZMA for 
a long list of good reasons ranging from sound short term economic good 
sense to sound long term economic good sense to sound environmental 
sense, near term and long term. These are not only compatible reasons; 
they are inextricably linked reasons. Sound economy, sound environment. 
It does make sense. There are ethical considerations, too, of course. 
Protecting natural resources so your sons and daughters and their 
children, the descendants of all of us for all time will either thank 
us for our foresight because we took care of the assets and delivered 
them safely into the future, as Theodore Roosevelt implored us to do. . 
. ``enhanced, not impaired in value. . .'' or, they will look upon us 
with disdain and despair for having squandered in our lifetime the 
distillation of four and a half billion years.
    Reauthorization of the CZMA comes at an opportune time--a time when 
the need is the greatest it has ever been. The federal government, 
along with its partners at the state, county and local government 
level, must make a concerted commitment to the nation's coastal and 
ocean resources. I respectfully recommend that the following provisions 
be included in the reauthorization of the CZMA:

1. $55 million each fiscal year through FY 2004 for 306 grants to 
states;
2. $30 million for 306a grants to states for polluted runoff programs 
in FY 2000,
3. a strong Coastal Nonpoint Pollution Control Program;
4. provisions to ensure that grants under the CZMA are environmentally 
protective, meaning they not be used for beach hardening projects, 
shoreline erosion structures or dredging projects that harm coastal 
ecosystems.

    By reauthorizing the CZMA to include the above provisions, this 
subcommittee and the United States Senate will have lived up to its 
responsibility to act on behalf of the public good and will fulfill the 
objectives of the Coastal Zone Management Act.
    In addition to increased funding as outlined above, it is crucial 
that any updated CZMA include a Coastal Nonpoint Pollution Control 
Program that can help states prevent the major sources of pollution 
threatening water quality. The federal polluted runoff program, 
administered jointly by NOAA and the EPA, must maintain the requirement 
that state coastal programs contain enforceable policies and mechanism 
to implement nonpoint pollution controls. Without enforceable 
mechanisms, there is no guarantee that this federal program will be 
effective. By requiring that funds be withheld under the CZMA and CWA 
if adequate coastal nonpoint programs are not prepared, coastal states 
are compelled to develop workable plans to prevent polluted runoff. 
Once their plans are approved by NOAA, they will then be eligible for 
additional grant money for implementation. This mild form of 
encouragement is warranted given the urgency of the problem and the 
high cost of inaction.
    This is an exceptional opportunity for Congress to pass a 
bipartisan bill aimed at vital environmental and economic issues. I 
urge you to take advantage of this momentous point in history, this 
time when as never before and perhaps as never again we can move 
forward to an era of greater stewardship, of protecting and restoring 
health to the nation's natural coastal and ocean assets. In the short 
term, you will be acting on behalf of those now living--including you 
and me--but at the same time, you will be crafting an enduring legacy.
    Mr. Chairman, Members of the Committee, thank you for your work on 
behalf of coastal and ocean resources and for the opportunity to 
testify before you today. I shall be pleased to work with you and will 
help any way that I can.

    Senator Snowe. Thank you. Thank you all for your excellent 
testimony.
    We have a vote that has been called. Senator Kerry, did you 
have any questions you would like to ask?
    Senator Kerry. Just a couple of quick things. I am not 
going to be able to come back after the vote.
    Ms. Cooksey and Mr. Keeley, you are both practitioners at 
the State level at this point. That is of enormous importance 
to us as we think about this. You have heard the challenge from 
those who are deeply involved but not within a State government 
specifically at this moment. How do you respond to the 
questions I asked earlier about the adequacy of the current 
relationship?
    Obviously you want your independence. You, I know, cherish 
not being pushed around. But do you think that the capacity to 
respond is adequate, or is there a gap at the Federal level 
that leaves you sort of clawing uphill? What is your overall 
assessment of where you find yourself?
    Mr. Keeley. Well, from my Maine perspective, we enjoy 
solving our problems at home. We certainly beg, borrow and 
steal ideas from others who are successfully doing something. 
But we believe that we know what our priorities are and know 
how to work on them.
    The issue of capacity--this is a scalable exercise that, if 
we were looking today at a CZMA appropriation of $100 million 
or $200 million, there is a lot of work that needs to be done. 
My point is that at what CSO is suggesting, of $75 million a 
year, that will allow us to go to the next level and make some 
significant inroads.
    Senator Kerry. Of course, Maine is the kind of State that 
would stand out as a model, as are a few others, from New 
England, I am happy to say. Perhaps this is because people in 
these areas have always had a special relationship with the 
environment and the sea. There are other places in the 
country--I am not going to name them now, but some of them know 
who they are, and we all know who they are--where there just 
does not exist that kind of individualistic and independent 
self-start capacity.
    Some of them slow some of us up. For instance, 
Massachusetts, which is ready to proceed with a nonpoint source 
effort, is held up because other States have not signed off and 
will not sign off. So we are sort of the prisoners in that 
regard.
    How do we break out of that mold? You would, I would think, 
rarely be told what to do or imposed upon, but it is the other 
states that we somehow need to leverage. Do you want to take 
that on, Ms. Cooksey?
    Ms. Cooksey. The statute has an existing section in it, 
Section 312, the evaluation process, where NOAA comes every 2 
to 3 years and reviews your program. I believe they have the 
authority to make sanctions and withhold grants if you are not 
performing up to your----
    Senator Kerry. That is correct. But the effect of 
withholding the grant is to guarantee that what you want to get 
done does not get done.
    Ms. Cooksey. Yes, it is difficult.
    Senator Kerry. I am trying to find a mechanism for 
guaranteeing that what you want to get done gets done.
    Ms. Cooksey. It is very difficult. We, too, think of our 
State as leaders. I think of us as doing a good job. I can 
understand your comments about some other States that perhaps 
are not as progressive and do not have the resources or the 
political will to do what some of us would feel are the right 
thing to do. It is tough.
    I do not necessarily think sanctions work in all cases. I 
think that people, in general, will do the best that they can. 
We have talked a lot about nonpoint today. There are some 
problems with the program. But we have made progress. But we 
have a lot of work to do. Frankly, these funding levels are 
minuscule.
    Senator Kerry. Yes, they really are. I do not disagree with 
you at all. They are absolutely minuscule.
    Mr. Eichenberg and Dr. Earle, we have got to go vote 
momentarily. I assume, Madam Chairman, you will leave the 
record open so we could submit some questions.
    Senator Snowe. Yes, I will.
    Senator Kerry. Thank you. Do you want to quickly add 
anything to the comments just made?
    Dr. Earle. Well, that the funding is minimal. The good news 
is that a request is being made for something on the order of 
$100 million, or this is what is being put forward. That is the 
good news. The bad news is that it is on the order of $100 
million. We really do have some urgent, critical, here-and-now 
problems to address. If we miss this window of opportunity, the 
cost of not taking action now is enormous. It can be 
preventative at this stage.
    Senator Kerry. It would be terrific if each of you could 
submit to us your order of priority for where additional funds 
might be spent. That would be very helpful.
    Mr. Eichenberg. Senator Kerry, my order of priority would 
be the coastal runoff program. That is the No. 1 priority for 
the Coastal Zone Management Act. The CZMA is not a prescriptive 
statute. It was not adopted that way, except in 1990, when you 
offered your amendment to the CZMA. It prescribed a solution to 
the No. 1 water pollution problem that we had at that time. It 
has only gotten worse.
    I think that your analogy of the Magnuson Act is a good 
one. I think sometimes you do need to have some minimum 
standards. The CZARA amendments of 1990 did prescribe the only 
national program that requires States to do something to deal 
with polluted runoff.
    Now, what they do and how they do it is, by and large, up 
to them, pursuant to some broad Federal guidelines. That is the 
way it should be, because each State is different. But there is 
not really any sanction under that program, except for the 
withholding of money. As you say, that is just shooting 
yourself in the foot. I think we need to look at some other 
paradigm, perhaps, than that.
    Senator Kerry. Well, maybe we can model it off some of the 
lessons we learned from the Magnuson-Stevens Act, which appear 
to be having a better impact.
    Madam Chairwoman, thank you for your graciousness. I 
appreciate it.
    I thank all of you for coming.
    Senator Snowe. Thank you very much, Senator Kerry.
    One of the questions that is really critical to this whole 
issue is about the nonpoint source pollution. I know, Mr. 
Eichenberg, you were mentioning that the Clean Water Act has 
been deficient in addressing that question. As Senator Kerry 
mentioned, it does take the cooperation of a number of States. 
We looked at the dead zone in Louisiana; we had hearings on 
that issue last year. There is runoff from about 30 different 
States. So, where do you begin?
    The legislation proposed by the Administration takes a 
fundamentally different course with respect to this particular 
issue. I think--in terms of enforcement--that the 
Administration is going to withhold funds, and that they are 
going to require the States to use X percentage of funds for 
this particular purpose. I think that is fundamentally 
different from the direction this legislation has taken in the 
past. That is my concern. I think that the States obviously are 
on the front lines of nonpoint source pollution with respect to 
their coastal areas and all parties want to correct this 
problem.
    So how can we work in a cooperative fashion to make sure 
that we achieve the goal of addressing nonpoint source 
pollution, but doing so in a way that is constructive? I 
hesitate to think about the impact of legislation that says: 
well, sorry, the States are not including an effective program 
within their plan, therefore we are going to withhold the 
money.
    I am not so sure that is the most constructive approach to 
take with respect to this issue, which, as you suggested and 
others have suggested, is becoming one of the primary 
challenges to our environmental concerns. It will continue to 
be. It is going to take the cooperation of everybody, including 
industry, I should say, who also should be included in this 
dynamic if we are really going to resolve this question and get 
everybody to participate in the solution to this significant 
environmental challenge.
    Mr. Eichenberg. Senator Snowe, you are right that the 
Administration bill does take a different approach. It is 
similar to the approach taken by Congressman Saxton in the 
House with respect to the set-aside, the 10 to 20 percent. I 
would only disagree with that in the sense that it limits the 
States with respect to how much they can spend. I disagree with 
the 20-percent cap on that.
    I think there should be a minimum amount that is spent on 
this coastal runoff program, if indeed it is the priority that 
Congress has declared it was back in 1990, and in 1987, when 
the Clean Water Act was amended to include Section 319. 
However, I do not think that it limits how States address this 
issue by simply saying: We in Congress believe this is such an 
important program that you have to spend a minimum amount of 
money, which we are putting into the program. It is not 
limiting the amount of money. It is actually boosting the 
amount that is in the base program funding by at least 10 
percent. At least that is the Administration's request.
    So I do not see it as a limitation, but I do see it as an 
expression of priority on the Congress' part, to say that a 
certain minimum amount of money should be spent to deal with 
this extremely important problem that we are not making 
progress on.
    Senator Snowe. Mr. Keeley, Ms. Cooksey, did you want to 
comment?
    Ms. Cooksey. I would just comment that I do not think it 
makes any sense to take away from our base program that has 
been successful. Everybody knows there are serious coastal 
nonpoint source pollution problems. We should fund it. We 
should not take it from all the other things that we do well. 
We should not take it from communities. We should not take it 
from waterfront revitalization. We should not take it from 
public access. We should not take it from making better 
dredging projects. We should fund it. It should be funded 
separately.
    Senator Snowe. Mr. Keeley.
    Mr. Keeley. Sure. I would just add that Congress 
established national priorities in the Coastal Zone Management 
Act in 1972. It has reaffirmed them in each of the 
appropriations. Possibly what we are talking about now is we 
have a set of priorities, and within those, we have additional 
priorities. I would go back to my earlier comment that I think 
it is up to the States to determine what their priorities are. 
The CZMA is all about dealing with a diverse array of issues, 
nonpoint being one of those.
    Senator Snowe. Dr. Earle.
    Dr. Earle. Well, I am a strong believer, whether it is 
individual people or individual States, having a lot of control 
over what they do. But it is within a framework of recognizing 
that we have to work to the general good, as well. We live in a 
community. We live in a country. We have to just make decisions 
that have that as an uppermost characteristic. It is part of 
just being good citizens, doing the right thing.
    While I am not suggesting that the wrong thing would be 
done by individual States intentionally, there is an overall 
framework, because of the interconnectedness of particularly 
the nonpoint source pollution issue, but it affects other 
things, as well. Any part of the environment that is kept in a 
good and healthy state affects in a positive way everybody, 
just as a destruction or an eroding away of the good health of 
any part of any State affects the Nation as a whole.
    Senator Snowe. Well, I certainly appreciate your 
observations and positions on this issue. I intend to pursue 
the reauthorization. I know we have got some issues to work 
out. They are very important, without a doubt. My primary goal 
is to reconcile these issues, while, at the same time, 
maintaining the goals that you have all set forth. Hopefully we 
can do it in a way that achieves the overall objectives of the 
program.
    There is no question that the current authorization levels 
are not sufficient to meet the challenges that we are facing 
with respect to this issue, particularly the nonpoint source 
pollution. There is no question.
    So we will be working with each of you as we pursue this 
reauthorization. I thank you very much for coming here today. I 
will submit additional questions to you, and we hope that you 
will have a chance to respond to them for the record. Any 
additional testimony, any additional observations--we certainly 
would welcome you to put those in the record, as well.
    Again, I thank you. I have to conclude, at this point. So, 
I thank you. This hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Response to written questions submitted by Hon. John F. Kerry to 
                            Terry D. Garcia
    Question 1.A. At the hearing, Assistant Administrator Garcia stated 
that states receive their grant allotments from NOAA approximately 60 
days from the time an application is filed. Please describe this grant 
process review timeline, from date of application to receipt of funds. 
Include in this timeline the number of days from receipt of application 
to: (1) completion of application review; (2) submission of comments on 
application to state; (3) review and approval of any necessary re-
submission by the state; (4) payment of grant funds to state.
    Answer. The NOAA Grants Management Division (GMD) must receive the 
final grant application 60 days prior to the start date of an award in 
order to complete its review and processing and to get the approved 
award package out to the state recipient. For example, the final 
application for awards with a July 1 start date are due in GMD by April 
30th. Final applications for awards with an October 1 start date are 
due in GMD by June 30th.
    NOAA's Office of Ocean and Coastal Resource Management's (OCRM's) 
processing schedule is derived by working backward from the date final 
award applications are due in GMD. Following is a sample schedule for a 
FY 1999 section 306 award with a July 1 start date:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 1.B. For the last 3 fiscal years, for each eligible state, 
please list the number of days between submission of state grant 
applications to NOAA and NOAA's final approval and payment of grant 
funds to states under their application.
    Answer: For the information provided below, the date is when the 
final application was sent to GMD by OCRM. The number of days in 
parentheses is GMDs actual processing time for the award (see response 
to question 1.A.) and award of funds to state. Please note that even if 
GMD's processing time went beyond 60 days, and approval of the grant 
occurred after July 1 or October 1, the effective award date was 
specified as the July 1 or October 1 start date so that the state will 
not have an unfunded gap in time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              David Keeley
    Question 1. The House bill, H.R. 1110, proposes that states provide 
a 1-to-1 match of federal dollars under Section 309. Please explain 
what effect such a change in current law would have on the Maine 
Coastal Program.
    Answer. Maine could, with little to no difficulty, provide some 
level of match (state in-kind staff resources) for 309 enhancement 
projects carried out by the state. For example, a Section coastal 
hazards project in our 99/00 work program is funded by NOAA at $38,000 
and (although not required), an estimated match of $16,000 is provided 
in state resources (state-funded geologist and GIS support)
    For projects involving local and regional partners however, a 
required match (particularly a 1:1 match) might be difficult and might 
impede progress on enhancement projects. A current project in Southern 
Maine provides an example. Although not required by our NOAA grant, MCP 
requested that towns participating in the regional beach management 
planning process contribute one-half of the costs for the project, as a 
signal of their commitment to manage sand beaches as regional 
resources. Five out of nine towns in Southern Maine are now 
participating but others cite the match requirement as an impediment to 
their participation. Projects that are regional (watershed or 
ecosystem) in approach often compete with municipal funding interests, 
yet we know that the approach is beneficial to protection of coastal 
resources.
    The Maine program could most likely meet additional match 
requirements (we suggest a 25-50% match) with no anticipated negative 
impact, provided that the state was awarded flexibility in meeting 
overall match requirements, could compensate for lack of local match, 
and could continue to use in-kind resources as match.

    Question 2.A. Is the State able to delineate between the CZM 
portion and the Clean Water Act portion of the state's nonpoint source 
pollution control program? If so, please explain in detail.
    Yes, but the delineation is only clear with respect to 
administrative details, such as financial management, oversight of 
(some, but not all) 6217 funded projects, and separate lines of 
communication with federal agencies. The Maine Coastal Program manages 
6217 funds, coordinates a limited number of projects, provides 
contractual funds for DEP to manage a limited number of projects and is 
the point of contact with NOAA for 6217. The Maine DEP manages the 319 
grant program, has oversight over environmental regulations and is the 
point of contact for EPA for Clean Water Act programs. The Maine 
Coastal Program and DEP staff have each provided staff support for the 
many multi-stakeholder processes that have shaped the 6217 program.
    The substance of our coastal non point efforts (use of BMPs, new 
stormwater law, grants for remediation of non point, public education 
campaigns), is firmly (and intentionally) embedded in the state's 
overall non point source program. Also since NOAA's rejection of our 
proposed (scientifically based) management boundary, the entire state 
is proposed to be our 6217 management area.
    B. Through Section 312 of the CZMA, NOAA conducts a review of the 
extent to which the state has implemented and enforced the program. If 
the State and NOAA were able to agree on a way to delineate between the 
two, would the State support the inclusion of the CZM nonpoint source 
pollution control program within the review of overall program 
performance? Please explain in detail.
    Answer. We think accountability is important and because Maine has 
a networked coastal program, the performance of our partner agencies 
(re: activities and projects in the coastal zone) is routinely examined 
during our 312 program review. We would consider it well within the 
purview of the 312 review process to: (1) look at the effectiveness of 
our interagency partnership, (i.e. how the Maine Coastal Program, the 
Maine DEP and other agencies cooperate on coastal non point), (2) 
determine how 6217 funded efforts have enhanced coastal NPS research, 
monitoring, prevention, remediation and education and (3) provide an 
opportunity for DEP to present information regarding how 319 funds and 
other funds have been used in the coastal zone.
    It is necessary though, to somehow confine the scope of NOAA's 
review in light of the following: EPA already has mechanisms in place 
to review the Maine DEP's performance under the Clean Water Act and the 
overwhelming majority of funding for non point source programs comes 
from EPA to the Maine DEP. If proposed increases in the 319 program 
come to be under the Clean Water Action Plan, Maine's 319 program will 
be funded at a level that exceeds the entire CZM appropriation to the 
State of Maine.

    Question 3. Has Maine ever requested technical assistance from NOAA 
and been told that such assistance for Maine was not available? If so, 
please explain in detail.
    Answer. We applaud NOAA's attempts in recent years to develop 
targeted expertise among their staff to assist with states' TA needs in 
the areas of dredging, federal consistency, etc. Maine has also 
benefited from products and services available through the Coastal 
Services Center and through recent improved coordination between NESDIS 
and NOS. NOAA's new electronic reporting syciem will make searches for 
information from other states easier and more productive. While we 
cannot cite examples where we haven't been helped when asked, we would 
like the cumulative expertise at NOAA to exhibit itself in the form of 
proactive technical assistance.
    In particular, we see two areas where service to the states could 
be improved. (1) NOAA should be the gateway for states to access 
coastal and marine expertise that exists at the federal level (FEMA, 
the military, NRCS, etc.) (2) NOAA should be a conductor and supporter 
of research that addresses state coastal management needs (cumulative 
and secondary impacts of development, fate and transport of NPS in 
different types of embayments are but two examples of Maine's research 
needs.)

    Question 4. A. In each of fiscal years 1997, 1998 and 1999, how 
much base program money was withheld from the Maine program by NOAA to 
pay for NOAA administrative costs?
    Answer. Although discussed each year for the past several years, FY 
99 (beginning 7/1/99) is the only year that base program funds will be 
withheld. $16,000 will be withheld from Maine's Section 306 funding for 
NOAA administrative costs during the coming year.
    B. If such money had been available, what would you have used the 
money for?
    See C. below.
    C. Do you currently have an alternative arrangement to cover such 
costs? If so, please explain in detail.
    NOAA increased allotments in Sections 309 and 310 funding and 
allowed increased flexibility in moving program expenses and staff 
costs betiveen 306 and other funding lines. If this flexibility had not 
been provided for, we would have had to cut staff. We also were able to 
transfer a Planning and Research Associate from 306 funds through 
increased permit fees approved by the Maine legislature.
    D. In fiscal year 2000, how much does the Administration propose to 
withhold from the Maine program to pay for NOAA's administrative costs?
    Not known at this time. Maine holds the position that NOAA 
administrative expenses should be adequately funded through direct 
appropriations from NOAA operations accounts and not charged to state 
grants or Section 308 funds for regional and emergency projects.

    Question 5. A. For several years, Maine has not allocated a portion 
of its Section 306 funding to targeted projects under Section 306A. 
Please explain in detail why this has occurred.
    Answer. During the period of economic decline in Maine in the late 
1980's, state budget cutbacks threatened to undermine the 
administration and enforcement of the core environmental laws that 
constitute Maine's approved coastal management program. Funding for 
306A construction and acquisition ceased as CZM 306 base program funds 
were reallocaied to support permitting and enforcement in the coastal 
zone. NOAA's 312 reviews of the Maine program during that time also 
directed increased investment of CZM dollars in core law 
administration. A recent 309 funded project to reform the Site Location 
of Development Law may, over time, result in decreased state oversight, 
delegated authority for permit reviews to the municipalities and a 
coincident freeing up of 306/306A dollars.
    Although funds have not been made available for 306A projects, the 
Coastal Program conducted a needs assessment that helped design, and 
bolstered support for a state bond issue for small harbor improvements 
(SHIP) and we assisted DOT with administration of that program. We also 
devote staff time to Land for Maine's future efforts in the coastal 
zone and administer a mini-grants program to help municipalities 
identify and traditional coastal rights of ways.
    B. Do you support the Administration's proposal to include a 
separate authorization for Section 306A projects? Please explain in 
detail.
    Section 306A of the CZMA provides states with adequate authority to 
preserve and restore areas of special value and to acquire public 
access. However, at current appropriation levels, funding for 
restoration, acquisition and waterfront revitalization in identified 
priority areas competes with base program funding and is limited to 10% 
of overall appropriations. Maine would like to see overall limits on 
Section 306A spending removed along with sufficient funding to allow 
for effective administration of core programs and program enhancement 
as well as ``shovel in the dirt'' projects in priority areas of the 
state. State's should retain the authority to determine priorities for 
306 and 306A funding.

    Question 6. Does Maine support a competitive grant program under 
Section 310 as proposed by the Administration? Please explain in 
detail.
    Answer. While we have no doubt that Maine communities would be 
competitive for community revitalization and conservation assistance 
grants through a national competition, we think the Administration's 
proposal sets up new federal bureaucratic responsibilities for 
competitive grants, that are best designed, evaluated and awarded 
directly by the State's CZM program. All states should be allocated 
grants under this section by formula and states should have the 
authority to shape local grant offerings to meet community needs--not 
one size fits all federal guidelines. Maine's Coastal Plan (our 
strategic plan) was developed with input of coastal communities, 
coastal professionals and the public and would serve as our statement 
of priorities upon which to design a local grants program.

    7. Please explain in detail Maine's position on incorporating 
Section 6217 nonpoint source pollution control into the CZMA. Include 
comment on minimum and maximum spending limits.
    Answer. Maine opposes further incorporation of Section 6217 of 
Coastal Zone Act Reauthorization Amendments of 1990 (``CZARA'') into 
the Coastal Zone Management Act. The legislative history of CZARA 
reflects Congress' intent to provide for joint administration of 
coastal non-point source programs by CZM programs and state water 
quality agencies. Maine supports continued efforts to integrate 
planning and implementation of coastal non-point source programs with 
other state water quality programs. In our view, joint program 
administration is, at least for the foreseeable future, the better 
means to efficient and effective integration of coastal and other non-
point source programs as features of the Maine's overall approach to 
maintaining and improving water quality. Further amending the CZMA to 
incorporate Section 6217 of CZARA risks inappropriately shifting the 
burden of program administration to CZM programs and duplicating 
aspects of the mission and functions of state water quality agencies. 
In addition, despite the concerted efforts of NOAA and EPA, the breadth 
and complexity of the 6217 program has at times in many states 
generated uncertainty regarding program requirements, concerns 
regarding deadlines, and on-going questions regarding the sufficiency 
of federal funding to support this national program's extensive and 
ambitious approach to coastal non-point source issues. Maine's 62l7 
program, for example, remains conditionally approved pending further 
discussions on the applicability of certain provisions and development 
of further planning documents. We are hopeful that, with the guidance 
furnished by NOAA and EPA's joint Final Administrative Changes to the 
6217 program, Maine can secure timely approval of an efficient and 
effective coastal non-point source program that is suitably tailored to 
Maine issues and conditions and integral to a statewide approach to 
non-point source pollution issues. Future federal funding 
appropriations will be needed to help implement such a program.
    Minimum and maximum funding--Maine opposes the Administration's 
proposal for a 10-20% set-aside in 306/306A grants for reducing the 
impacts of polluted runoff. When the CZMA was amended in 1990, funding 
for development and implementation of 6217 management plans was 
proposed to supplement, and not compete with, CZM base program funding. 
Maine needs the flexibility to decide how base funds will he allocated 
to priority issues. While polluted runoff is an important issue in 
Maine, it should not compete with other identified priorities for 
limited funding. Additional funding (beyond base program funding) for 
planning and implementing coastal non point programs is needed. In 
Maine, a minimum of $500,000 per year is needed to implement an 
effective coastal NPS prevention and control program.
                                 ______
                                 
  Response to written questions submitted by Hon. Olympia J. Snowe to 
                            Sylvia A. Earle
    Question 1. What have you found to be the most effective outreach 
tool when working with coastal communities?
    Answer. The witness did not provide a response.

    Question 2. Do you have any new ideas which would provide 
opportunities to increase the number of people in coastal communities 
who are involved in coastal issues?
    Answer. The witness did not provide a response.

    Question 3. In your testimony, you said that any new projects or 
grant programs supported through appropriations must be environmentally 
protective, maintaining the natural biological, chemical and physical 
integrity of coastal ecosystems, and avoid controversial coastal 
programs such as ``beach hardening projects, shoreline erosion 
structures or dredging projects that harm coastal ecosystems.''
    Answer. The objectives of the current CZMA law allows states to 
develop comprehensive programs to balance the competing uses of coastal 
resources and meet the needs for the future growth of coastal 
communities, including investments in urban waterfronts and other 
industries dependent on a waterfront location as well as the protection 
from loss of life and property.
    Question A. Is it your position such projects should not be funded 
under CZMA? Please explain in detail.
    B. Do you propose changing the purpose of the CZMA by eliminating 
wording that relates to the promotion of economic development and 
safeguard of loss of life and property in the coastal zone? Please 
explain in detail.
    Answer. The witness did not provide a response.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Sarah W. Cooksey
    Question 1. Has CSO identified potential areas where the state 
might disagree with NOAA about suggested outcome indicators to be used 
to assess the success of the state programs?
    Answer. At the House legislative hearing on the CZMA 
reauthorization, Professor Marc Hirschman, who led a team conducting a 
NOAA-sponsored effectiveness study of the CZM program, testified about 
the difficulty in making such assessments. This is due, in large part, 
to three reasons. First, many of the most significant accomplishments 
of the state programs are evidenced by what one does not see. Although 
state CZM programs continue to face many challenges, those problems 
would undoubtedly remain to a worse degree and be compounded without 
the programs. Second, as planning programs, the focus and objectives of 
state programs are frequently changing and evolving. Coastal 
communities and their environment are not static. It is important that 
any national indicators reflect the dynamic nature of state coastal 
programs. The changes within them require changes in emphasis and 
approaches. Finally, state CZM programs vary greatly in their 
priorities reflecting the vast diversity of the nation's coasts and 
among states.
    Nonetheless, measurable objectives can be established for CZM 
programs. CSO supports the establishment of performance-based outcome 
indicators. It is essential that states be active participants in the 
development of indicators which should be based on state-based 
objectives and priorities and be flexible enough to reflect the 
diversity among state programs.

    Question 2. Does CSO support a competitive grant program under 
Section 310 as proposed by the Administration?
    Answer. No. CSO recommends that such grants be provided to all 
states according to the CZMA grant formula. States, not the federal 
government, are in the best position to work with local governments to 
identify projects and activities which meet the objectives of the 
proposed 310 community assistance grants. The presumed rationale for a 
competitive grant program is that it would provide an award and 
incentive for states which are best meeting the objectives of Section 
310. A competitive grant program appears to assume that all states are 
equal and begin on a level playing field. Again, the difference among 
the states needs to be kept in mind. Several states have coastal 
management programs which predate the CZMA, while several others have 
only recently been approved. Within some states, such as those where 
the entire state has been delegated as with the coastal zone, the CZM 
programs enjoy the status and resources of a statewide program. As an 
exercise in grantsmanship, the effect of a competitive grant program 
may be to simply reward states that already are at a great advantage 
over states which are still trying to develop beyond the basic 
infrastructure for federal approval.

    Question 3. Please explain CSO's position on incorporating Section 
6217 nonpoint source control into the CZMA. Include comment on minimum 
and maximum spending limits.
    Answer. States do not support amending the current CZMA provisions 
as they relate to 6217. The current provisions of the CZMA, Section 
306(d)16, already provide that the applicable enforceable policies of 
the coastal nonpoint pollution control program be included as part of 
the CZM program, while both the authorizing statute and legislative 
history for Section 6217 make it clear that the coastal nonpoint 
program was to be jointly implemented by the state CZM and water 
quality agencies.
    In 1990, States were strong supporters of strengthening the role of 
CZM programs to address management and control of nonpoint source 
pollution. States continue to view coastal nonpoint source pollution as 
a priority issue, but the role of the CZM agencies should be focused on 
coordination, administration and implementation of key coastal polluted 
runoff activities that are consistent with the state specific CZM 
program responsibilities. There would be no added value in requiring 
the incorporation of programmatic elements which the state CZM program 
has no control over, and may result in confusion regarding roles and 
responsibilities among the agencies.
    State CZM programs already incorporate many of the elements of the 
Section 6217 program. Regardless of what may be intended by a new 
requirement for State CZM programs to fully incorporate Section 6217, 
the effect may be to shift the full burden of responsibility for the 
implementation of the coastal nonpoint program on the state CZM 
programs.
    Recent Administrative changes have addressed some of the state 
concerns that CSO and the states individually have voiced from the 
outset of development of the program guidance for Section 6217, yet 
there are still fundamental disagreements. It is nearly nine years 
since the statute was enacted and NOAA and EPA have yet to find a 
single state program fully meets the requirements for approval. 
Although the program was intended to be limited in scope and to be 
applied as necessary to protect coastal water quality, the agencies 
have insisted that the requirements for implementation of the program 
be universally applied regardless of whether it will result in 
demonstrable improvement to water quality.
    As to minimum funding requirements, CSO has repeatedly requested 
EPA and NOAA to provide estimates of the cost of implementation of the 
Section 6217 program. Apart from a summary of different sources of 
funds available for controlling nonpoint source pollution, we have 
never received a response other than staff comments that they were 
unable to make such calculations. In the 6217 program development and 
implementation guidance, there appears to be an assumption that the 
costs of controlling nonpoint source pollution are assumed by those who 
are responsible for implementing management measures. Completely apart 
from the costs of actually implementing management measures, the costs 
of administering the Section 6217 are substantial. Administering a 
nonpoint source program is field intensive due to the vast number of 
nonpoint sources. Such programs will only be effective with aggressive 
monitoring and enforcement. Simply having a program on paper will not 
ensure that Section 6217 has the effect of substantially improving 
coastal water quality. Currently, most nonpoint funding available 
through either the Clean Water Act Section 319 or agricultural programs 
is dedicated to project, rather than program, implementation. In 
addition to supporting program administration, providing additional 
implementation funds through CZM program would enable coastal to target 
programs priorities across state agencies.
    A CSO needs survey conducted in 1997 identified an annual minimum 
need of $400,000 per state, or $12,800,000 nationally, in order for 
states to have the basic staff and resources to begin to effectively 
administer the Section 6217 program in a targeted manner. Widespread 
implementation of coastal nonpoint program elements called for in the 
NOAA/EPA guidance would require substantially more resources, and 
enable coastal states to support key coastal nonpoint priorities either 
within their specific CZM authority or through networked programs.
    CSO recommends that funding for Section 6217 be authorized in a 
separate line item under Section 318 of the CZMA or by amendment to 
CZARA Section 6217 with a funding authorization for program 
implementation.

    Question 4. CSO proposes $12 million in FY2000 funding for the 
National Estuarine Research Reserve System, while the Administration 
proposes 57 million. Please explain why CSO believes the 
Administration's proposal is inadequate.
    Answer. The $12 million in proposed authorized funding for the 
National Estuarine Research Reserve System is based a survey and 
recommendations by site managers of the NERRS. In 1993, an independent 
review of the NERRS, which has become known as the Knecht Report, 
recommended a minimum funding level of $10 million annually for the 22 
Reserve sites then in the System. At present, there are 23 Reserves 
sites, with four additional Reserves being developed to complete the 
System. In the 27 years since the CZMA was enacted, the NERRS program 
has developed slowly. While the Reserves have a valuable role in 
furthering coastal management in the states in which they are located 
and to the nation, the potential envisioned for the Reserve System 
remains unfulfilled. For the most part, funding for the Reserves has 
been static and left site managers with much of their time being 
consumed with ensuring that the most basic operations and facilities 
needs are being met while diverting their attention from meeting the 
research, monitoring and education mission of the Reserve System. CSO 
strongly believes in the vision of the Stratton Commission which led to 
the establishment of the Reserves. It is time to fulfill that vision 
with a funding level that reflects the needs of the NERR System, rather 
than the immediate needs of the Reserve sites.

    Question 5. The House bill, H.R. 1110, proposes that states provide 
a 1-to-1 match of federal dollars under Section 309. Please explain 
what effect such a change in current law would have on the state's 
coastal programs.
    Answer. CSO does not support adding a new match requirement of 
Section 309 enhancement grants. The Section 309 enhancement grant 
program was intended to provide states with an incentive to upgrade 
their programs to address specific national priority issues listed 
under Section 309, and to adopt program changes that in some cases can 
be controversial. As a general matter, the no-match incentive also is 
intended to assure that all states continue to make progress in 
upgrading programs to meet these national objectives. To require a 
match for Section 309 grants would make it equivalent to Section 306 
grants, perhaps, remove a significant incentive a state might have to 
seek Section 309 funds, and undercut continued progress.
    The no-match requirement for Section 309 grants has been especially 
useful in assisting state CZM programs in getting new initiatives 
started and gaining the implementation experience necessary to build a 
broader base of support for the difficult or untried initiatives, in 
addition, many states work through and with local governments to 
upgrade management of coastal issues and the no-match incentive is 
important to bring everyone to the table. While it is true that some 
states could make the a new match requirement for 309 grants since 
their state priorities may already align with the national interest 
objectives, that is not true in all cases. It is in the national 
interest to encourage all state to continue to upgrade their CZM 
programs.

    Question 6. Does GSO support the Administration's proposal to 
include a separate authorization for Section 306A projects?
    It is not clear that the Administration has proposed this but it is 
in the House bill. CSO can support a separate authorization for Section 
306A grants provided that base funding for Section 306 and 309 grants 
is also increased to ensure that adequate programmatic and planning, as 
well as project, funding is available to states. If separate funding is 
provided, states should be able to continue to use Section 306 funds to 
implement eligible 306A projects or activities. Providing a separate 
funding authorization for section 306A projects will better delineate 
between the programmatic functions of the CZM programs, e.g. program 
administration, permit and consistency reviews, and project 
implementation. A separate line item for Section 306A will place 
greater emphasis on the local benefits from CZM programs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Terry D. Garcia
    Question 1.A. Through Section 312 of the CZMA, NOAA conducts a 
review of the extent to which each state has implemented and enforced 
its CZM program. Is NOAA able to clearly delineate between the CZM 
portion and the Clean Water Act portion of the states' Nonpoint Source 
Pollution Control Program? If so, please explain in detail.
    Answer. The Administration's CZMA proposal addresses this issue by 
adding language (proposed CZMA section 306(d)(16)(B)) that defines the 
roles and responsibilities of the state Coastal Management Program 
agency in implementing its Coastal Nonpoint Program. While some state 
authorities may be implemented by certain state agencies, there is not 
a delineation between a ``CZM portion and the Clean Water Act portion'' 
under a state's Coastal Nonpoint Program. However, the Administration's 
proposed language will enable NOAA to identify, in its CZMA section 312 
evaluations, those Ccastal Nonpoint Program activities for which the 
state Coastal Management Program agency is responsible. See also the 
response to question 7.
    As further background, the implementation of state Coastal Nonpoint 
Programs is a shared responsibility of several state agencies and 
programs, with leadership generally assigned to both state coastal 
management and state water quality agencies. As part of the CZMA 
section 312 evaluation process, NOAA will review how the states are 
implementing the Coastal Nonpoint Program, just as NOAA currently 
reviews the many authorities of state Coastal Management Programs. 
These authorities may be the responsibility of several state agencies. 
This is referred to as a ``network'' of state authorities and agencies. 
NOAA recognizes that the lead state Coastal Management Program agency's 
responsibilities under these networked authorities, including the 
state's Coastal Nonpoint Program, may be limited and will take that 
into account during NOAA's evaluations. See also the response to 
question 1.B.

    Question 1.B. How will the inclusion of the CZM Nonpoint Source 
Pollution Control Program within the review of overall program 
performance affect the states' funding? Please explain in detail.
    Answer. The review of a state's Coastal Nonpoint Program as part of 
the review of the overall program will not affect a state's funding. 
NOAA currently reviews programs to identify program strengths and 
weaknesses through the CZMA section 312 evaluation process, and makes 
recommendations for actions that the state Coastal Management Program 
should take to address program weaknesses. Then NOAA, if necessary, but 
rarely, directs grant funding to address these identified needs. NOAA 
does not expect that it will have to direct state coastal management 
agencies' funding to address Coastal Nonpoint Program deficiencies for 
which they have little or no control, e.g., failure to implement 
agricultural programs. In such a case, NOAA will work cooperatively 
with the state Coastal Management Program, the U.S. Environmental 
Protection Agency, state water quality agencies, and other resource 
management agencies to improve program performance, seeking solutions 
in which state coastal management agencies may play a role, but for 
which they cannot be held directly accountable. As described in the 
answer to question 1.A. above, this type of process is what is 
currently used for ``networked'' state coastal management program 
reviews.

    Question 2. Has NOAA identified potential areas where it might 
disagree with the states about suggested outcome indicators to be used 
to assess the success of the state programs? If so, please explain in 
detail.
    Answer. NOAA has not proposed a set of outcome indicators, although 
we have discussed the concept with states, as part of the Effectiveness 
Study, and in other venues. Many states have voiced concerns that a set 
of national indicators might not be appropriate, given regional and 
state-by-state variation in coastal characteristics, issues and 
cultures. States are also concerned with the cost of tracking 
individual permit, planning, and funding outcomes that would be 
necessary to develop trend analysis inherent in this type of 
evaluation. Finally, several state managers have stated that the 
benefits do not outweigh the costs and complexity of developing such a 
system. These managers believe that the more traditional case example 
or anecdotal reports provide adequate documentation of their program's 
effectiveness.
    However, NOAA has completed some of the preliminary steps toward 
developing a set of outcome indicators to assess the success of 
approved state Coastal Management Programs. In December of 1998, a 
consortium of Sea Grant institutions completed the NOAA-funded National 
Coastal Zone Management Effectiveness study which used various process 
and outcome indicators, as well as case examples, to gauge the 
effectiveness of state Programs. The Study found that state Coastal 
Management Programs were effective, but also recommended that a 
national set of outcome indicators be developed. The Effectiveness 
Study group published their findings in the most recent volume of 
Coastal Management. This journal will be provided to the Subcommittee.
    NOAA has not pursued the development of a national set of 
indicators during FY 1999 due to budget limitations which preclude the 
hiring of staff or contractors to undertake the project. While the 
Administration's FY2000 request for $28 million in section 310 funds is 
not intended for the development of program indicators, it is 
conceivable that some of these funds could be used to support such an 
effort under section 310A of the Administration's proposed bill. 
However, this would leave less funds to support the coastal community 
initiative proposed under section 310. Any future effort is estimated 
to take approximately two to three years and would include close 
consultation with state Coastal Management Programs and other affected 
interests, as well several pilot efforts to test the system.

    Question 3. Contrary to the Administration's proposed bill, the 
House bill, H.R. 1110, proposes that states provide a 1-to-1 match of 
federal dollars under Section 309. What is the Administration's 
position on the House provision requiring 1-to-1 matching for Section 
309 funds?
    Answer. Currently, CZMA section 309 enhancement grants are 100% 
federal funds to encourage states to make improvements to their 
programs. H.R. 1110 would require a 50% match for these grants. This 
could result in less of an incentive for states to improve their 
programs. The Department recommends that these grants remain l00% 
federal funds. The 100% federal funds has been a real incentive for 
states to make improvements. For example, using section 309 grant 
funds, the Maine Coastal Management Program developed a ``Strategic 
Plan for Aquaculture.'' The Plan outlines the actions necessary to 
capitalize on the potential of aquaculture to become a major water 
dependent coastal industry and the Maine Coastal Management Program is 
working on legislation and regulations that would streamline the 
existing aquaculture licensing process.
    As another example, using section 309 grant funds, the 
Massachusetts Coastal Management Program developed ``Guidelines for 
Barrier Beach Management.'' The Guidelines are a comprehensive 
compendium of state-of-the-art protection practices for beaches and 
dunes. The Guidelines are used by local governments, state agencies and 
the public to enhance the state's efforts to protect these important 
resources.

    Question 4.A. Under Section 310, the Administration proposes to 
address the impacts and pressures on coastal resources, public 
infrastructure and open space which are attributed to development and 
sprawl. Please explain in detail how NOAA could successfully solve 
problems relating to sprawl and development.
    Answer. NOAA is uniquely positioned to work in partnership with 
state Coastal Management Programs to support local efforts to address 
sprawl in coastal communities. For over 25 years, the voluntary 
partnership established through the CZMA has been an effective 
mechanism for assisting states and communities in addressing the 
impacts and pressures on coastal and marine resources resulting from 
development and sprawl. For example, NOAA and state Coastal Management 
Programs have assisted coastal communities with planning and 
implementing tools and techniques to promote ``smart growth,'' 
watershed management, waterfront revitalization, brownfields 
redevelopment, hazard mitigation, and port and harbor management. The 
Administration's CZMA proposal would build on this CZMA foundation by 
providing states, local governments and NOAA with improved capacity to 
focus efforts on addressing the dramatic and increasing pressures of 
sprawl on coastal communities and to revitalize these communities in an 
environmentally sound manner. Coastal areas face a distinctive 
challenge particularly due to increasing population pressures as 
tourists, second homeowners, retirees, and residents continue to impact 
the very place that provides them their reasons for being there--
extraordinary opportunities for recreation, reflection and beauty.
    As part of the technical assistance that NOAA would provide under 
the Administration's proposed CZMA section 310A, NOAA has expertise and 
services available in many areas to assist the states and local 
governments. These areas include: policy development, land use 
planning, photogrammetry, geographical information systems, physical 
and biological science, and innovative environmental technologies.

    Question 4.B. Please explain why NOAA is qualified and capable to 
determine the merit of development and sprawl related grants?
    Answer. NOAA has over 25 years of experience working with states 
and communities to address coastal community growth issues, including 
sprawl and development. NOAA's Coastal Zone Management program hires 
professionals with backgrounds in fields such as urban and regional 
planning, sociology, natural resources sciences, public administration 
and civil engineering. This combination of expertise gives NOAA the 
necessary background and understanding of sprawl issues to evaluate the 
merit of these grant proposals. The coast has been, and continues to 
be, the location of most of the nation's highest growth rates. NOAA, in 
partnership with state coastal programs, is positioned to assist 
coastal communities in planning, developing and implementing community 
based solutions to local problems. A major objective of the CZMA is 
proper land use planning and management in coastal areas to reduce the 
impacts of development on coastal resources, including efforts to reuse 
previously developed areas such as underused waterfronts or 
brownfields, and discourage development in environmentally sensitive 
areas.

    Question 4.C. If so, what criteria would NOAA use?
    Answer: NOAA will work closely with states, local government 
associations, and other potentially affected interests, to develop 
appropriate criteria for CZMA section 310 awards. Priority will be 
given to projects which have completed an initial planning process and 
are ready to be implemented. See also the response to question 4.D.

    Question 4.D. The Administration's bill proposes a competitive 
grant program rather than distributing funds to the states through the 
allocation formula. The states have indicated that the allocation 
formula would provide them with stability in planning and 
implementation of the community initiative program. What is the 
Administration's rationale for the competitive grant program when it 
does not afford future funding certainty to the states or the 
communities which this program purports to assist?
    Answer. The Administration's CZMA proposal does not specify how the 
section 310 funds would he allocated. NOAA intends to work with the 
states to develop project eligibility and selection criteria, pursuant 
to the Administration's proposed CZMA section 310(b). At this point 
NOAA anticipates that some form of competitive grants program is needed 
to ensure that projects are well designed, innovative, and that funds 
will be used in communities and for issues where the funds are most 
needed. Certainly, any guidelines developed would have to account for 
selected projects that will take longer than one grant cycle to 
complete.

    Question 5.A. The House bill, H.R. 1110, proposes an authorization 
of $12 million in FY 2000 for the National Estuarine Research Reserve 
System, while the Administration proposes $7 million. Does the 
Administration support this higher funding level?
    Answer. H.R. 1110 proposes $7 million for grants under section 315 
for FY 2000. This is the same authorization level included in the 
Administration's CZMA proposal. H.R. 1110 also proposes $12 million for 
grants to fund construction projects at National Estuarine Research 
Reserves (NERR). This is the same level for construction included in 
the President's FY 2000 budget request. Thus, the Administration 
supports the same funding levels for the NERR System that are included 
in H.R. 1110.

    Question 5.B. Please explain what projects the Administration would 
fund with an additional $5 million?
    Answer. As discussed ahove in question 5.A., there is not currently 
an ``additional $5 million'' over the Administration proposal included 
in H.R. 1110. If an additional $5 million were available for section 
315 program activities, $3 million of the $5 million would be used to 
bring the 27 sites anticipated to be in the System in FY 2000 up to 
fully operational levels. The additional funds would help cover the 
costs of: (1) adequate staff and operations at 27 sites, (2) two 
Graduate Research Fellows at each site (fellows are at 23 sites 
currently), (3) implementation of the biological and land use 
components of the System-wide Monitoring Program (only water quality 
measurements are made currently), (4) ecological profiles for each 
state, and (5) technical training for coastal decision-makers at all 
sites. An operational level of $10 million is consistent with the 
recommendations of a 1993 Review Panel on the NERR System in its report 
entitled, The National Estuarine Research Reserve System: Building a 
Valuable National Asset.
    The remaining $2 million would allow two new initiatives to be 
implemented. First, technical training through the NERR System would be 
expanded to reach coastal decision-makers regionally or state-wide 
rather than just locally. The training would build on coastal decision-
maker workshops that have been conducted at Reserves over the last few 
years. The range of topics also would be increased through these ``NERR 
System Coastal Institutes,'' bringing solid scientific information 
about estuaries to people who make decisions about coastal resources on 
a daily basis. Second, habitat restoration projects in Reserves would 
be undertaken. Careful research and monitoring would be associated with 
all restoration projects. The techniques developed and lessons learned 
would be shared broadly with resource managers.

    Question 6.A. In each of fiscal years 1997, 1998, and 1999, what 
amount of base Section 306 program funding was withheld from the state 
programs by NOAA to pay for NOAA's administrative costs?
    Answer. No funds were withheld in fiscal years 1997 and 1998 from 
the base CZMA section 306 grant program. However, in fiscal year 1999, 
NOAA's corporate costs such as security, rent, grants administration, 
financial management systems, etc., increased by $12 million. NOAA's 
National Ocean Service (NOS) share of this increase is approximately $2 
million. All other NOS programs already contribute the corporate cost, 
prior to the increase, and therefore NOS could no longer afford to 
exempt the section 306 grant program from those shared costs without 
serious impacts on other programs. In fiscal year 1999, $1.3 million 
will be contributed by the section 306 program, representing only a 2% 
assessment versus 7-20% assessments on other NOS programs.

    Question 6.B. Please explain in detail NOAA's plan for handling 
this funding shortfall when evaluating the effectiveness of state 
programs during their Section 312 review of performance.
    Answer. NOAA does not anticipate any significant adverse impact on 
the states program performance in FY 1999 due to the small size (2%) of 
the assessment. In FY 1999, state section 306/309 grant awards will 
range from approximately $650 thousand to over $2.6 million (with 
carryover). The $1.3 million contribution translates to approximately 
$15 thousand to $65 thousand less per state, dependent upon the size of 
the grant award. However, there will be no adverse impacts on states in 
FY 1999 resulting from this decrease. This modest reduction is more 
than offset by the overall appropriation for all sections of funding 
for state Coastal Management Programs, which increased by $7.0 million. 
All 33 participating states and territories will receive an increase in 
funding over FY 1998 levels. While NOAA does not believe the effect of 
the contribution will be measurable in a state's performance, should a 
state demonstrate that the contribution has somehow degraded their 
performance, NOAA will take that into account.

    Question 6.C. Does the Administration's proposed $5.5 million 
authorization for NOAA's CZM program cover all of NOAA's CZM related 
expenses or does NOAA continue to view withdrawing specifically 
appropriated base program funds from the states as an acceptable 
alternative for fiscal shortfalls of the agency? Please explain in 
detail.
    Answer. The $5.5 million authorization covers all direct personnel 
and associated operational costs such as travel, supplies, equipment, 
etc., directly related to administration of the state coastal 
management program as well as the National Estuarine Research Reserve 
System. It does not cover the other shared NOAA corporate costs, such 
as grants administration, legal counsel, security, etc., that are just 
as necessary to support an effective program, but are more efficiently 
provided through a centralized source. When these corporate costs rise 
faster than can be supported through NOAA's administrative line item, 
they must be paid for somehow, and the most equitable way is by the 
programs that they support.

    Question 7. The Administration proposes formally incorporating the 
provisions of Section 6217 into the CZMA. What authorities does this 
afford the CZM program that do not presently exist under the current 
statute?
    Answer. The Administration's CZMA proposal does not ``formally 
incorporate'' the provisions of section 6217 into the CZMA and does not 
``afford the CZM program'' new authorities that do not presently exist 
under the current statute. Section 6217 of the Coastal Zone Act 
Reauthorization Amendments of 1990 (CZARA) remains as a stand-alone 
statute and would not be changed by the Administration's CZMA proposal. 
The existing CZMA and CZARA requirements require that coastal states 
incorporate into their Coastal Management Programs the enforceable 
policies and mechanisms to implement their Coastal Nonpoint Pollution 
Control Programs See CZMA Sec. 306(d)(16)(16 U.S.C. Sec. 1455(d)(16)); 
16 U.S.C. Sec. 1455b(c)(2)(B). As such, CZARA focuses primarily on the 
development of state Coastal Nonpoint Pollution Control Programs in 
accordance with certain requirements. The Administration's CZMA 
proposal is focused on implementation of state Coastal Nonpoint 
Programs, clarifying the role of the state Coastal Management Program 
aoency and providing funding to support that role. It should be noted 
that such a role is a limited one since state Coastal Nonpoint Programs 
represent a comprehensive approach to controlling polluted runoff that 
impacts coastal waters and habitat and include the programs and 
activities of multiple state agencies.
    Thus, the Administration's CZMA proposal provides changes to: (1) 
section 306(a) to clarify that section 306 funds may be used to help 
develop and implement state Coastal Nonpoint Pollution Control Program 
activities; (2) section 306(c) to ensure that funds are available to 
implement state polluted runoff control efforts; (3) section 306(d)(16) 
to clarify the Coastal Nonpoint Pollution Control Program 
responsibilities for state Coastal Management Program agencies; and (4) 
section 312(a) to clarify the evaluation of the implementation of state 
Coastal Nonpoint Pollution Control Programs.I63
   Response to Written Questions Submitted by Hon. Olympia J. Snowe 
                           to Tim Eichenberg
    Question 1. CMC testified that new projects or grant programs 
supported through appropriations must ``be environmentally protective, 
maintaining the natural biological, chemical and physical integrity of 
coastal ecosystems,'' and avoid controversial coastal programs such as 
``beach nourishment, dredging or shoreline stabilization.'' However, 
the objectives of the current statue allows states to develop 
comprehensive programs to balance the competing uses of coastal 
resources and meet the needs for the future growth of coastal 
communities, including investments in urban waterfronts and other 
industries dependent on a waterfront location as well as the protection 
from loss of life and property.
    A. Is it CMC's position such projects should not be funded under 
the CZMA? Please explain in detail.
    Answer. We testified that only environmentally protective projects 
should be funded through the new grant program proposed in section 306A 
of the Saxton Bill in the House (HR 1110) and in section 310 of the 
draft Administration bill. The new grant program in both bills seeks to 
protect coastal habitats, and address the adverse impacts on coastal 
uses and resources from growth and sprawl. Therefore it is entirely 
appropriate that projects carried out under this new program be 
environmentally protective.
    We support language in the Administration's draft bill that 
authorizes the Secretary to make grants for ``environmentally 
protective local, community based initiatives'' in section 310(a), and 
the provision in section 310(b)(3) which states that ``eligible 
activities shall be environmentally protective initiatives that will 
revitalize previously developed areas, discourage development in 
undeveloped and environmentally sensitive areas, emphasize water 
dependent uses, and protect coastal waters and habitats. The phrase 
`environmentally protective' means that activities funded under this 
section shall maintain or improve the chemical, physical or biological 
integrity of coastal resources, waters and habitats.''
    This language is similar to section 101(a) of the Clean Water Act, 
compliance with which is required of any project conducted under the 
CZMA. The language is also consistent with the purposes of section 303 
of the CZMA to protect the natural resources of the coastal zone such 
as wetlands, floodplains, estuaries and beaches, and improve the 
quality of coastal waters. 16 USC 1452 (1), (2)(A) and (2)(B). 
Requiring projects funded under the new grant program in the CZMA to be 
environmentally protective is not inconsistent with balancing competing 
uses, meeting the needs of future growth, and accommodating investment 
in urban waterfronts, boatyards, and water dependent uses. Such 
programs can also be funded under other grant programs in the CZMA.
    However, we do not support funding projects like beach nourishment, 
dredging and shoreline stabilization under these provisions. Many of 
these projects cause serious harm to wildlife, coastal resources, and 
public access contrary to the purposes of the CZMA. Funding under the 
CZMA has historically not been sufficient to adequately fund such 
projects, any one of which could wipe out entire grant programs under 
306, 306A, 309 or 310. Finally, we believe that these kinds of projects 
are beyond the scope of the CZMA. There are more appropriate funding 
mechanisms available, such as WRDA, for these costly projects if they 
are necessary to protect life and property.
    B. Does CMC propose changing the purpose of the CZMA by eliminating 
wording that relates to the promotion of economic development and 
safeguard of loss of life and property in the coastal zone? Please 
explain in detail.
    Answer. No. We support the purposes of the CZMA and believe that 
promoting economic development, and safeguarding loss of life and 
property, can be done in an environmentally protective way as proposed 
in section 310 of the Administration's draft bill (cited above). These 
goals are not mutually exclusive.

    Question 2. CMC and the other environmental organizations which you 
represented propose formally incorporating the provisions of Section 
6217 into the CZMA.
    A. What authorities does this afford the CZM program that do not 
presently exist under current law?
    We are not proposing any substantive changes to the CZMA or the 
6217 program. However, we believe that any reauthorization of the CZMA 
would not be successful unless it also addressed the nation's number 
one water pollution problem by also reauthorizing the Coastal Nonpoint 
Program. Although the 1990 Coastal Zone Act Reauthorization Amendment 
incorporated the program into the CZMA through section 306(d)(16), we 
believe that formally incorporating targeted references to the program 
in to the CZMA would have substantial benefits and would give it a 
secure and stable home for the future. For example, references to the 
program under section 306, 306A and 309 will give state coastal 
managers the authorization they need to request funding for their state 
runoff control plans. It is unclear under the existing law whether 
funds are authorized for this purpose under sections 306A and 309. We 
also believe that the CZMA's 312 evaluation process provides one good 
mechanism for ensuring that state nonpoint programs are implemented 
effectively on a long-term basis as integral parts of state CZM 
programs.
    As part of the CZMA, funds for implementing the 6217 program should 
be set aside to ensure that once state coastal nonpoint programs are 
approved, a minimum amount of funds are made available for 
implementation. States should be free to spend as much as they want on 
the Program. However, Congress should ensure that minimum funding 
levels are made available for implementation. This in no way unduly 
restricts state discretion on how they manage their programs, but does 
encourage states to spend a minimum amount of their federal grants to 
implement state runoff control plans.
    The issue of setting aside funds for coastal nonpoint programs in 
the CZMA was raised at the hearing. A set aside is consistent with the 
CZMA. In fact, the idea for the set aside was taken from Section 309(f) 
of the CZMA which sets aside 10-20% of the funds for State Coastal 
Management Programs under Section 306 and 306A for grants to enhance 
coastal objectives such as public access, marine debris, special area 
management plans, ocean planning, aquaculture, and others. Setting 
aside funds for nonpoint pollution is at least as important as these 
issues, and should boost state coastal management program funding, not 
deprive funding for other projects. For this reason we support 
increasing core program funding to accommodate the set aside for the 
Coastal Nonpoint Program. The Saxton CZMA bill (I-IR 1110) contains a 
set aside for the program that would boost funding for Maine and 
Massachusetts core CZM program by 42-55%. So states should benefit from 
this approach.
    Some coastal managers fear that a set aside in 306 will cut into 
their core budget. Funding for the Coastal Nonpoint Program could be 
secured without raising unnecessary fears by shifting the set aside 
language to section 306A which could provide: ``the Secretary shall 
allocate at least \1/3\ of the amounts appropriated for each year 
beginning after fiscal year 1999 to carry out this section to coastal 
states for implementing approved coastal nonpoint pollution control 
program components.''
    B. What recommendations can CMC make which would promote the 
necessary type of industry cooperation needed to reduce polluted 
runoff.
    I believe that industry cooperation would be more forthcoming if 
the Coastal Nonpoint Program was funded adequately. Industry strongly 
supports the Clean Water Act state revolving loan fund funded at about 
$1-2 billion annually for sewer infrastructure and point source 
pollution projects. Now that nonpoint source pollution accounts for 
more than 60% of water quality impairment in the U.S., a similar 
financial commitment is called for. Nonpoint pollution funding under 
the CWA has been less than 3% of the SRF, and funding for the Coastal 
Nonpoint Program under the CZMA has been much less. Between 1995 and 
1998 only $1 million was appropriated for the program. Until 
substantially more funding is provided for addressing nonpoint source 
pollution it will be difficult to garner widespread industry support 
under either the CWA or CZMA. However, it should be also noted that the 
Association of Metropolitan Sewage Agencies has written letters to your 
committee strongly supporting reauthorization of the CZMA and the 6217 
program. So there is some recognition from municipalities that the 
program is an important tool in addressing our nation's water quality 
problems. We believe that industry could exhibit similar support if 
given the proper incentives. We would be glad to meet with industry 
representatives to discuss the Coastal Nonpoint Program and try to 
generate more support for the program.
    Thank you again for your thoughtful questions and the kind 
invitation to testify before your Subcommittee. Please do not hesitate 
to contact me if you have further questions, and I look forward to 
working with you further on this extremely important legislation.
                                 ______
                                 
             Comments of NERRA's Reauthorization of the Act
    The following points are NERRA's key issues for Reauthorization of 
the Act. We would appreciate the inclusion of these comments in your 
testimony on Thursday. Thanks for your assistance.
    1. Authorization Levels. The Administration's bill requests $7 
million in Section 315 operations for the NERRS, and $12 million in 
NERRS construction and acquisition for FY 2000. While NERRA supports 
increases in NERRS funding as outlined in the Land Legacy Initiative, 
the Association believes that $12 million for operations is needed in 
FY 2000, with increases of $2 million in following years, to help the 
System meet the increasing demands of coastal communities. Why?
    The NERRS is adding three additional sites, and seeks to continue 
important national initiatives such as: conducting regional technical 
training on non-point source pollution, restoration, and other locally 
relevant issues; and completing the System-Wide Monitoring Program. 
Graduate Fellowship Research projects address region priorities, 
contributing to improved coastal decisions at the local level. Funds 
are needed to develop Coastal Institutes in partnership with State 
Coastal Programs, to address the increasing technical training needs of 
coastal managers, planners, regulatory personnel, agriculture and 
fisheries interests. Reserves are well positioned to advance 
Restoration Science efforts through on-site long-term monitoring of 
wetlands and watershed restoration projects.
    NERRA strongly supports the addition of NERRS construction funds to 
the Section 313 line item, with an authorization level, as requested by 
the Administration, of $12 million for FY 2000 to enable completion of 
on-site education, training, and research facilities that service local 
and regional coastal communities.
    2. Research. NERRA advocates strengthening the research capacity of 
the NERRS through enabling research outside of Reserve boundaries, to 
improve understanding of linkages between estuaries and watersheds. The 
Secretary should also have the ability to provide 100% awards for 
research benefitting the National System, and addressing issues of 
national significance.
    3. Stewardship and Education. NERRA supports language in the 
Administration's bill that recognizes the increasingly important roles 
of resource stewardship, education, and training within the NERRS. The 
mission of improving local coastal decisions is greatly enhanced 
through the NERRS ability to: provide for active site resource 
management and restoration that serve as local and regional 
demonstration projects; and provide community-based education and 
training designed to promote informed coastal decisions.
    4. Measurable Objectives. NERRA supports the concept of providing 
for measurable indicators of the success of the CZMA. We look forward 
to the opportunity to work with our partners in State Coastal Programs, 
and with NOAA personnel, to develop reasonable measures that reflect 
the mission and goals of the Act.
    5. NERRS Linkage to Local Coastal Communities. NERRA strongly 
supports the CZMA partnership that provides for a federal, state, and 
local role in managing the nation's diverse coast. The role of the 
NERRS is an essential part of the partnership. Each Reserve is managed 
by a coastal state, and represents a larger biogeographic region that 
shares similar geophysical and ecological characteristics. Reserves 
operate within coastal communities, and have developed highly effective 
partnerships that link CZMA key partners to local decision makers. 
NERRA supports strengthening partnership linkages between NERRS, State 
Coastal Programs, and NOAA that will enhance our collective ability to 
deliver relevant science-based information to local communities.
    I appreciate the opportunity to share our comments and 
recommendations on the CZMA.

                                <all>

</pre></body></html>
